No. 21In the

Supreme Court of the United States

BENJAMIN A. APPLEBY,
Petitioner,
v.
STATE OF KANSAS,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of K ansas

PETITION FOR A WRIT OF CERTIORARI

Jonathan Laurans, Esq.
Counsel of Record
1609 West 92nd Street
Kansas City, Missouri 64114
(816) 421-5200
jlaurans@msn.com
Counsel for Petitioner

307805

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Whether the Fourteenth Amendment’s guarantee of
procedural due process is violated when a State supreme
court refuses to enforce its legislature’s directive that
all prisoners subjected to the State’s unconstitutional
judicially-decided enhanced-punishment scheme must
be resentenced, thereby depriving those aggrieved of a
valuable, statutorily-vested liberty interest.
2. Whether the Sixth Amendment’s guarantee of a
trial by jury requires a remand for a full resentencing
trial after an Alleyne violation is recognized.

ii
PARTIES TO PROCEEDING AND
DIRECTLY RELATED CASES
The parties to this proceeding appear on the cover.
Supreme Court Rule 14.1(b)(i). There are no corporate
entities involved. Supreme Court Rule 14.1(b)(ii) and 29.6.
Pursuant to Supreme Court Rule 14.1(b)(iii), below is
a list of all proceedings in other courts that are directly
related to this case:
• State v. Appleby, No. 04CR02934, Johnson County,
Kansas District Court (jury trial and sentencing).
Judgment entered Dec. 29, 2006.
• State v. Appleby, No. 98017, Kansas Supreme Court
(direct appeal of conviction and sentence). Judgment
affirmed Nov. 20, 2009.
• Appleby v. State, No. 10CV08873, Johnson County,
Kansas District Court (state post-conviction).
Judgment entered Aug. 2, 2012.
• Appleby v. State, No. 108777, Kansas Court of
Appeals (state post-conviction). Judgment affirmed
Feb. 28, 2014.
• Appleby v. Cline, No. 15-3038-JTM, United States
District Court for the District of Kansas (federal
habeas). Judgment entered Dec. 27, 2016.
• Appleby v. Cline, No. 17-3002, United States Court
of Appeals for the Tenth Circuit (federal habeas).
Judgment affirmed Sept. 28, 2017.

iii
• State v. Appleby, No. 04CR02934, Johnson County,
Kansas District Court (motion to correct illegal
sentence). Judgment entered Oct. 24, 2019.
• State v. Appleby, No. 122281, Kansas Supreme
Court (motion to correct illegal sentence). Judgment
affirmed Apr. 30, 2021; reconsideration denied, June
8, 2021.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO PROCEEDING AND
DIRECTLY RELATED CASES . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . 1
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . 11

v
Table of Contents
Page
1.

Whether the Fourteenth Amendment’s
guarantee of procedural due process
is violated when a State supreme court
ref uses t o en force it s leg islatu re’s
directive that all prisoners subjected to
the State’s unconstitutional judiciallydecided enhanced-punishment
scheme must be resentenced, thereby
depriving those aggrieved of a valuable,
statutorily-vested liberty interest . . . . . . . . . . . 13

2.

W h e t h e r t h e S i x t h A m e n d m e n t ’s
guarantee of a trial by jury requires
a remand for a full resentencing trial
after an Alleyne violation is recognized  . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
SUPREME COURT OF KANSAS, FILED
APRIL 30, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — TRANSCRIPT OF JUDGE’S
RULING IN THE DISTRICT COURT OF
JOHNSON COUNTY, KANSAS, CRIMINAL
C O U R T D E PA R T M E N T, D A T E D
OCTOBER 24, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . 20a
A PPEN DI X C — OR DER OF T H E
UNITED STATES COURT OF APPEALS
FOR THE T EN TH CIRCU IT, FILED
SEPTEMBER 28, 2017 . . . . . . . . . . . . . . . . . . . . . . . 34a
APPENDIX D — MEMORANDUM AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF KANSAS,
FILED DECEMBER 27, 2016 . . . . . . . . . . . . . . . . . 50a
A P P E N DI X E — O P I N ION OF T H E
SUPREME COURT OF KANSAS, DATED
NOVEMBER 20, 2009  . . . . . . . . . . . . . . . . . . . . . . . 78a
A PPEN DI X F — SU PPL EM EN TA L
M EMOR A N DU M OF T HE DIST RICT
COURT OF JOHNSON COUNTY, KANSAS
C R I M I NA L DE PA RT M EN T, F I L ED
DECEMBER 27, 2006 . . . . . . . . . . . . . . . . . . . . . . .  161a

vii
Table of Appendices
Page
APPENDIX G — DENIAL OF REHEARING
OF THE SUPREME COURT OF KANSAS,
DATED JUNE 8, 2021 . . . . . . . . . . . . . . . . . . . . . .  167a
APPENDIX H — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 168a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Alleyne v. United States,
570 U.S. 99, 133 S. Ct. 2151, 186 L. Ed. 2d 314
(2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Appleby v. Cline,
711 Fed. Appx. 459 (10th Cir. 2017) . . . . . . . . . . . . . . . 5
Appleby v. State,
318 P.3d 1019 (Kan. App. 2014)  . . . . . . . . . . . . . . . . . . 5
Apprendi v. New Jersey,
530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435
(2000)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 8
Bostock v. Clayton County, Georgia,
140 S. Ct. 1731, 207 L. Ed. 2d 218 (2020) . . . . . . . . . 27
Cafeteria and Restaurant Workers Union, Loacl
473, AFL-CIO v. McElroy,
367 U.S. 886, 81 S. Ct. 1743, 6 L. Ed. 2d 1230
(1961) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
State v. Coleman,
312 Kan. 114, 472 P.3d 85 (2020) . . . . . . . . . . . 9, 11, 12
Cordova v. City of Albuquerque,
816 F.3d 645 (10th Cir. 2016)  . . . . . . . . . . . . . . . . . . . 15

ix
Cited Authorities
Page
Elliott v. Martinez,
675 F.3d 1241 (10th Cir. 2012) . . . . . . . . . . . . . . . . . . 15
Ex parte Hull,
312 U.S. 546, 61 S. Ct. 640, 85 L. Ed. 1034 (1941)  . 16
Fetzer v. Raemisch,
803 Fed. Appx. 181 (10th Cir. 2020)  . . . . . . . . . . . . . 15
Fristoe v. Thompson,
144 F.ed 627 (10th Cir. 1998)  . . . . . . . . . . . . . . . . . . . 15
Greenholtz v. Inmates of Neb. Penal and
Correctional Complex,
442 U.S. 1, 99 S. Ct. 2100, 60 L. Ed. 2d 668
(1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20, 27
Haines v. Kerner,
404 U.S. 519, 92 S. Ct. 594, 30 L. Ed. 2d 652 (1972) . 16
Johnson v. Avery,
393 U.S. 483, 89 S. Ct. 747, 21 L. Ed. 2d 718 (1969) 16
Kirtdoll v. State,
306 Kan. 335, Syl. ¶ 1, 393 P.3d 1053 (2017) . . 8, 23, 27
Ky. Dep’t of Corr. v. Thompson,
490 U.S. 454, 109 S. Ct. 1904,
104 L. Ed. 2d 506 (1989) . . . . . . . . . . . . . . . . . . . .  15, 17

x
Cited Authorities
Page
Lamie v. U.S. Trustee,
540 U.S. 526, 124 S. Ct. 1023,
157 L. Ed. 2d 1024 (2004) . . . . . . . . . . . . . . . . . . . . . . 28
Lee v. Washington,
390 U.S. 333, 88 S. Ct. 994,
19 L. Ed. 2d 1212 (1968) . . . . . . . . . . . . . . . . . . . . . . . 16
Martinez v. Ryan,
566 U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 2d 272
(2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Montero v. Meyer,
13 F.3d 1444 (10th Cir. 1994) . . . . . . . . . . . . . . . . . . . 15
Morrell v. Wardens,
12 F.4th 626 (6th Cir. 2021)  . . . . . . . . . . . . . . . . . . . . 29
Neitzke v. Williams,
490 U.S. 319, 109 S. Ct. 1827,
104 L. Ed. 2d 338 (1989) . . . . . . . . . . . . . . . . . . . . . . . 18
Olim v. Wakinekona,
461 U.S. 238, 103 S. Ct. 1741,
75 L. Ed. 2d 813 (1983) . . . . . . . . . . . . . . . . . . . . . . . . 15
Puckett v. United States,
556 U.S. 129, 129 S. Ct. 1423,
173 L. Ed. 2d 266 (2009) . . . . . . . . . . . . . . . . . . . .  10, 11

xi
Cited Authorities
Page
Renchenski v. Williams,
622 F.3d 315 (3d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 19
Sandin v. Conner,
515 U.S. 472, 115 S. Ct. 2293,
132 L. Ed. 2d 418 (1995) . . . . . . . . . . . . . .  16, 17, 18, 19
Screws v. United States,
325 U.S. 91, 65 S. Ct. 1031,
89 L. Ed. 1495 (1945) . . . . . . . . . . . . . . . . . . . . . . . . . 16
State ex rel. Schmidt v. City of Wichita,
303 Kan. 650, 367 P.3d 282 (2016) . . . . . . . . . . . . . . . 26
State v. Appleby,
289 Kan. 1017, 221 P.3d 525 (Kan. 2009)  . . . . . . . . . . 5
State v. Appleby,
313 Kan. 352, 485 P.3d 1148 (Kan. 2021)  . . . . . . . . . . 6
State v. Appleby,
485 P.3d 1148 (Kan. April 30, 2021,
reconsid. denied, June 8, 2021)  . . . . . . . . . . . . 1, 12, 26
State v. Armstrong,
238 Kan. 559, 712 P.2d 1258 (1986) . . . . . . . . . . . . . . 25
State v. Astorga,
299 Kan. 395, 324 P.3d 1046 (May 23, 2014) . . . . . . . 22

xii
Cited Authorities
Page
State v. Brown,
303 Kan. 995, 368 P.3d 1101 (2016) . . . . . . . . . . . . . . 25
State v. Brown,
306 Kan. 330, 393 P.3d 1049 (2017) . . . . . . . . . . . . . . 23
State v. Carr,
331 P.3d 544, 2014 Westlaw 3681049
(July 25, 2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
State v. Coones,
301 Kan. 64, 339 P.3d 375 (December 12, 2014) . . . . 23
State v. DeAnda,
299 Kan. 594, 324 P.3d 1115 (May 23, 2014) . . . . . . . 22
State v. Hayes,
299 Kan. 861, 327 P.3d 414 (June 13, 2014) . . . . .  22-23
State v. Hill,
-- Kan. --, -- P.3d --, 2021 Westlaw 3573664
(Kan. 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
State v. Hilt,
299 Kan. 176, 322 P.3d 367 (Kan. 2014)  . . . . . . passim
State v. Holt,
300 Kan. 985, 336 P.3d 312 (October 31, 2014) . . . . . 23
State v. Horn,
288 Kan. 690, 206 P.3d 526 (2009) . . . . . . . . . . . . . . . 31

xiii
Cited Authorities
Page
State v. Johnson,
313 Kan. 339, 486 P.3d 544 (2021) . . . . . . . . . . 11-12, 22
State v. Killings,
301 Kan. 214, 340 P.3d 1186 (January 16, 2015) . . . . 23
State v. Lloyd,
299 Kan. 620, 325 P.3d 1122 (May 30, 2014) . . . . . . . 22
State v. Logson,
304 Kan. 3, 371 P.3d 836 (April 1, 2016) . . . . . . . . . . 23
State v. Mattox,
305 Kan. 1015, 390 P.3d 514 (March 10, 2017) . . . . . 23
State v. McGill,
271 Kan. 150, 22 P.3d 597 (2001) . . . . . . . . . . . . . . . . 25
State v. Molina,
299 Kan. 651, 325 P.3d 1142 (May 30, 2014) . . . . . . . 22
State v. Moore,
302 Kan. 685, 356 P.3d 275 (August 28, 2015) . . . . . 23
State v. Nguyen,
304 Kan. 420, 372 P.3d 1142 (2016) . . . . . . . . . . . 25, 26
State v. Ramos,
240 Kan. 485, 731 P.2d 837 (1987) . . . . . . . . . . . . . . . 25

xiv
Cited Authorities
Page
State v. Roeder,
300 Kan. 901, 336 P.3d 831 (October 24, 2014) . . . . . 23
State v. Salary,
301 Kan. 586, 343 P.3d 1165 (March 13, 2015) . . . . . 23
State v. Sedillos,
33 Kan. App. 2d 141, 98 P.3d 651 (2004) . . . . . . . . . . 26
State v. Soto,
299 Kan. 102, 322 P.3d 334 (Kan. 2014)  . . . . . . passim
State v. Sprague,
303 Kan. 418, 362 P.3d 828 (December 4, 2015)  . . . 23
State v. Sylva,
248 Kan. 118 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
State v. Trotter,
313 Kan. 365, 485 P.3d 649 (2021) . . . . . . . . . . . . 12, 22
State v. Warren,
302 Kan. 601, 356 P.3d 396 (August 28, 2015) . . . . . 23
Stine v. Fox,
731 Fed. Appx. 767 (10th Cir. 2018) . . . . . . . . . . . . . . 15
Swarthout v. Cooke,
562 U.S. 216, 131 S. Ct. 859,
178 L. Ed. 2d 732 (2011) . . . . . . . . . . . . . . . . . . . . . . . 16

xv
Cited Authorities
Page
United States v. Ameline,
409 F.3d 1073 (9th Cir. 2005) . . . . . . . . . . . . . . . . 30, 31
United States v. Antonakopoulos,
399 F.3d 68 (1st Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 30
United States v. Coles,
403 F.3d 764 (D.C. Cir. 2005) . . . . . . . . . . . . . . . . . . . 30
United States v. Crosby,
397 F.3d 103 (2nd Cir. 2005) . . . . . . . . . . . . . . . . . 10, 30
United States v. Dazey,
403 F.3d 1147 (10th Cir. 2005) . . . . . . . . . . . . . . . . . . 30
United States v. Hughes,
401 F.3d 540 (4th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 29
United States v. Mares,
402 F.3d 511 (5th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 30
United States v. Oliver,
397 F.3d 369 (6th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 29
United States v. Paladino,
401 F.3d 471 (7th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 30
United States v. Pirani,
406 F.3d 543 (8th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 30

xvi
Cited Authorities
Page
United States v. Rodriguez,
398 F.3d 1291 (11th Cir. 2005) . . . . . . . . . . . . . . . . . . 30
Wilkinson v. Austin,
545 U.S. 209, 125 S. Ct. 2384,
162 L. Ed. 2d 174 (2005) . . . . . . . . . . . . . . . . . . . . . . . 15
Williamson v. City of Hays,
275 Kan. 300, 64 P.3d 364 (2003) . . . . . . . . . . . . . . . . 26
Wolff v. McDonnell,
418 U.S. 539, 94 S. Ct. 2963,
41 L. Ed. 2d 935 (1974) . . . . . . . . . . . . . . .  16, 17, 19, 27
Younger v. Gilmore,
404 U.S. 15, 92 S. Ct. 250, 30 L. Ed. 2d 142 (1971),
aff’g Gilmore v. Lynch,
319 F. Supp. 105 (ND Cal. 1970)  . . . . . . . . . . . . . . . . 16
Statutes
U.S. Const., Amend. VI . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const., Amend. XIV  . . . . . . . . . . . . . . . . . . . . passim
U.S. Const., Amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
28 U.S.C. 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

xvii
Cited Authorities
Page
Civil Rights Act, Title VII . . . . . . . . . . . . . . . . . . . . . . . . 27
K.S.A 21-3439 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
K.S.A 21-4633 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-4634 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-4635 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
K.S.A 21-4636 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 24
K.S.A 21-4636(f) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
K.S.A 21-4637 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 24
K.S.A 21-4638 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 5, 24, 31
K.S.A 21-4639 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
K.S.A 21-4640 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-4701 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
K.S.A 21-4704 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
K.S.A 21-4706 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
K.S.A 21-4723 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

xviii
Cited Authorities
Page
K.S.A 21-6620 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-6621 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-6622 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-6623 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-6624 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-6625 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
K.S.A 21-6628 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
K.S.A 21-6628(c) . . . . . . . . . . . . . . . . . . . . . . . .  9, 10, 14, 24
K.S.A 21-6629(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
K.S.A 22-3504 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 6, 26, 32

1
PETITION FOR WRIT OF CERTIORARI
Benjamin Appleby respectfully petitions for a writ of
certiorari to review the April 30, 2021 judgment of the
Kansas Supreme Court in this case.
OPINION BELOW
The April, 2021 Kansas Supreme Court decision
at issue in this certiorari petition acknowledged the
unconstitutionality of Kansas’ “Hard 50” sentencing
scheme, which had previously been applied against
Petitioner Appleby by a judge rather than a jury, resulting
in a mandatory-minimum 50-year prison sentence. But the
Kansas Supreme Court refused to resentence Appleby
as required by the Kansas legislature, which specifically
mandated resentencings if the “Hard 50” ever later was
declared unconstitutional by either the Kansas Supreme
Court or the United States Supreme Court. See K.S.A.
21-4639 (now renumbered as K.S.A. 21-6628). The Kansas
Supreme Court’s decision is reported. and is published
at State v. Appleby, 485 P.3d 1148 (Kan. April 30, 2021,
reconsid. denied, June 8, 2021)(motion to correct illegal
sentence per K.S.A. 22-3504). This decision appears at
Appendix A, pages 1a-19a.
JURISDICTION
The decision of the Kansas Supreme Court was
entered on April 30, 2021, but a timely reconsideration
motion was submitted. The motion was denied June 8,
2021. Per this Court’s “Covid” Order of July 19, 2021, this
petition is timely because it is being filed within 150 days
from the date of the Kansas Supreme Court’s June 8, 2021

2
order denying reconsideration of the judgment for which
certiorari review is being sought. This Court’s jurisdiction
is statutorily granted by 28 U.S.C. 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Federal Constitutional provisions involved in this
case are the Sixth Amendment:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein
the crime shall have been committed, which
district shall have been previously ascertained
by law, and to be informed of the nature and
cause of the accusation; to be confronted with
the witnesses against him; to have compulsory
process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his
defence.
and the Fourteenth Amendment, Section 1:
All persons born or naturalized in the United
States and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.

3
Kansas’ “Hard 50” sentencing scheme, K.S.A. 21-4635
to K.S.A. 21-4638, applied against Petitioner in 2006, but
subsequently declared unconstitutional in 2014, is found at
Appx. H, pp. 168a-173a. The last provision of the “Hard 50”
scheme, K.S.A. 21-4639 (now renumbered as K.S.A. 216628), promises re-sentencing upon a judicial declaration
of the scheme’s unconstitutionality, without cumbersome
retroactivity considerations:
In the event the mandatory term of imprisonment
or any provision of this act authorizing such
mandatory term is held to be unconstitutional
by the supreme court of Kansas or the United
States supreme court, the court having
jurisdiction over a person previously sentenced
shall cause such person to be brought before the
court and shall modify the sentence to require
no mandatory term of imprisonment and shall
sentence the defendant as otherwise provided
by law.
See Appx. H, pp. 174a-176a.
STATEMENT OF THE CASE
The Kansas legislature in 1994 enacted a sentencing
scheme for homicides (among other crimes) nicknamed the
“Hard 50” because its mandatory-minimum punishment
for premeditated murder would be 50 years, if aggravating
factors were found by a judge who would employ the
preponderance standard. K.S.A. 21-4635-4638. The
legislature seemingly questioned the constitutionality
and longevity of its scheme from its inception, because
law makers contemporaneously tacked on a f inal

4
statutory provision in the scheme, guaranteeing that
if “any provision” of the “Hard 50” was later deemed
unconstitutional by either the Kansas Supreme Court or
the United States Supreme Court, those affected shall be
re-sentenced to a term without a minimum-mandatory
component. K.S.A. 21-4639. As the saying goes, “Shall
means must.”
This final statutory provision is significant because
it promises re-sentencing to prisoners previously
incarcerated under K.S.A. 21-4635 et seq. without them
first needing to endure and prevail in rounds of postconviction litigation lobbying for retroactive application of
any case precedents ultimately declaring the “Hard 50”
unconstitutional, i.e., the first two cases to do so, State
v. Soto, 299 Kan. 102, 322 P.3d 334 (Kan. 2014) and State v.
Hilt, 299 Kan. 176, 322 P.3d 367 (Kan. 2014), or the United
States Supreme Court decision on which they were based,
Alleyne v. United States, 570 U.S. 99, 133 S.Ct. 2151, 186
L.Ed.2d 314 (2013). The constitutional premise for these
cases is the Sixth Amendment, specifically its guarantee
of a jury trial in criminal cases. See Alleyne, 133 S.Ct. at
2155 (holding that “Any fact that, by law, increases the
penalty for a crime is an ‘element’ that must be submitted
to the jury and found beyond a reasonable doubt.”); see
also, Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348,
147 L.Ed.2d 435 (2000)(same, but in context of increasing
statutory maximum sentences).
Petitioner, sentenced to the “Hard 50” in 2006, has been
trying for years to overturn his unconstitutional sentence,
like the other 50 or so Kansas inmates affected. He has been
forced to resort to the protracted post-conviction litigation
that K.S.A. 21-4639 was designed to circumvent. Still getting

5
nowhere, Petitioner asks this Court to accept review under
28 U.S.C. 1257(a) and require Kansas to fulfill its statutory
promise, as constitutionally compelled by the Fourteenth
Amendment’s due process guarantee.
The procedural history, and the preservation of issues
underlying this Petition, are as follows:
1. A fter a seven day trial in Johnson County,
Kansas District Court, which ended in early December,
2006,Petitioner Benjamin Appleby was convicted of capital
murder for the 2002 killing of A.K. After the trial judge not Appleby’s jury - found “aggravating factors,” the judge
sentenced Appleby on December 26, 2006 to Kansas’ “Hard
50” prison term, which mandates 50 be served before parole
eligibility. K.S.A. 21-4635, 21-4636(f), and 21-4638.
2. Appleby unsuccessfully challenged his conviction and
the constitutionality of his sentence on direct appeal. State v.
Appleby, 289 Kan. 1017,221 P.3d 525 (Kan. 2009)(Appx. E,
pp. 78a, 151a-152a). He then lost his attempt at State postconviction relief, before bringing his case to Federal court
via 28 U.S.C. 2254. See Appleby v. State, 318 P.3d 1019
(Kan. App. 2014). Although the Kansas Supreme Court
in April, 2014, declared the “Hard 50” sentencing scheme
unconstitutional in Soto, 322 P.3d 334, the United States
District Court for the District of Kansas rejected Appleby’s
“2254” application in December, 2016. Appleby v. Cline, 153038-JTM (D. Kan. 2016)(Appx. D, pp. 50a, 69a-72a). The
Tenth Circuit denied Appleby a Certificate of Appealability in
2017. Appleby v. Cline, 711 Fed. Appx. 459 (10th Cir. 2017)
(Appx. C, pp. 34a, 42a-43a). This Court declined certiorari
review on February 26, 2018, in Case No. 17-1039.

6
3. Following the Kansas Supreme Court’s 2014
declaration in Soto and Hilt that the “Hard 50” sentencing
scheme was unconstitutional, Appleby was among the
first group of inmates to pursue their statutory right to
resentencing up through the Kansas courts. On April 10,
2019, Appleby filed a “Motion to Correct Illegal Sentence”
under K.S.A. 22-3504 (illegal sentence can be corrected “at
any time”) in his trial court, the District Court of Johnson
County, Kansas. Appleby’s motion was rooted in the
legislative guarantee of K.S.A. 21-4639, which commanded
the judiciary to resentence Appleby and others similarly
situated if either the Kansas Supreme Court or the United
States Supreme Court ever declared the “Hard 50” scheme
unconstitutional. Appleby’s motion was denied by the trial
court on October 24, 2019, and appealed directly to the
Kansas Supreme Court, which refused enforcement of K.S.A.
21-4639 on April 30, 2021 (with rehearing denied on June 8,
2021). State v. Appleby, 313 Kan. 352, 485 P.3d 1148,11501152 (Kan. 2021)(Appx. A, pp. 1a-19a, Appx. G, p. 167a).
4. The first basis for certiorari review is whether due
process guaranteed under the Fourteenth Amendment
requires the State of Kansas to resentence Appleby as
was statutorily guaranteed to him, per K.S.A. 21-4639.
Though not briefed specifically as a “liberty interest”
argument, the Fourteenth Amendment was cited by
Appleby’s attorney when she pointed out to the district
court that Kansas’ “Hard 50” sentencing scheme had
been declared unconstitutional, which is the condition
precedent to enforcement of K.S.A. 21-4639. (In the 2014
Soto and Hilt decisions, Kansas’ “Hard 50” scheme was
held violative of the Sixth Amendment’s right to trial by
jury as established a year earlier by Alleyne, extended
to Kansas inmates by the Due Process Clause of the

7
Fourteenth Amendment.) The district court in its ruling
acknowledged the statute, but decided that Appleby’s
“Hard 50” sentence, itself, had been upheld prior to Soto
and Hilt, and therefore did not qualify Appleby for the
relief promised by the legislature:
K.S.A. 21- 4639 applies to cases where a
court has found that a defendant’s sentence
is unconstitutional and vacated the sentence.
Appleby’s Hard 50 sentence has been found
constitutional and legal under K.S.A. 21-4635.
... The provisions of K.S.A. 21-4635 were
constitutional at the time the sentence was
handed down against Mr. Appleby. His 6th and
14th Amendment rights were not violated.
See Appx. B, pp. 20a, 22a, 29a-30a, 31a.
In making this ruling, the district court paid only passing
reference to the Fourteenth Amendment’s applicability to
this case:
As noted, the defendant is not arguing against
the constitutionality of the Hard 50 law,
although mixed in through that argument is
that his rights under the due process clause
of the 14th Amendment and 6th Amendment
guarantee a trial by jury has been violated
under the sentencing structure under which Mr.
Appleby was subjected in 2006 and as finalized
after his direct appeal and the finality of that
appeal 90 days after the mandate was issued
by the Kansas Supreme Court.

8
See Appx. B, p. 30a.
On appeal from this decision, Appleby’s counsel
cited to the Fourteenth Amendment in her briefing to
the Kansas Supreme Court, though her briefing was
concededly based almost exclusively on Kansas law.
(She did rely heavily on United States Supreme Court
precedent interpreting and applying the Sixth and
Fourteenth Amendments, i.e., Alleyne and Apprendi,
but more so in the context of why Appleby’s “Hard 50”
sentence was unconstitutional, as opposed to the violation
of his liberty interest by refusing to resentence him.)
However, as will be demonstrated below, Appleby’s liberty
interest arising under the Fourteenth Amendment did
not fully ripen until the Kansas Supreme Court’s ruling
made clear that there was no procedural vehicle through
which Appleby could access his resentencing promised
by the Kansas legislature in K.S.A. 21-4639. The Kansas
Supreme Court acknowledged its 2014 declaration that the
“Hard 50” scheme was unconstitutional, but sidestepped
the consequences mandated by the Kansas legislature
in K.S.A. 21-4639 (cited by the Court under its current
number, 21-6628), which dispensed with the retroactivity
considerations behind which the Kansas courts have
hidden when refusing Appleby his resentencing:
This court extended Alleyne to Kansas’ hard
50 sentencing statutes (hard 40 for crimes
committed before July 1, 1999) in Soto, 299 Kan.
at 122-24. We later held the rule of law declared
in Alleyne cannot be applied retroactively to
invalidate a sentence that was final before the
date of the Alleyne decision. Kirtdoll v. State,
306 Kan. 335, Syl. ¶ 1, 393 P.3d 1053 (2017).

9
*****
Finally, like Coleman, Appleby offers K.S.A.
2020 Supp. 21-6628(c) as a basis for relief. In
fact, Appleby solely relies on this provision.
But we concluded in Coleman that K.S.A. 2020
Supp. 21-6628(c) does not provide defendants in
Appleby’s position a mechanism for relief. 312
Kan. at 121-24. We interpreted K.S.A. 2020
Supp. 21-6628 to be a “fail-safe provision” that
“[b]y its clear and unequivocal language . . .
applies only when the term of imprisonment or
the statute authorizing the term of imprisonment
are found to be unconstitutional.” 312 Kan. at
124.
Appleby disagrees with Coleman’s statutory
analysis. He argues K.S.A. 2001 Supp. 21-4635
authorized his sentence and this court ruled
K.S.A. 21-4635 was unconstitutional in Soto, 299
Kan. at 124. Coleman, however, held K.S.A. 214635 “was part of the procedural framework by
which the enhanced sentence was determined”
and the root authorization for Coleman’s
sentence was the statute that provided for a
life sentence. Coleman, 312 Kan. at 124. Here,
Appleby committed capital murder, and the
Legislature has authorized a life sentence for
someone convicted of that crime. See K.S.A.
2001 Supp. 21-3439; K.S.A. 2001 Supp. 21-4706.
A life sentence has “never been determined to
be categorically unconstitutional” and “such
sentences continue to be imposed in qualifying
cases in Kansas.” Coleman, 312 Kan. at 124.

10
Thus, Appleby’s sentence does not trigger the
“fail-safe” provision of K.S.A. 2020 Supp. 216628(c).
Thus, K.S.A. 2020 Supp. 21-6628(c) does not
require resentencing Appleby.
See Appx. A, pp. 1a, 6a, 9a-10a.
The second basis for certiorari is whether those
aggrieved like Appleby are entitled to full hearings, or
only Crosby hearings, when resentenced. The circuit split
over this issue was not cited by Appleby’s counsel below.
She did, however, exhaustively brief the applicable Kansas
sentencing guidelines analysis, as K.S.A. 21-4639 all but
guarantees a full resentencing, not a Crosby hearing.
Because the Kansas courts refused to avail Appleby of
K.S.A. 21-4639 and resentence him, they did not address
the type of resentencing Appleby should have received.
The degree to which these issues were framed under
Federal law may well be an issue for further briefing if
certiorari is granted. See Puckett v. United States, 556
U.S. 129, 134-135,129 S.Ct. 1423, 173 L.Ed.2d 266 (2009)
(four-factor test for “plain error review” discussed, and
applied to “forfeited” claim; “If an error is not properly
preserved, appellate-court authority to remedy the error
(by reversing the judgment, for example, or ordering a
new trial) is strictly circumscribed.”). Appleby’s “liberty
interest” argument made here certainly satisfies all four
of the “plain error review” prerequisites. His Kansas
counsel certainly was advocating for the resentencing
promised by the Kansas legislature in K.S.A. 21-4639,
and did not intentionally relinquish or abandon the

11
argument that the Fourteenth Amendment supports the
Kansas resentencing statute. The Kansas judiciary’s
refusal to resentence those previously aggrieved by the
unconstitutionality of the “Hard 50” sentencing scheme
is unjustifiable, and not reasonably debatable. Likewise,
it cannot be argued that Appleby’s substantial rights
are unaffected. After all, K.S.A. 21-4639 guarantees
a resentencing with no mandatory minimum term of
incarceration, whereas he currently is serving life, with
a 50 year minimum. And lastly, discretion ought to be
exercised here, to ensure that citizens see that a State’s
judiciary cannot wholesale ignore a legislative directive
that inures to the benefit of those in the State whose
constitutional rights had previously been violated by
the judiciary. To not accept review and order a remedy
here would seriously undermine the “public reputation
of judicial proceedings” in Kansas. Puckett, 556 U.S.
at 135; see also, Martinez v. Ryan, 566 U.S. 1, 132 S.Ct.
1309, 182 L.Ed.2d 272 (2012)(ineffective assistance of
counsel at initial-review collateral proceedings may excuse
procedural default if cause and prejudice shown).
REASONS FOR GRANTING THE PETITION
In April, 2014, eight years after Petitioner Appleby’s
“Hard 50” sentence was imposed, and five years after
its 2009 affirmance by the Kansas Supreme Court, the
“Hard 50” scheme was declared unconstitutional, just as
Appleby and those similarly situated had been arguing
for years. Soto, 322 P.3d 334; Hilt, 322 P.3d 367. However,
since 2014 the Kansas Supreme Court has steadfastly
refused to make Soto, Hilt or any of its other “Hard 50”
decisions retroactive. State v. Coleman, 312 Kan. 114, 472
P.3d 85, 89-90 (2020); State v. Johnson, 313 Kan. 339, 486

12
P.3d 544, 547-548 (2021); State v. Trotter, 313 Kan. 365, 485
P.3d 649, 652-653 (2021).
But the Kansas legislature foresaw this possibility way
back in 1994, and so as part of the “Hard 50” scheme, it
included a final provision numbered K.S.A. 21-4639, which
dispenses with judicially-ordered retroactivity of any
declaration of unconstitutionality, and instead mandates
resentencing for those like Appleby who received a “Hard
50” sentence prior to Soto and Hilt.
Beginning back in the trial court in April, 2019,
Appleby has been seeking his legislatively-guaranteed
resentencing, but to no avail. Earlier this year, in order
to avoid the resentencings envisioned by the Kansas
legislature, the Kansas Supreme Court in a convoluted
decision ruled that K.S.A. 21-4639 (now K.S.A. 21-6628)
only applies to the procedural part of the “Hard 50”
scheme, i.e., K.S.A. 21-4635 and its mandatory-minimum,
but not to the statutory maximum part of such sentences,
i.e., “life.” Therefore, no one sentenced under the “Hard
50” prior to Soto, Hilt and their progeny can get relief
under the Kansas legislature’s “Hard 50” resentencing
statute. Appleby, 485 P.3d at1150-1152, citing Coleman,
472 P.3d at 92. Tortured reasoning, to say the least.
Especially given that the Kansas legislature penned that
the unconstitutionality of “any provision” in the “Hard 50”
sentencing scheme would trigger resentencings across
the board.
When a State court denies prisoners access to
the courts to claim a liberty interest promised by the
legislature, procedural due process is impinged, and the
vested liberty interest is stolen back. Appleby asks that

13
this Court rectify this wrong, as phrased in the first
Question Presented, and order a full resentencing by a
jury, as addressed in the second Question Presented,
thereby resolving a sixteen year-old circuit split:
1. Whether the Fourteenth Amendment’s guarantee
of procedural due process is violated when a State
supreme court refuses to enforce its legislature’s
directive that all prisoners subjected to the State’s
unconstitutional judicially-decided enhancedpunishment scheme must be resentenced, thereby
depriving those aggrieved of a valuable, statutorilyvested liberty interest.
Liberty Interest and Due Process:
To state the issue distinctly is to resolve the
issue decisively. Must the Kansas judiciary provide a
procedure for the statutorily guaranteed resentencing
of Benjamin Appleby under K.S.A. 21-4639 following
the Kansas Supreme Court’s declaration in 2014 that the
“Hard 50” sentencing scheme used against Appleby is
unconstitutional? Of course.
The Kansas legislature in a 1994 directive to the
Kansas judicial branch commanded that district court
judges “shall” resentence any defendant punished under
the “Hard 50” scheme if any of its provisions are later
declared unconstitutional:
In the event the mandatory term of imprisonment
or any provision of this act authorizing such
mandatory term is held to be unconstitutional
by the supreme court of Kansas or the United

14
States supreme court, the court having
jurisdiction over a person previously sentenced
shall cause such person to be brought before the
court and shall modify the sentence to require
no mandatory term of imprisonment and shall
sentence the defendant as otherwise provided
by law.
K.S.A. 21-4639 (now K.S.A. 21-6628(c) (2011)); Appx.
H, p. 174a; see also, pp. 175a-176a.
This legislative directive is not discretionary. It is not
aspirational. It does not require a motion from a “Hard 50”
defendant as a condition precedent to its invocation. Its
resentencing relief is not subject to a waiver argument by
the State. Rather, the courts of Kansas have been directed
to resentence any defendant who had been sentenced to
a “Hard 50” punishment prior to the sentencing scheme
being declared unconstitutional. The Kansas Supreme
Court’s refusal earlier this year to apply this remedial
statute in the case of Appleby (and others) violates
procedural due process by putting beyond all possible
reach a statutorily-created and vested liberty interest.
The Kansas Supreme Court’s decision renders K.S.A.
21-4639 (now K.S.A. 21-6628) meaningless, and thus
must be reversed by this Court under the Fourteenth
Amendment’s Due Process Clause.
The underlying analysis for a due process/ liberty
interest claim under the Fourteenth Amendment begins
with the language of the provision, itself: “No State shall
... deprive any person of life, liberty, or property, without
due process of law...” In assessing due process claims,
courts are to ask two questions: “(1) whether the plaintiff

15
has shown the deprivation of an interest in ‘life, liberty,
or property’ and (2) whether the procedures followed by
the government in depriving the plaintiff of that interest
comported with ‘due process of law.’” Elliott v. Martinez,
675 F.3d 1241, 1244 (10th Cir. 2012).
To invoke procedural protection, a person “must
establish that one of these rights is at stake.” Wilkinson
v. Austin, 545 U.S. 209, 221, 125 S.Ct. 2384, 162 L.Ed.2d
174 (2005). Liberty interests can either arise from the
Constitution itself, by reason of guarantees implicit in
the word “liberty,” or may arise from an expectation or
interest created by State laws or policies. Cordova v. City
of Albuquerque, 816 F.3d 645, 656–57 (10th Cir. 2016);
Fetzer v. Raemisch, 803 Fed. Appx. 181, 183–84 (10th
Cir. 2020).
Granted, not all State laws create constitutionally
protected liberty interests. To determine which statutes
create liberty interests, courts must look to “the language
of the statutes themselves.” Montero v. Meyer, 13 F.3d
1444, 1448 (10th Cir.1994). “[A] State creates a protected
liberty interest by placing substantive limitations on
official discretion.” Ky. Dep’t of Corr. v. Thompson, 490
U.S. 454, 462, 109 S.Ct. 1904, 104 L.Ed.2d 506 (1989),
quoting Olim v. Wakinekona, 461 U.S. 238, 249, 103 S.Ct.
1741, 75 L.Ed.2d 813 (1983). So “[a] statute which allows
a decisionmaker to deny the requested relief within its
unfettered discretion does not create a constitutionallyrecognized liberty interest.” Stine v. Fox, 731 Fed. Appx.
767, 769 (10th Cir. 2018), quoting Fristoe v. Thompson,
144 F.ed 627, 630 (10th Cir. 1998). But when States do
“plac[e] substantive limitations on official discretion,” they
do “create[ ] a protected liberty interest.” Stine, 731 Fed.
Appx. at 769-770.

16
Prisoners are protected under the Equal Protection
Clause of the Fourteenth Amendment. Lee v. Washington,
390 U.S. 333, 88 S.Ct. 994, 19 L.Ed.2d 1212 (1968). And
prisoners may also claim the protections of the Due
Process Clause. Haines v. Kerner, 404 U.S. 519, 92 S.Ct.
594, 30 L.Ed.2d 652 (1972); Screws v. United States, 325
U.S. 91, 65 S.Ct. 1031, 89 L.Ed. 1495 (1945).
“When [] a State creates a liberty interest, the Due
Process Clause requires fair procedures for its vindication
— and federal courts will review the application of those
constitutionally required procedures.” Swarthout v.
Cooke, 562 U.S. 216, 220, 131 S. Ct. 859, 862, 178 L. Ed.
2d 732 (2011).
The liberty interest at issue here is an inmate’s freedom
from restraint, “which imposes atypical and significant
hardship on the inmate.” Sandin v. Conner, 515 U.S. 472,
483–84, 115 S. Ct. 2293, 2300, 132 L. Ed. 2d 418 (1995).
Although “his rights may be diminished by the needs and
exigencies of the institutional environment, a prisoner is
not wholly stripped of constitutional protections when he
is imprisoned for crime.” Wolff v. McDonnell, 418 U.S.
539, 555–56, 94 S. Ct. 2963, 2974, 41 L. Ed. 2d 935 (1974).
“There is no iron curtain drawn between the Constitution
and the prisons of this country.” Id. Prisoners retain the
right of access to the courts. Younger v. Gilmore, 404 U.S.
15, 92 S.Ct. 250, 30 L.Ed.2d 142 (1971), aff’g Gilmore v.
Lynch, 319 F.Supp. 105 (ND Cal.1970); Johnson v. Avery,
393 U.S. 483, 89 S.Ct. 747, 21 L.Ed.2d 718 (1969); Ex parte
Hull, 312 U.S. 546, 61 S.Ct. 640, 85 L.Ed. 1034 (1941).
A person’s liberty is to be equally protected, even
when the liberty itself is a statutory creation of the State.

17
Wolff, 94 S. Ct. at 2975–76. “The touchstone of due process
is protection of the individual against arbitrary action
of government.” Id. Here, the Kansas legislature, itself,
has not only provided a statutory right to the sentence
reduction, but the legislature also specified that it is to
be mandatorily applied retroactively upon the ruling of
an unconstitutional sentencing provision either by the
Supreme Court of Kansas or the Supreme Court of the
United States. See K.S.A. 21-4639 (now K.S.A. 21-6628;
“ ... the court having jurisdiction over a person previously
sentenced shall cause such person to be brought before the
court and shall modify the sentence ...”). See Thompson,
109 S.Ct. at 1909-1910 (predicates for liberty interest are
“substantive predicates” limiting exercise of discretion,
and “mandatory language” requiring a particular outcome
of “substantive predicates” found).
In Wolff, the Court concluded that a State-created
right to “good time credits” against the remainder of
a prison sentence constituted a liberty interest of “real
substance” such that certain procedural requirements
were necessitated. Id., 94 S.Ct. at 2975. If “good time
credits” - which are granted by the State when earned
by the inmate - constitute a liberty interest, then
it goes without saying that a statutory promise of a
sentence reduction upon a declaration of sentencing-law
unconstitutionality - which is guaranteed by the State
in remedy for its own error - is also a liberty interest.
In other words, the Kansas legislature’s promise of a
sentence reduction to the State’s “Hard 50” inmates whose
sentences had been determined by judicial fact-finding
constitutes a statutorily-created true liberty interest, not
the type of trivial prisoner claim that the Court in Sandin
and other cases has been concerned with eliminating from

18
the litigation pipeline. See, e.g., Neitzke v. Williams, 490
U.S. 319, 325-326, 109 S.Ct. 1827, 1832, 104 L.Ed.2d 338
(1989)(recognizing “meritless ... complaints in the federal
courts” cause problems for judiciary).
Here, Mr. Appleby’s current sentence - without
reduction - keeps him incarcerated for a mandatory
minimum of 50 years, whereas the State-created liberty
interest would work to resentence him to a term with no
mandatory minimum at all, which obviously clears by
leaps and bounds the Sandin Court’s test of an “atypical
and significant hardship” in relation to ordinary prison
life. Id., 115 S.Ct. at 2300. (In Sandin, the inmate, Conner,
was serving a sentence of 30-years-to-life for murder,
kidnapping, and burglary, when he was subjected to a
strip search and a rectal examination, during which he
directed foul language at a correctional officer. Conner was
charged with disciplinary infractions. When he appeared
before a prison disciplinary committee, his request to
present witnesses was refused. Conner later brought
suit alleging deprivation of his rights. The case ascended
to this Court, where the majority held that neither the
State’s prison regulations or the Due Process Clause of
the 14th amendment offered Conner a protected liberty
interest that would entitle him to procedural due process
rights in prison disciplinary proceedings. Nevertheless,
Sandin deals w ith prison reg ulations in internal
disciplinary proceedings, not a State statute remedying
unconstitutional district court sentencing procedures.
Because the latter involves a determination of an
individual’s substantive right to exercise freedom of action
without “government restraint,” it is a liberty interest in
the truest sense. Id., 115 S.Ct. at 2307.)

19
The State of Kansas - having created the right
to retroactive application of a sentence reduction and
itself recognizing that its application is entangled with
an inmate’s freedom from restraint - cannot be heard
to disclaim that it has created a true liberty interest
in every sense of the concept. See Sandin, 115 S.Ct. at
2297-2300 (second way liberty interest is created is by
the State through a statute); Renchenski v. Williams,
622 F.3d 315, 325 (3rd Cir. 2010)(distinguishing “statecreated liberty interest” from “independent due process
liberty interest”). All Kansas prisoners subjected to the
unconstitutional version of the “Hard 50” sentencing
scheme have a State-created liberty interest with real
substance, one which is sufficiently embraced within
Fourteenth Amendment’s notion of “liberty” to entitle
them to the statutory remedial procedure crafted by
the Kansas legislature. Nothing short of resentencing is
appropriate under the plain language of K.S.A. 21-4639,
and this result is required by the Due Process Clause
to ensure that the State-created right is not arbitrarily
abrogated. Wolff, 94 S. Ct. at 2975–76.
With a liberty interest established, the next task
is to evaluate the due process, if any, afforded to said
liberty interest. The “analysis [] parallels the accepted
due process analysis as to property [interests].” Id. Thus,
courts are expected to provide some kind of hearing before
a person is finally deprived of his or her liberty interest.
For example, in Greenholtz v. Inmates of Neb. Penal
and Correctional Complex, 442 U.S. 1, 99 S.Ct. 2100, 60
L.Ed.2d 668 (1979), the Court found that a prisoner subject
to a parole statute received adequate process when he
was allowed an opportunity to be heard and was provided
a statement of the reasons why parole was denied. The

20
Greenholtz Court held that “[t]he Constitution does not
require more.” Id.
Placing Greenholtz in context so that it can be
contrasted against Mr. Appleby’s situation, the Greenholtz
inmates alleged that they had been unconstitutionally
denied parole. Id. Their claim centered on a State statute
that set the date for discretionary parole at the time the
minimum term of imprisonment less good time credits
expired. Id. The statute ordered release of a prisoner
at that time, unless one of four specific conditions were
shown. Id. at 2105–2106. The Court apparently accepted
the inmates’ argument that the word “shall” in the statute
created a legitimate expectation of release absent the
requisite finding that one of the justifications for deferral
existed, since the Court concluded that some measure of
constitutional protection was due. Id. Nevertheless, the
State ultimately prevailed because the minimal process it
had awarded the prisoners was deemed sufficient under
the Fourteenth Amendment. Id.
By contrast, K.S.A. 21-4639 does not create or accept
contingencies for resentencings beyond the threshold that
the “Hard 50” be declared unconstitutional by either the
Kansas Supreme Court or this Court, which happened in
2014 in the aforementioned Kansas cases of Soto and Hilt.
The Kansas legislature in K.S.A. 21-4639 also provided
the exact procedure to be followed, which allows for no
discretion, in that the sentencing court is directed to
“cause such person [inmate] to be brought before the court
and shall modify the sentence to require no mandatory
term of imprisonment and shall sentence the defendant
as otherwise provided by law.” This procedure comports
with what this Court has held, namely that “(t)he very

21
nature of due process negates any concept of inflexible
procedures universally applicable to every imaginable
situation.” Cafeteria and Restaurant Workers Union,
Loacl 473, AFL-CIO v. McElroy, 367 U.S. 886, 895, 81
S.Ct. 1743, 1748, 6 L.Ed.2d 1230 (1961). “[C]onsideration of
what procedures due process may require under any given
set of circumstances must begin with a determination of
the precise nature of the government function involved as
well as of the private interest that has been affected by
governmental action.” Id. Therefore, while the minimum
levels of procedure that a prisoner is owed has yet to be
determined in its entirety by this Court, this is not a
concern here because the Kansas legislature has already
provided direction and remedy. This is therefore consistent
with the due process suggested by the Greenholtz case.
As has been demonstrated, K.S.A. 21-4639 vests
Mr. Appleby with a statutorily-created and indisputable
liberty interest, in that it commands the Kansas judicial
branch to resentence Appleby and others similarly
situated now that the “Hard 50” sentencing scheme has
been declared unconstitutional by the Kansas Supreme
Court. This same statute even provides the procedure
to remedy the previous wrong - imposition of an illegal
sentence - and vindicate the liberty interest. The Kansas
Supreme Court’s abject refusal to recognize and enforce
Mr. Appleby’s right to his liberty interest and due process
cries out for action by this Court in the form of a grant of
certiorari, and a reversal-and-remand with instructions to
the Kansas Supreme Court that it order a new sentencing
hearing for Appleby.
Mr. Appleby is not the only stakeholder for whom a
certiorari grant will mean a measure of justice. See, e.g.,

22
Johnson, 313 Kan. 339, 486 P.3d 544; Trotter, 313 Kan. 365,
485 P.3d 649; State v. Hill, -- Kan. --, -- P.3d --, 2021 Westlaw
3573664 (Kan. 2021).
Periphery Considerations:
No doubt the State of Kansas will attempt to evade the
this Court’s grant of certiorari, and the undertaking by
this Court of substantive analysis, by instead redirecting
the Court to potential procedural hurdles. But any of those
would be easily surmounted. Principles of comity between
the Federal and State systems will not be affronted by
the granting of certiorari review here, because Kansas
law does not erect any walls which serve to insulate the
underlying Kansas Supreme Court decision behind a
barrier of unique State law. Stated another way, there
is no sovereignty interest Kansas has which would
somehow trump this Court’s recognition of Mr. Appleby’s
constitutionally protected liberty interest.
For example, all of the reversals of “Hard 50”
sentences and remands for resentencings found in Kansas
jurisprudence since April 11, 2014 (the decision date for
Soto and Hilt) have all occurred in the direct-appeal process,
not in collateral review proceedings. The significance of
this fact is that K.S.A. 21-4639 and its later version, K.S.A.
21-6628, have never been deployed by the Kansas appellate
courts. Instead, the Kansas Supreme Court simply reversed
the sentences in those case, resulting in an automatic remand
for resentencing. See State v. Astorga, 299 Kan. 395, 324
P.3d 1046 (May 23, 2014); State v. DeAnda, 299 Kan. 594,
324 P.3d 1115 (May 23, 2014); State v. Lloyd, 299 Kan. 620,
325 P.3d 1122 (May 30, 2014); State v. Molina, 299 Kan.
651, 325 P.3d 1142 (May 30, 2014); State v. Hayes, 299 Kan.

23
861, 327 P.3d 414 (June 13, 2014); State v. Carr, 331 P.3d
544, 2014 Westlaw 3681049 (July 25, 2014)(death penalty
case discussing unconstitutional “Hard 50” statutes being
amended by legislature after Alleyne); State v. Roeder, 300
Kan. 901, 336 P.3d 831 (October 24, 2014); State v. Holt, 300
Kan. 985, 336 P.3d 312 (October 31, 2014); State v. Coones, 301
Kan. 64, 339 P.3d 375 (December 12, 2014); State v. Killings,
301 Kan. 214, 340 P.3d 1186 (January 16, 2015); State v.
Salary, 301 Kan. 586, 343 P.3d 1165 (March 13, 2015); State v.
Warren, 302 Kan. 601, 356 P.3d 396 (August 28, 2015); State
v. Moore, 302 Kan. 685, 356 P.3d 275 (August 28, 2015); State
v. Sprague, 303 Kan. 418, 362 P.3d 828 (December 4, 2015);
State v. Logson, 304 Kan. 3, 371 P.3d 836 (April 1, 2016); and,
State v. Mattox, 305 Kan. 1015, 390 P.3d 514 (March 10, 2017).
As the post-conviction cases trickled through the
litigation pipeline, virtually every single attorney seeking
relief overlooked K.S.A. 21-4639 and K.S.A. 21-6628,
and instead argued over and over again that Alleyne
v. United States, 133 S.Ct. 2151, 186 L.Ed.2d 314 (2013)
- the case upon which Soto and Hilt are based – should
be declared retroactive. However, on May 12, 2017, the
Kansas Supreme Court in Kirtdoll v. State, 306 Kan. 335,
393 P.3d 1053 (2017), ruled that Alleyne is not available,
via the rules for retroactivity, to correct sentences imposed
upon those defendants sentenced before Alleyne’s inception
date. The same day, the Kansas Supreme Court released
State v. Brown, 306 Kan. 330, 393 P.3d 1049 (2017), explicitly
declining retroactive application of Soto as well. In neither
case did appellate counsel for Messrs. Kirtdoll or Brown seek
invocation of K.S.A. 21-4639 as an alternative basis for relief.
Kirtdoll and Brown thus both overlook the fact
that the Kansas legislature had actually superseded

24
(or, circumvented) all judicially-conducted retroactivity
analysis way back in 1994, when - as part of the “Hard
50” sentencing scheme - it passed K.S.A. 21-4639 (now
K.S.A. 21-6628). Oddly, this statute has never been
raised or discussed in any “Hard 50” case in the State’s
jurisprudence, until recently. Yet this statute is plain and
direct in its command to the judicial branch that Kansas
courts must resentence any “Hard 50” inmate who had
been sentenced under that scheme, K.S.A. 21-4635 et
seq., upon later determination that “any provision” of
this legislative scheme is judicially determined to be
unconstitutional. There are no exceptions to the legislative
branch’s directive in this regard. The resentencing relief
ordered by K.S.A. 214639 and K.S.A. 21-6628 is not
dependent upon judicially-determined retroactivity, nor
a condition precedent of a motion filed by the defendant.
The relief accorded by the legislature in K.S.A. 21-4639
and K.S.A. 21-6628 is mandatory. The courts of Kansas
are not free to ignore the clear and express intent of the
Kansas legislature, which provided this liberty interest
and the due process of a resentencing to each and every
aggrieved defendant.
As for which statute the Court should focus upon when
conducting its due process analysis, K.S.A. 21-4639 versus
K.S.A. 21-6628, there is no distinction between the two for
that purpose. This is so because when the Kansas legislature
amended the former in favor of the latter, it expressly
provided in K.S.A. 21-6629(c):
K.S.A. 21-4633 through 21-4640, prior to
their repeal, and K.S.A. 21-6620 through
21-6625 and subsection (c) of 21-6628, and
amendments thereto, shall be applicable only

25
to persons convicted of crimes committed on
or after July 1, 1994.
Pursuant to K.S.A. 21- 6629(c), the statutory
provision K.S.A. 21-6628(c) (former K.S.A. 21-4639) applies
to Mr. Applebys‘ case, as he was convicted of crimes
committed in 2002, well after July 1, 1994.
Moreover, in Kansas it has long been the rule that
criminal statutes and penalties in effect at the time of
the criminal offense are controlling. State v. Sylva, 248
Kan. 118, Syl. 4, 804 P.2d 967 (1991); State v. Ramos, 240
Kan. 485, 490, 731 P.2d 837 (1987); State v. Armstrong,
238 Kan. 559, 566, 712 P.2d 1258 (1986). When Appleby
was convicted, the version of the resentencing provision
of the “Hard 50” scheme was K.S.A. 21-4639, and thus it
is the law to be applied.
Kansas law also recognizes that “[c]riminal statutes
must be strictly construed in favor of the accused.
Any reasonable doubt about the meaning is decided in
favor of anyone subjected to the criminal statute. The
rule of strict construction, however, is subordinate to
the rule that judicial interpretation must be reasonable
and sensible to effect legislative design and intent.”
State v. McGill, 271 Kan. 150, 154, 22 P.3d 597 (2001).
Likewise, Kansas law requires sentencing statutes that
are part of the same scheme to be read and applied in
pari materia. State v. Nguyen, 304 Kan. 420, 425, 372
P.3d 1142 (2016); accord State v. Brown, 303 Kan. 995,
368 P.3d 1101 (2016)(court does not interpret statutes
in isolation but considers provisions of an act in pari
materia with a view to reconciling, brining provisions
into workable harmony).

26
Finally, Kansas law also recognizes that the plain
language of a statute must be given effect to the intention
of the Kansas legislature as expressed, rather than b e
parsed in an effort to determine what the law should or
should not be. State v. Sedillos, 33 Kan.App.2d 141, 146,
98 P.3d 651 (2004), citing Williamson v. City of Hays,
275 Kan. 300, 305, 64 P.3d 364 (2003). See also Nguyen,
372 P.3d at 1144 (“When statutory language is plain and
unambiguous, there is no need to resort to statutory
construction. An appellate court merely interprets
the language as it appears; it is not free to speculate
and cannot read into the statute language not readily
found there.”); State ex rel. Schmidt v. City of Wichita,
303 Kan. 650, 659, 367 P.3d 282 (2016).
By its plain wording, K.S.A. 21-4639 does not
provide any exception to the requirement of modifying
the sentence of persons like Appleby, whose original
sentence was determined and imposed under a scheme like
K.S.A. 21-4635 et seq., later found to be unconstitutional.
Because language not existing in a statute cannot be
read into the statute, modification of Appleby’s sentence
is required.
To the extent that there might be a question over
whether there is a procedure available in Kansas law
through which the liberty interest created by K.S.A.
21-4639 can be vindicated, there are arguably two. Mr.
Appleby brought his claim via K.S.A. 22-3504, which
mandates the correction of an illegal sentence “at any
time.” There is also the Kansas post-conviction statute,
K.S.A. 60-1507. The Kansas appellate courts have held
that neither is available to aggrieved “Hard 50” prisoners
like Appleby. See Appleby, 485 P.3d at 1153-1154 (“3504”

27
and “1507” are not available for correction of “Hard 50”
sentences); Kirtdoll, 393 P.3d at 1057 (“1507” not available
for correction of “Hard 50” sentences). Of course, taking
this at face value directly from these Kansas cases, if it
is indeed procedurally accurate that Kansas law has no
path for the “Hard 50” resentencings promised by the
Kansas legislature, then the Kansas judiciary has violated
the second part of the Wolff analysis, by neglecting to
provide at least some minimal, meaningful procedural
vehicle through which to seek pursue this liberty interest.
The Due Process Clause of the Fourteenth Amendment
is therefore violated. Wolff, 94 S.Ct. at 2975; see also,
Greenholtz, 99 S.Ct. at 2105-2106 (some measure of
procedural due process must be shown by State).
The reality is that Kansas case law has recognized the
unconstitutionality of Mr. Appleby’s “Hard 50” sentence.
The original “Hard 50” sentencing scheme was declared
so in 2014 by the Kansas Supreme Court’s rulings in Soto
and Hilt. And the reality is that the Kansas legislature
promised all prisoners like Appleby a resentencing
if their “Hard 50” sentences were later found to be
unconstitutional. K.S.A. 21-4639 commands this relief,
and the Fourteenth Amendment requires that the Kansas
judiciary provide the remedy.
When reading K.S.A. 21-4639, some axioms come
to mind: Ordinary words are given their ordinary
meanings. A statute should not be read to add language
that is not found in it or to exclude language that is
found in it. Bostock v. Clayton County, Georgia, 140
S.Ct. 1731, 1738, 207 L.Ed.2d 218 (2020)(employment
law case; Civil Rights Act, Title VII) . It is only if the
statute’s language or text is unclear or ambiguous

28
that we move to the next analytical step, applying
canons of construction or relying on legislative history
construing the statute to effect the legislature ‘s intent.
See Lamie v. U.S. Trustee, 540 U.S. 526, 124 S.Ct. 1023,
157 L.Ed.2d 1024 (2004)(bankruptcy statute governing
compensation of professionals, though “awkward, and
even ungrammatical,” not ambiguous and therefore must
be applied according to its plain meaning).
There is no debate that Mr. Appleby’s “Hard
50” sentence was imposed in violation of the Sixth
A mendment. In the end, this Court may be both
figuratively and literally Mr. Appleby’s court of last resort.
A grant of certiorari would permit him to argue against
the arbitrary and capricious Catch-22 set up by the Kansas
judiciary, acknowledging the liberty interest penned by
the Kansas legislature back in 1994, but concluding there
is no way to avail oneself of its promise. The Fourteenth
Amendment guarantees Appleby and others like him more
than that, though. A right without a procedure is akin to
no right at all.
With it established that Mr. Appleby has a Statecreated liberty interest entitled to due process protection,
the next step is to determine what his resentencing should
look like, i.e., a full proceeding or a partial remand. This
is the focus of the second Question Presented, which if
accepted for certiorari review, will resolve a circuit split
which is now sixteen years-old.

29
2. Whether the Sixth Amendment’s guarantee of a trial
by jury requires a remand for a full resentencing
trial after an Alleyne violation is recognized.
There exists a circuit split concerning the type of
remand to be accorded to litigants like Mr. Appleby whose
original sentences have been recognized as violative
of this Court’s directive that all facts which increase a
defendant’s mandatory minimum sentence must submitted
to a jury and found true beyond a reasonable doubt. See
Morrell v. Wardens, 12 F.4th 626, 632 (6th Cir. 2021)(“The
United States Supreme Court has not clearly established
whether a defendant sentenced under an unconstitutional
sentencing scheme is entitled to a full resentencing or
only a Crosby hearing. ... [T]he Supreme Court has not
spoken to this issue, and there is a circuit split concerning
whether violations of the Sixth Amendment require a full
resentencing or a Crosby hearing.”); see also, Alleyne,
133 S.Ct. at 2155 (holding that “Any fact that, by law,
increases the penalty for a crime is an ‘element’ that must
be submitted to the jury and found beyond a reasonable
doubt.”).
Several circuits have held that a defendant is entitled
to a full remand so that he or she can demonstrate that the
plain error affected the original sentence imposed. See
United States v. Hughes, 401 F.3d 540, 547-55 (4th Cir.
2005)(concluding that the appellate court should consider
whether plain error has been shown, without regard
to whether the sentencing judge would have reached a
different result); United States v. Oliver, 397 F.3d 369,
378-80 (6th Cir. 2005)(defining plain error as making
findings under mandatory guidelines that increase a
sentence and therefore requiring resentencing in every

30
such case); United States v. Pirani, 406 F.3d 543, 553 (8th
Cir. 2005)(holding that, to show that plain error affected
substantial rights, a defendant must demonstrate that
he would have received a more favorable sentence under
an advisory guideline regime); United States v. Dazey,
403 F.3d 1147, 1176-797 (10th Cir. 2005)(where there is a
reasonable probability that the district court would have
imposed a different sentence under advisory guidelines,
remand for resentencing is required).
Other circuits have instead ruled that a limited
remand is acceptable, wherein the appellate court retains
jurisdiction while asking the trial judge whether he or she
would have imposed the same sentence, regardless of the
sentencing error identified by the appellate court. See
United States v. Antonakopoulos, 399 F.3d 68, 75, 81-82
(1st Cir. 2005)(“There is another type of Booker argument
available but which Antonakopoulos has not made: that
there is a reasonable probability that the district court,
freed of mandatory guidelines, would have given him a
lower sentence.”; further briefing ordered); United States
v. Crosby, 397 F.3d 103, 117 (2nd Cir. 2005); United States
v. Mares, 402 F.3d 511, 521 (5th Cir. 2005); United States v.
Paladino, 401 F.3d 471, 483 (7th Cir. 2005); United States
v. Ameline, 409 F.3d 1073, 1081 (9th Cir. 2005); United
States v. Rodriguez, 398 F.3d 1291, 1301 (11th Cir. 2005);
United States v. Coles, 403 F.3d 764, 770 (D.C. Cir. 2005).
Of course, the irony with the “limited remand”
approach is that it does not remedy the Alleyne problem
at all, because the remand allows for the sentencing judge
- not a jury - to determine whether the facts increasing
punishment were proven, and whether the resulting
sentence would have been the same. So the error is

31
compounded rather than cured. See Ameline, 409 F.3d
at 1082 (“Our colleagues in dissent criticize our adoption
of the approach articulated in Crosby, characterizing
the limited remand procedure as contradicting Booker,
abdicating our obligation to conduct appellate review,
subsuming an inaccurate prejudice inquiry, disregarding
district court judges who have left the bench, embracing
illusory efficiencies, and encouraging cursory review.”).
This circuit split needs to be resolved. A grant of
certiorari is thus needed.
In Mr. Appleby’s situation, the Kansas legislature has
made clear that the sentence to be imposed on remand is
to contain no mandatory-minimum component. See K.S.A.
21-4639 (“... the court having jurisdiction over a person
previously sentenced shall cause such person to be brought
before the court and shall modify the sentence to require
no mandatory term of imprisonment and shall sentence
the defendant as otherwise provided by law.”). Appleby
urged his trial court and the Kansas Supreme Court to
provide him with a full resentencing hearing, per this
statute. In Appleby’s case, a resentencing would require
fact-finding and application of the Kansas Sentencing
Guidelines Act, K.S.A. 21-4701 et seq.
At the time of Appleby’s offense, the alternative to the
“Hard 50” sentence per K.S.A. 21-4638 was a life sentence
with a mandatory minimum of 25 years imprisonment.
As K.S.A. 21-4639 prohibits imposition of that sentence
because it has a mandatory-minimum component, Kansas
law defaults to the State’s Sentencing Guidelines Act.
State v. Horn, 288 Kan. 690, 206 P.3d 526, 527-528 (2009)
(when “Jessica’s Law Hard 25” found inapplicable, resort

32
is to KSSGA). The maximum penalty for the most severe
offense, Severity Level 1, ranged between 165 and 653
months, depending upon criminal history. K.S.A. 21-4723;
K.S.A. 21-4704; see also, Kansas Sentencing Guidelines
Grid.
CONCLUSION
The Kansas legislature has spoken clearly about what
is to happen to “Hard 50” inmates if the sentencing scheme
is found to be unconstitutional. The legislature went out
of its way to distinguish these defendants from others
whose cases might have been afflicted with other types of
error which the Kansas judicial branch refuses to remedy
under K.S.A. 22-3504 or K.S.A. 60-1507 on grounds that
retroactivity for a newly-recognized error is unavailable.
By enacting K.S.A. 21-4639 in 1994, the Kansas legislature
intentionally circumvented traditional procedural hurdles in
Kansas law ( i.e., the limitations contained within K.S.A. 223504 and K.S.A. 60-1507). The Kansas legislature in K.S.A.
21-4639 spoke clearly and concisely on what is to become
of the “Hard 50” defendants aggrieved by the sentencing
scheme if and when “any provision” in the scheme is found
unconstitutional. These inmates are to be resentenced. The
Kansas judicial branch cannot ignore this legislative directive
without violating these inmates’ vested liberty interests, and
moreover, without offending both the “separation of powers”
doctrine, and “traditional notions of … substantial justice.”
Upon remand, a full resentencing hearing involving a
jury should be ordered, not a limited one involving only a
judge, thereby resolving the circuit split raised in the second
Question Presented.

33
In light of the foregoing arguments and authorities,
Petitioner Benjamin Appleby respectfully requests that
this Court accept certiorari review of this case, vacate
his “Hard 50” sentence, and remand for a new, complete
sentencing hearing.
Respectfully submitted,
Jonathan Laurans, Esq.
Counsel of Record
1609 West 92nd Street
Kansas City, Missouri 64114
(816) 421-5200
jlaurans@msn.com
Counsel for Petitioner

APPENDIX

1a
Appendix OF
A THE SUPREME
APPENDIX A — OPINION
COURT OF KANSAS, FILED APRIL 30, 2021
SUPREME COURT OF KANSAS
April 30, 2021,
Opinion Filed
No. 122,281
STATE OF KANSAS,
Appellee,
v.
BENJAMIN A. APPLEBY,
Appellant.
Opinion
Per Curiam:
Benjamin Appleby attacks the portion of his life sentence
for capital murder that sets a minimum sentence of 50
years. Appleby argues he is entitled to resentencing under
K.S.A. 2020 Supp. 21-6628(c), formerly K.S.A. 21-4639,
because the sentencing judge engaged in judicial factfinding to determine that aggravating factors justified
a minimum sentence of 50 years instead of the 25-year
minimum that would otherwise apply.

2a
Appendix A
K.S.A. 2020 Supp. 21-6628(c) does not create an
avenue or independent means by which a convicted person
can challenge his or her underlying sentence. We thus
affirm the district court’s denial of Appleby’s request for
relief.
Facts and Procedural Background
A jury convicted Appleby of capital murder and
attempted rape committed in June 2002. State v. Appleby,
289 Kan. 1017, 1025, 221 P.3d 525 (2009). The district
court judge, without jury findings, imposed a hard 50 life
sentence for capital murder and a 228-month consecutive
sentence for attempted rape. This court reversed the
attempted rape conviction as multiplicitous of the capital
murder count on direct appeal. 289 Kan. at 1026-33, 1069.
We also rejected Appleby’s other challenges, including a
constitutional challenge to his hard 50 sentence based on
Apprendi v. New Jersey, 530 U.S. 466, 120 S. Ct. 2348, 147
L. Ed. 2d 435 (2000). See Appleby, 289 Kan. at 1021, 1069.
Appleby has since sought relief through several
avenues. He first filed a motion under K.S.A. 60-1507,
alleging both trial and appellate counsel rendered
ineffective assistance. The district court denied relief.
He appealed, and a Court of Appeals panel rejected his
arguments. Appleby v. State, 318 P.3d 1019, 2014 Kan.
App. Unpub. LEXIS 125, 2014 WL 801921 (Kan. App.
2014) (unpublished opinion).
Appleby later petitioned for federal habeas relief.
These claims were also denied. See Appleby v. Cline, No.

3a
Appendix A
15-3038-JTM, 2016 U.S. Dist. LEXIS 178975, 2016 WL
7440821 (D. Kan. 2016) (unpublished opinion); Appleby v.
Cline, No. 17-2003, 711 Fed. Appx. 459 (10th Cir. 2017)
(unpublished opinion) (denying certificate of appealability
and dismissing appeal), cert. denied 138 S. Ct. 1173, 200
L. Ed. 2d 316 (2018).
Appleby then moved to correct an illegal sentence. The
State moved to summarily deny the motion. The district
court ruled against Appleby, and Appleby then brought
this appeal.
While his appeal was pending, this court decided State
v. Coleman, 312 Kan. 114, 472 P.3d 85 (2020). There, we
held that K.S.A. 2020 Supp. 21-6628(c) does not create a
new avenue or independent means by which a convicted
person can challenge his or her underlying sentence.
312 Kan. at 121-24. Both parties filed Rule 6.09 letters
addressing Coleman. (2021 Kan. S. Ct. R. 40.)
The State also moved for summary disposition,
arguing Coleman is a controlling decision dispositive of
the appeal. See Supreme Court Rule 7.041(b) (2021 Kan.
S. Ct. R. 48). Appleby filed a timely response. We then
requested supplemental briefing.
This court has jurisdiction under K.S.A. 2020 Supp.
22-3601(b)(3) (allowing appeal of life sentence to Supreme
Court, except for sentence imposed under K.S.A. 21-4643
or K.S.A. 2020 Supp. 21-6627).

4a
Appendix A
Analysis
Standard of Review
This case involves issues of statutory interpretation
and constitutional claims. Both are questions of law subject
to de novo or unlimited review. Coleman, 312 Kan. at 117.
History of Caselaw on Judicial Fact-finding
Appleby raises the same complaint as had Curtis L.
Coleman Jr.: A judge, not a jury, found aggravating factors
that served as the basis for increasing the minimum term
of their life sentences from 25 years to either 40 years in
Coleman’s case or 50 years in Appleby’s. Like Coleman,
Appleby contends his sentence should be vacated because
the Sixth Amendment to the United States Constitution
requires a jury determine these aggravating factors.
See Coleman, 312 Kan. at 117-18; Appleby, 289 Kan. at
1065-69.
When judges sentenced Appleby and Coleman, Kansas
law allowed judicial fact-finding. And this court upheld
judicial fact-finding in Appleby’s and many other cases.
Appleby, 289 Kan. at 1069 (citing cases reaching same
holding). But, about five years after Appleby’s direct
appeal ended, this court held it was unconstitutional for
a judge to increase the minimum sentence a defendant
must serve based on findings made by the judge, not a
jury. See State v. Soto, 299 Kan. 102, 122-24, 322 P.3d 334
(2014) (citing Alleyne v. United States, 570 U.S. 99, 133 S.
Ct. 2151, 186 L. Ed. 2d 314 [2013]).

5a
Appendix A
This court in Coleman detailed this history. 312
Kan. at 118-19. We need not discuss all the detail here; a
short history provides context for our holding that, like
Coleman, Appleby has no right to relief.
Coleman began with a discussion of Apprendi, 530
U.S. 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435. In Apprendi,
the United States Supreme Court held that any fact other
than the existence of a prior conviction “that increases
the penalty for a crime beyond the prescribed statutory
maximum must be submitted to a jury, and proved beyond
a reasonable doubt.” 530 U.S. at 490. That holding applied
explicitly only to the determination of statutory maximum
sentences and, that same year, this court declined to
extend the Apprendi rule to findings made by a district
court judge before imposing a mandatory minimum—
the complaint Appleby makes. See State v. Conley, 270
Kan. 18, 11 P.3d 1147 (2000) (relying on McMillan v.
Pennsylvania, 477 U.S. 79, 106 S. Ct. 2411, 91 L. Ed. 2d
67 [1986]).
Two years later, the United States Supreme Court
walked the line between Apprendi and McMillan
by characterizing a judge’s finding that a defendant
possessed, brandished, or discharged a firearm during the
commission of an offense as a judicial sentencing factor
rather than an element of the crime. Harris v. United
States, 536 U.S. 545, 556, 122 S. Ct. 2406, 153 L. Ed. 2d
524 (2002). And that same year, the Supreme Court held
unconstitutional Arizona’s capital sentencing statutes
that allowed a judge to find and balance mitigating
circumstances in determining whether to impose a death
sentence. Ring v. Arizona, 536 U.S. 584, 122 S. Ct. 2428,
153 L. Ed. 2d 556 (2002).

6a
Appendix A
Ten years later, the United States Supreme Court
overruled Harris in Alleyne. The Court found “no basis
in principle or logic to distinguish facts that raise the
maximum from those that increase the minimum.”
Alleyne, 570 U.S. at 116. Thus, the Court held that any fact
that increases the minimum sentence must “be submitted
to the jury and found beyond a reasonable doubt.” 570
U.S. at 116.
This court extended Alleyne to Kansas’ hard 50
sentencing statutes (hard 40 for crimes committed before
July 1, 1999) in Soto, 299 Kan. at 122-24. We later held
the rule of law declared in Alleyne cannot be applied
retroactively to invalidate a sentence that was final before
the date of the Alleyne decision. Kirtdoll v. State, 306 Kan.
335, Syl. ¶ 1, 393 P.3d 1053 (2017).
Modification of Appleby’s Sentence
While that history explains the legal basis for Appleby’s
complaint, it does not address the pivotal question in his
appeal: Can he obtain relief from his sentence given that it
was final several years before our decision in Soto and the
United State Supreme Court’s decision in Alleyne? The
finality of his sentence means no court has jurisdiction to
modify the sentence unless there is a jurisdictional basis
for presenting the argument to the court. Coleman, 312
Kan. at 119-20 (quoting State v. Trotter, 296 Kan. 898, 905,
295 P.3d 1039 [2013]). Requests for a sentence modification
must be “dismissed for lack of jurisdiction unless there
is statutory language authorizing the specific requested
relief.” 312 Kan. at 120 (citing State v. Anthony, 274 Kan.
998, 1002, 58 P.3d 742 [2002]).

7a
Appendix A
Given that, the Coleman decision explored the
potential ways a court could have jurisdiction to hear
the claim of someone like Appleby or Coleman who seeks
relief from the hard 40 or 50 minimum term of his or her
life sentence. We considered options, even if not raised
by Coleman, because “pro se postconviction pleadings
must be analyzed by their content, not necessarily by
their label.” Coleman, 312 Kan. at 120. But we concluded
no procedure offers a path to jurisdiction. See Coleman,
312 Kan. at 121-24. Appleby’s briefing does not persuade
us to depart from Coleman’s holdings.
One of the procedural mechanisms discussed in
Coleman is a motion to correct an illegal sentence. Appleby
filed his motion as one to correct an illegal sentence under
K.S.A. 2020 Supp. 22-3504. That statute allows courts to
consider an illegal sentence at any time, which includes
after a direct appeal is final. But what constitutes an illegal
sentence is not open ended, and this court has made clear
that “a sentence imposed in violation of Alleyne does not
fall within the definition of an ‘illegal sentence’ that may
be addressed by K.S.A. 22-3504.” Coleman, 312 Kan. at
120 (citing State v. Brown, 306 Kan. 330, Syl. ¶ 1, 393
P.3d 1049 [2017]; State v. Moncla, 301 Kan. 549, Syl. ¶ 4,
343 P.3d 1161 [2015]). Appleby offers no argument that
counters this holding in Coleman, Brown, and Moncla.
Coleman also discussed and rejected another
mechanism that can lead to post-judgment relief from
a sentence: a motion for habeas relief under K.S.A. 601507. This statute grants a court jurisdiction to consider
a collateral attack on an unconstitutional sentence.
Generally, a movant is allowed only one motion and that

8a
Appendix A
motion must be filed within one year of the movant’s direct
appeal ending. Exceptions apply, however. A court can
allow a second motion if the movant establishes exceptional
circumstances, and the one-year limitation does not apply
if a court finds it necessary to lift the bar to prevent a
manifest injustice. See Coleman, 312 Kan. at 120; K.S.A.
2020 Supp. 60-1507(c), (f).
Coleman filed his 60-1507 motion seeking to set
aside his hard 50 sentence more than one year after the
conclusion of his final appeal and after he had filed two
previous 60-1507 motions. He claimed manifest injustice
and exceptional circumstances justified allowing him to
file this third motion more than a year after his appeal
was final. But this court rejected his argument based on
Kirtdoll, 306 Kan. at 341. There, this court had held “for
60-1507 motions to be considered hereafter, Alleyne’s
prospective-only change in the law cannot provide the
exceptional circumstances that would justify a successive
60-1507 motion or the manifest injustice necessary to
excuse the untimeliness of a 60-1507 motion.” Kirtdoll,
306 Kan. at 341. We thus held that Coleman could not
obtain relief through a 60-1507 motion. Coleman, 312
Kan. at 120-21.
Perhaps because of this line of cases and the fact
a 60-1507 motion would be successive and out-of-time,
Appleby advances no argument to counter Kirtdoll’s or
Coleman’s holding on this point. But we still mention this
procedural mechanism because courts sometimes treat
a pro se motion as a motion filed under 60-1507 even if
labeled as something else. Yet, consistent with Coleman
and Kirtdoll, converting his motion to correct an illegal

9a
Appendix A
sentence to a 60-1507 motion would not benefit Appleby
because he has no right to relief under K.S.A. 2020 Supp.
60-1507.
Finally, like Coleman, Appleby offers K.S.A. 2020
Supp. 21-6628(c) as a basis for relief. In fact, Appleby solely
relies on this provision. But we concluded in Coleman that
K.S.A. 2020 Supp. 21-6628(c) does not provide defendants
in Appleby’s position a mechanism for relief. 312 Kan. at
121-24. We interpreted K.S.A. 2020 Supp. 21-6628 to be
a “fail-safe provision” that “[b]y its clear and unequivocal
language . . . applies only when the term of imprisonment
or the statute authorizing the term of imprisonment are
found to be unconstitutional.” 312 Kan. at 124.
Appleby disagrees with Coleman’s statutory analysis.
He argues K.S.A. 2001 Supp. 21-4635 authorized his
sentence and this court ruled K.S.A. 21-4635 was
unconstitutional in Soto, 299 Kan. at 124. Coleman,
however, held K.S.A. 21-4635 “was part of the procedural
framework by which the enhanced sentence was
determined” and the root authorization for Coleman’s
sentence was the statute that provided for a life sentence.
Coleman, 312 Kan. at 124. Here, Appleby committed
capital murder, and the Legislature has authorized a life
sentence for someone convicted of that crime. See K.S.A.
2001 Supp. 21-3439; K.S.A. 2001 Supp. 21-4706. A life
sentence has “never been determined to be categorically
unconstitutional” and “such sentences continue to be
imposed in qualifying cases in Kansas.” Coleman, 312
Kan. at 124. Thus, Appleby’s sentence does not trigger
the “fail-safe” provision of K.S.A. 2020 Supp. 21-6628(c).

10a
Appendix A
Thus, K.S.A. 2020 Supp. 21-6628(c) does not require
resentencing Appleby.
Conclusion
The district court properly denied Appleby’s motion
for sentence modification. There is no procedural
mechanism by which a Kansas court may reconsider his
sentence. Appleby and Soto do not operate retroactively
to afford a remedy. And K.S.A. 2020 Supp. 21-6628(c) does
not apply. We affirm the judgment of the district court.

11a
Appendix A
Luckert, C.J., concurring:
In State v. Coleman, 312 Kan. 114, 472 P.3d 85 (2020), I
joined this court’s statutory analysis of K.S.A. 2020 Supp.
21-6628(c). Benjamin A. Appleby and defendants in other
cases now persuade me we erred in Coleman when we
held that K.S.A. 21-4635 “was not a statute authorizing
[a] hard 40 life sentence,” and that Curtis L. Coleman
Jr.’s life sentence was instead “authorized by virtue of
his commission of premeditated first-degree murder,
an offense qualifying for such sentence under Kansas
law.” Coleman, 312 Kan. at 124. Yet my reexamination of
the statutory analysis does not lead me to conclude that
Appleby (or Coleman) is entitled to relief. I, therefore,
concur in the decision to affirm the district court.
K.S.A. 2020 Supp. 21-6628(c), formerly K.S.A. 2001
Supp. 21-4639, provides:
“ I n t he event t he m a nd at or y t er m of
imprisonment or any provision of chapter
341 of the 1994 Session Laws of Kansas
authorizing such mandatory term is held to
be unconstitutional by the supreme court of
Kansas or the United States supreme court,
the court having jurisdiction over a person
previously sentenced shall cause such person
to be brought before the court and shall modify
the sentence to require no mandatory term of
imprisonment and shall sentence the defendant
as otherwise provided by law.”

12a
Appendix A
Appleby asks us to focus on the meaning of the
word “authorizing.” This court previously did so
in Smith v. Printup, 254 Kan. 315, 339, 866 P.2d
985 (1993). Printup included two definitions.
First, Webster’s New International Dictionary
defined “authorize” as: “‘to endorse, empower,
justify, or permit by or as if by some recognized
or proper authority (as custom, evidence,
personal right, or regulating power) . . . :
SA NCTION.’” Pr intup, 254 Kan. at 339
(quoting Webster’s Third New International
Dictionary 146 [1986]). Second, Black’s Law
Dictionary’s defined it to mean:
“‘To empower; to give a right or authority to
act. To endow with authority or effective legal
power, warrant, or right. [Citation omitted.]
To permit a thing to be done in the future. It
has a mandatory effect or meaning, implying a
direction to act.
“‘“Authorized” is sometimes construed as
equivalent to “permitted”; or “directed”, or
to similar mandatory language. Possessed of
authority; that is, possessed of legal or rightful
power, the synonym of which is “competency.”
[Citation omitted.]’” Printup, 254 Kan. at 339
(quoting Black’s Law Dictionary 133 [6th ed.
1990]).
Current definitions are consistent. E.g., Black’s Law
Dictionary 165 (11th ed. 2019) (“To give legal authority; to
empower <he authorized the employee to act for him>. 2.

13a
Appendix A
To formally approve; to sanction <the city authorized the
construction project>.”); Merriam Webster (“1: to endorse,
empower, justify, or permit by or as if by some recognized
or proper authority such as custom, evidence, personal
right, or regulating power) a custom authorized by time [;]
2: to invest especially with legal authority: EMPOWER//
She is authorized to act for her husband.”), at https://www.
merriam-webster.com/dictionary/authorize.
Under these definitions, “authorizing” as used in
K.S.A. 2020 Supp. 21-6628(c) means having or empowering
with legal authority. I thus interpret K.S.A. 2020 Supp.
21-6628(c) to be implicated when any provision authorizing
or empowering a court to impose a hard 50 sentence (or
another sentence above the statutory minimum) is held
to be unconstitutional.
The statutory framework in June 2002 when Appleby
committed capital murder was a life sentence. See K.S.A.
2001 Supp. 21-4706(c). The sentencing statutes empowered
the court to impose a mandatory term of imprisonment
of 50 years if, after hearing evidence on aggravating
and mitigating circumstances, the court concluded the
aggravating circumstance or circumstances were not
outweighed by mitigating circumstances. See K.S.A. 2001
Supp. 21-4635(a); K.S.A. 2001 Supp. 21-4638. If the court
concluded the aggravating circumstance or circumstances
were outweighed by mitigating circumstances, the
defendant was sentenced “as provided by law,” which
meant a life sentence with no minimum. K.S.A. 2001 Supp.
21-4635(b), (c); K.S.A. 2001 Supp. 21-4638; see K.S.A.
2001 Supp. 21-4706(c) (imposing life sentence for capital

14a
Appendix A
murder, defined in K.S.A. 21-3439). If the sentencing court
imposed no minimum sentence, a defendant still served
at least 25 years based on statutory terms defining when
he or she became parole eligible. See K.S.A. 2001 Supp.
22-3717(b)(1) (inmates sentenced for capital murder or
premeditated first-degree murder parole eligible “after
serving 25 years of confinement, without deduction of any
good time credits”).
These statutes only authorized or empowered the
district court to impose a hard 50 life sentence on Appleby
after the district court weighed aggravating and mitigating
circumstances as provided in K.S.A. 2001 Supp. 21-4635.
The district court had no authority to impose a hard 50
sentence without first walking through the weighing of
circumstances provided in K.S.A. 2001 Supp. 21-4635,
a provision of chapter 341 of the 1994 Session Laws of
Kansas. L. 1994, ch. 341. Thus, K.S.A. 2001 Supp. 21-4635
authorized Appleby’s sentence.
This court held K.S.A. 21-4635 unconstitutional in
State v. Soto, 299 Kan. 102, Syl. ¶ 9, 124, 322 P.3d 334
(2014). There, this court concluded K.S.A. 21-4635 violated
the Sixth Amendment to the United States Constitution
as applied in Alleyne “because it permits a judge to find
by a preponderance of the evidence the existence of one
or more aggravating factors necessary to impose an
increased mandatory minimum sentence, rather than
requiring a jury to find the existence of the aggravating
factors beyond a reasonable doubt.” 299 Kan. 102, 322
P.3d 334, Syl. ¶ 9. I thus conclude this court’s ruling in
Soto triggers application of K.S.A. 2020 Supp. 21-6628(c)
because Soto held unconstitutional a provision of chapter

15a
Appendix A
341 of the 1994 Session Laws of Kansas authorizing the
mandatory term.
My analysis does not end there, however. Instead,
it circles back to the jurisdiction issue discussed by the
majority opinion. I make this circle because K.S.A. 2020
Supp. 21-6628(c), after saying a holding of the United
States Supreme Court or this court that a statute
authorizing a mandatory term is unconstitutional may
trigger application of the statute, directs that “the court
having jurisdiction over a person previously sentenced
shall cause such person to be brought before the court.”
Under this provision, Appleby must still show that a court
has jurisdiction over him. K.S.A. 2020 Supp. 21-6628(c)
does not itself contain any language granting jurisdiction;
the language just quoted refers to a court having
jurisdiction, meaning one that already has jurisdiction.
Because the court that had jurisdiction to impose sentence
lost jurisdiction once the judgment became final, I
look back to statutes that provide jurisdiction through
collateral proceedings.
As the majority discusses, only two possibilities exist
as a procedure authorizing Appleby’s collateral attack on
his sentence: a motion to correct an illegal sentence under
K.S.A. 2020 Supp. 22-3504 or a motion under K.S.A. 2020
Supp. 60-1507. A motion to correct illegal sentence does
not extend to claims based on Alleyne, because “a sentence
imposed in violation of Alleyne does not fall within the
definition of an ‘illegal sentence’ that may be addressed by
K.S.A. 22-3504.” Coleman, 312 Kan. at 120 (citing State v.
Brown, 306 Kan. 330, Syl. ¶ 1, 393 P.3d 1049 [2017]; State
v. Moncla, 301 Kan. 549, Syl. ¶ 4, 343 P.3d 1161 [2015]).

16a
Appendix A
But a 60-1507 motion could grant a court jurisdiction over
an Alleyne violation. See K.S.A. 2020 Supp. 60-1507(a) (“A
prisoner in custody under sentence of a court of general
jurisdiction claiming the right to be released upon the
ground that the sentence was imposed in violation of
the constitution or laws of the United States, . . . may,
pursuant to the time limitations imposed by subsection
[f], move the court which imposed the sentence to vacate,
set aside or correct the sentence”).
Appleby did not meet the requirements imposed by
K.S.A. 2020 Supp. 60-1507(c) and (f), however, because
he had filed prior 60-1507 motions and he filed this one
past the time limitation. He therefore must establish
exceptional circumstances and manifest injustice. But in
Kirtdoll v. State, 306 Kan. 335, 341, 393 P.3d 1053 (2017),
this court held “for 60-1507 motions to be considered
hereafter, Alleyne’s prospective-only change in the
law cannot provide the exceptional circumstances that
would justify a successive 60-1507 motion or the manifest
injustice necessary to excuse the untimeliness of a 60-1507
motion.” Appleby does not ask us to overturn Kirtdoll.
Speaking generally, it is easy to imagine situations in
which a court could find exceptional circumstances exist
or that the time limitation should be extended to prevent
a manifest injustice and K.S.A. 2020 Supp. 21-6628 could
apply. For example, if the United States Supreme Court
held that either the death penalty or the hard 50 sentencing
statutes was categorically unconstitutional—that is the
entire scheme was invalid rather than an aspect of it—a
time extension based on manifest injustice would likely
apply and the “fail safe” provisions of K.S.A. 2020 Supp.

17a
Appendix A
21-6628 could be used to provide relief. See Coleman,
312 Kan. at 123-24 (discussing Hurst v. State, 202 So. 3d
40, 63-66 [Fla. 2016], which determined Florida statute
like K.S.A. 2020 Supp. 21-6628 was a fail-safe provision
that was not triggered when United States Supreme
Court invalidated only part of Florida’s death penalty
law allowing judicial findings for imposition of a death).
Appleby does not present a situation that demands
an extension to prevent manifest injustice, however.
See Kirtdoll, 306 Kan. at 341. Nothing in K.S.A. 2020
Supp. 21-6628 demands a result different from Kirtdoll.
See Coleman, 312 Kan. at 122-24; Hurst, 202 So. 3d at
63-66. Nor does K.S.A. 2020 Supp. 60-1507. While the
Legislature provided that 60-1507 motions could challenge
the constitutionality of a sentence, it also provided that,
if the movant did not meet the one-year limitation period,
he or she must show manifest injustice to proceed. This
signals that an unconstitutional sentence does not always
equate to manifest injustice. And the Legislature signaled
an intent that an Alleyne violation did not trigger the failsafe of K.S.A. 2020 Supp. 21-6628.
The Legislature sent this signal after the United
States Supreme Court issued its Alleyne opinion and the
Governor called a special session to address the hard 50
sentencing statutes. The Legislature acted expeditiously
to assure courts could constitutionally impose hard 50
sentences in pending criminal cases. The Legislature’s
staff advised the Legislature that the Alleyne rule did
not apply to sentences final before the Alleyne decision.
See Preliminary Report of the 2013 Special Committee
on Judiciary, 3; Revisor Office’s Memorandum on the

18a
Appendix A
Potential Impact of Alleyne v. United States on Kansas
Law (Aug. 16, 2013), 4. And the Legislature took no action
to provide relief in those cases. While legislative inaction
is not always indicative of legislative intent, see State v.
Quested, 302 Kan. 262, 279, 352 P.3d 553 (2015), a failure
to act when addressing the subject matter provides some
indication the Legislature did not intend there to be relief.
Appleby failed to establish exceptional circumstances
or manifest injustice as necessary to allow a court to have
jurisdiction to grant him relief under K.S.A. 2020 Supp.
21-6628 based on Alleyne.
Appleby makes an argument that could avoid or
change the Kirtdoll holding, however. He contends his
request for relief is based not on Alleyne but on Apprendi,
which the United States Supreme Court decided before
he was sentenced. He asserts we need not apply Alleyne
retroactively to provide him relief.
His argument requires a conclusion that Alleyne was a
mere extension of Apprendi. But, as discussed in Coleman,
it was not. See Coleman, 312 Kan. at 117-19. The United
States Supreme Court itself, after deciding Apprendi,
affirmed a sentence that imposed a mandatory minimum
based on judicial fact-finding—exactly the circumstance
here. Harris v. United States, 536 U.S. 545, 122 S. Ct.
2406, 153 L. Ed. 2d 524 (2002). Harris remained the law
until the Court overturned it in Alleyne. See Alleyne,
570 U.S. at 116. Had Harris merely been an extension
of Apprendi, the Court could have simply distinguished
it in Alleyne. Instead, it overruled the holding and thus
changed the law. Appleby’s argument is thus unpersuasive.

19a
Appendix A
In conclusion, while I now depart from one portion
of the analysis in Coleman, I still conclude K.S.A. 2020
Supp. 21-6628(c) did not require the district court to vacate
Appleby’s hard 50 life sentence.
I therefore concur in the result.
Wilson and Standridge, JJ., join the foregoing concurrence.

20a
B
APPENDIX B — Appendix
TRANSCRIPT
OF JUDGE’S
RULING IN THE DISTRICT COURT OF JOHNSON
COUNTY, KANSAS, CRIMINAL COURT
DEPARTMENT, DATED OCTOBER 24, 2019
[1]IN THE DISTRICT COURT
OF JOHNSON COUNTY, KANSAS
CRIMINAL COURT DEPARTMENT
Case No. 04CR02934
Division No. 17
STATE OF KANSAS,
Plaintiff,
v.
BENJAMIN A. APPLEBY,
Defendant.
TRANSCRIPT OF JUDGE’S RULING
ON DEFENDANT’S MOTION TO CORRECT
ILLEGAL SENTENCE
PROCEEDINGS had before the Honorable T. Kelly
Ryan, District Judge of the Tenth Judicial District of the
State of Kansas, on the 24th day of October, 2019, in the
Johnson County Courthouse, 100 N. Kansas Ave., Olathe,
Kansas 66061.

21a
Appendix B
APPEARANCES:
The State of Kansas appeared by and through its
attorney, Jacob Gontesky, Assistant District Attorney,
P.O. Box 728, Olathe, Kansas 66061-0728.
The Defendant, Benjamin A. Appleby, appeared in
person and with his counsel, Wendie C. Miller, Kenneth
B. Miller, Atty at Law, LLC, 1540 N. Broadway St., Suite
201, Wichita, Kansas 67214.
[2]THURSDAY, OCTOBER 24, 2019, 4:17 P.M.
PROCEEDINGS
(The following proceedings were had before the
Court with all parties present. The defendant
was present in person along with his counsel.)
THE COURT: Please be seated. I’ll call for hearing
Case No. 04CR2934, State of Kansas vs. Benjamin A.
Appleby.
MR. GONTESKY: Good afternoon, Your Honor. May
it please the Court, the State of Kansas appears by Jacob
Gontesky.
MS. MILLER: May it please the Court, Benjamin
Appleby appears in person and by counsel, Wendie Miller.
THE COURT: Okay. Thank you. In this case the
defendant has filed a motion to correct illegal sentence

22a
Appendix B
pursuant to K.S.A. 22-3504. I’ll go through the history
as I announce the decision from that motion. The State
had filed its response. The defendant had filed a surreply, if you will, to that response by the State. We set
the matter over. We scheduled it for a hearing previously
on August 30th of this year. The matter was taken under
advisement and, as Ms. Miller made her [3]argument that
day and cited to some cases that were not contained in her
briefing, asked for the transcript of that motion hearing
to be produced, which has been done, and I’ve reviewed
all of the parties’ submissions, as well as their arguments
from back in August.
The defendant’s motion is noted under K.S.A. 223504. Mr. Appleby’s argument is that a resentencing is
required, in fact, is mandatory under K.S.A. 21-4639. I
want to cite to that statute because that is the crux of the
matter now pending.
At the time of the actions, the offense which occurred
for which Mr. Appleby was convicted, K.S.A. 21-4639 read,
“In the event a mandatory term of imprisonment for any
provision of this act authorizing such mandatory term
is held to be unconstitutional by the Supreme Court of
Kansas or the United States Supreme Court, the court
having jurisdiction over a person previously sentenced
shall cause such person to be brought before the court
and shall modify the sentence to require no mandatory
term of imprisonment and shall sentence the defendant
as otherwise provided by law.”
The parties also argue different [4]interpretations,
obviously, on the law and the law that applied here, in fact,

23a
Appendix B
disagreeing on what the other side’s arguments, in fact,
were in support for those arguments.
The defendant maintains that Mr. Appleby’s sentence
must be -- it is mandatory that it be -- a new sentencing
occur under his theory, a modification of that sentence
from an off-grid, if you will, mandatory, enhanced Hard
50 should be back to a grid sentence for a resentencing.
Further, the defendant argues that the sentencing in
the original court by Judge Leben in December of 2006
was erroneously entered because Judge Leben found
aggravating factors which outweighed mitigating factors
in imposing the Hard 50 sentence. The parties aptly noted
that the law was effected by both the Apprendi and the
Alleyne cases that came from the United States Supreme
Court.
The defendant argued the plain language of K.S.A.
21-4639 mandates a resentencing and that the prospective
application of that statute, which is now K.S. A. 21-6628(c),
applies to a person previously being sentenced, for that
reason that statute applies to Mr. Appleby.
[5]The parties disagree on how the State responded to
the motion filed back in April of this year by Mr. Appleby.
Counsel stated in her motion and argued that Mr. Appleby
is not making a constitutional claim, is not seeking a
retroactive application under the Alleyne holding which
would invoke a mandatory provision for resentencing
under 4639.
In trying to put together the argument here because
it is interwoven and sometimes seemingly contradictory,

24a
Appendix B
in making this out, I think the essence of how Mr.
Appleby through counsel clarified his argument was that
the argument was because Apprendi was in place at the
time of Mr. Appleby’s sentencing, that the principles in
Apprendi applied to the determination of whether any
aggravating factors outweighed mitigating factors which
would allow the imposition of the Hard 50 sentence.
Defendant arg ues that because Alleyne is an
application of Apprendi and that Mr. Appleby’s prosecution
and conviction and his sentence did not arise until well
after Apprendi was decided, which was the stated law
at that time, that applying Alleyne would not require
retroactive application of [6]case law to identify the
constitutional rights at stake.
The State made a direct argument that said the
sentence has been entered, it was constitutional, it
was statutorily proper at the time it was entered, and,
therefore, there is no resentencing, no modification, no
illegal sentence. It’s appropriate and I want to give just a
brief history that leads up to this argument.
On December 5, 2006, Benjamin Appleby was
convicted by a jury of attempted rape and capital murder.
On December 26, 2006, the trial court imposed the Hard
50 or life imprisonment sentence on the murder conviction
under K.S.A. 21-4635, and, further, a consecutive sentence
on an attempted rape conviction for a sentence of 228
months.
On November 20, 2009, the Kansas Supreme Court
affirmed the capital murder conviction and vacated the

25a
Appendix B
defendant’s attempted rape conviction based on the theory
of multiplicity. In that same mandate, the Kansas Supreme
Court also upheld Mr. Appleby’s Hard 50 sentence as
being constitutional under K.S. A. 21-4635 and, further,
that it was constitutional under Apprendi having been
decided by the U.S. Supreme Court in 2000.
[7]And I’ll quote from that decision: “This Court has
repeatedly rejected similar arguments challenging the
constitutionality of the hard-40/hard-50 sentencing scheme
and held that our Hard 50 scheme is constitutional,” citing
to State v. Johnson, State v. Warledo, and noting that the
United States Supreme Court has not “altered decisions
in which it recognized that the Apprendi prohibition
does not apply when considering the minimum sentence
to be imposed. Appleby presents no persuasive reason
to abandon this long line of precedent.” As counsel note,
the law subsequently was changed in that regard under
Alleyne.
Mr. Appleby subsequently filed an appeal -- excuse
me, a 60-1507 motion. While the appeal was pending, the
Alleyne v. The United States case was decided holding that
any fact that increased a mandatory minimum sentence
for -- it is an element of the crime that must be submitted
to a jury, that it’s not proper for a judge to make that
determination.
In light of the Alleyne decision, Mr. Appleby filed
a motion with the Kansas Court of Appeals requesting
permission to file a brief based on Alleyne. The Court of
Appeals denied that [8]request. Ultimately, Mr. Appleby’s

26a
Appendix B
1507 appeal was denied by the district court after an
evidentiary hearing. It was affirmed by the Kansas Court
of Appeals on February 28, 2014. Petitions for review of
that matter for cert to the United States Supreme Court
-- excuse me, to the Kansas Supreme Court were denied.
On February 25, 2015, Mr. Appleby filed a habeas
petition under 28 U.S.C. 2254 alleging several grounds
for relief. The respondents in that case sought denial of
the habeas relief by Mr. Appleby arguing that he could
not demonstrate any constitutional errors or that the state
court decisions failed to comport with clearly established
federal law.
On December 27, 2016, Mr. Appleby’s 2254 petition
was summarily denied. The court stating in that decision,
“Appleby now argues that he’s entitled to federal habeas
relief because his Hard 50 sentence violates Alleyne and
State v. Soto, 299 Kan. 102, and its progeny, all of which
were decided after the Kansas Supreme Court affirmed
Appleby’s convictions. He says these cases constitute
an intervening change in law which excuses any failure
to raise this issue in the 1507 [9]proceedings. He also
argues that Alleyne is a new rule of criminal procedure
that should be applied retroactively in his case because he
raised the constitutionality of the Hard 50 statute under
Apprendi on direct appeal. The Court finds Appleby’s
arguments unpersuasive.”
A further quote from that decision, “The Court finds
Appleby’s reliance upon Soto misplaced. Soto is factually
distinguishable because Alleyne was decided during

27a
Appendix B
Soto’s direct appeal. More importantly, a prisoner seeking
federal habeas relief may rely on new constitutional rules
of criminal procedure announced before the prisoner’s
conviction became final,” citing to Teague v. Lane.
“Finality occurs when direct state appeals have been
exhausted and a petition for writ of certiorari from the
United States Supreme Court has become time barred or
has been disposed of. The Kansas Supreme Court affirmed
Appleby’s convictions on November 20, 2009. Appleby
did not file a petition for writ of certiorari to the United
States Supreme Court, thus his convictions and sentence
became final on February 18, 2010,” which was 90 days
after the Kansas Supreme Court decision since there was
no petition for writ of certiorari. “Because Alleyne [10]was
decided after his conviction became final, Appleby may not
rely upon Alleyne. The fact that Alleyne is an extension
of Apprendi does not change when the Alleyne rule was
announced. Appleby’s argument for retroactive application
of Alleyne lacks legal support. The Supreme Court has not
made Alleyne’s new rule of constitutional law retroactive
to cases on collateral review, and the Tenth Circuit has
determined that Alleyne does not apply retroactively to
cases on collateral review. The Supreme Court” -- I’m
sorry, that cites to In re Payne, 733 F.3d. 1027, 1029, from
2013. “The Supreme Court has held that rules based on
Apprendi do not apply retroactively on collateral review,”
citing Schriro v. Summerlin, 542 U.S. 348, a 2004 decision,
“thus, it is unlikely that the Supreme Court will declare
Alleyne retroactive in the future.” Mr. Appleby’s request
for a rehearing was denied and the U.S. Supreme Court
denied Appleby’s petition for certiorari in that matter.

28a
Appendix B
That brings us to 2019 and the present motion. As
argued by counsel clarifying that Mr. Appleby is not
seeking a constitutional challenge to Alleyne, in fact, it’s
relying on Apprendi, Ms. Miller argued in our August 30th
[11]hearing, “a challenge to the trial court’s determination
of aggravating factors outweighed any mitigating factors
to support a Hard 50 sentence is necessarily a challenge
to Appleby’s sentence that those factors helped produce.
If the aggravating factors are incorrect, the resulting
sentence cannot conform with the statutory provision and
the term of the punishment authorized and, consequently,
is an illegal sentence. The resulting Hard 50 sentence
cannot conform with the statutory provisions of K.S.A.
21-4635 or 21-4639 and the term of the punishment
authorized.”
Appleby’s challenge to the trial court’s incorrect
finding of aggravating factors to impose a Hard 50
sentence and the trial court’s findings therefore resulted
in the invocation of K.S.A. 21-4639 which mandates
modification of Appleby’s sentence and concluding by
stating, “Mr. Appleby’s sentence is illegal under K.S.A.
21 -3504.”
In further clarifying the argument, Ms. Miller stated
that the district court was precluded -- this being the
sentencing judge in 2006, the district court was precluded
from finding any facts to support a Hard 50 sentence
under [12]Apprendi. Because the sentence imposed was
unconstitutional under Apprendi, retroactive application
of Alleyne is unnecessary and modification was required
under K.S.A. 21-4639, the statute in effect at the time of

29a
Appendix B
the offense, and that that modification was required at the
time Appleby’s sentence was imposed. The bottom line
being the defendant argues that the Hard 50 sentence was
prohibited at that time based upon Apprendi.
Mr. Appleby’s motion was filed April 10, 2019, captioned
“Motion to Correct Illegal Sentence” pursuant to K.S. A.
22-3504(1). K.S. A. 22-3504 authorizes a court to correct
an illegal sentence at any time. There is no question
as to that meaning of that statute. An illegal sentence,
however, is not illegal because of unconstitutionality
that arises after the fact. The Kansas Supreme Court
specifically found that “A claim that a term of punishment
was later declared unconstitutional does not satisfy the
requirements for finding a sentence illegal.” That is State
v. Lee, 304 Kan. 416 at 417. That decision was from 2016.
Even if the unconstitutionality of the Hard 50 statute
as established later would make Appleby’s sentence
illegal today, it would be [13]subject to K.S.A. 22-3504,
the sentence must have been illegal at the time of his
sentencing. Citing -- I will cite to State v. Murdock which
states, “Under K.S.A. 22-3504, the legality of a sentence is
controlled by the law in effect at the time the sentence was
pronounced. Therefore, a sentence that was legal when
pronounced does not become illegal if the law subsequently
changes.” That is Murdock at 309 Kan. 585 and 591.
Appleby contends that K.S.A. 21-4639, which was
the statute in effect at the time of the offense, requires
the court to bring him before the court and modify his
sentence to require no mandatory term of imprisonment

30a
Appendix B
and a sentence that was otherwise provided by law. This is
not a correct reading in this case. K.S.A. 21-4639 applies to
cases where a court has found that a defendant’s sentence
is unconstitutional and vacated the sentence. Appleby’s
Hard 50 sentence has been found constitutional and legal
under K.S.A. 21-4635.
As noted, the defendant is not arguing against the
constitutionality of the Hard 50 law, although mixed in
through that argument is that his rights under the due
process clause of the 14th Amendment and 6th Amendment
guarantee a trial [14]by jury has been violated under
the sentencing structure under which Mr. Appleby was
subjected in 2006 and as finalized after his direct appeal
and the finality of that appeal 90 days after the mandate
was issued by the Kansas Supreme Court.
The Hard 50 rule under Kansas statutes at the time
of Mr. Appleby’s sentencing when viewed in the light of
Apprendi, as well as McMillan and Harris, demonstrate
that that sentence was constitutional. The Hard 50 law
created a minimum sentence rather than a maximum
sentence. The maximum sentence and penalties for first
degree murder is life in prison. Therefore, Apprendi did
not reach Kansas’s Hard 50 statutory scheme because it
did not affect in any way the statutory maximum of life
in prison.
Alleyne, on the other hand, held that the mandatory
minimum sentences increase the penalty for a crime. The
fact that it increases the minimum sentence is an element
should that be submitted to a jury and proved beyond a

31a
Appendix B
reasonable doubt. That is different from the Apprendi
ruling the defendant argues here.
Again we’re back to whether or not the defendant’s
argument withstands scrutiny here under [15]his theory.
He’s cited to the Lee case before, State v. Lee, 304 Kan.
416. As the State argued in its response, “Even if the
unconstitutionality of the Hard 50 statute made Appleby’s
sentence illegal, to be subject to the statute that is -- this
motion is brought, K.S.A. 22-3504(1), the sentence must
have been illegal at the time of his sentencing. Under
K.S.A. 22-3504, the legality of a sentence is controlled by
the law in effect at the time the sentence was pronounced.
Therefore, a sentence that was legal when pronounced
does not become illegal if the law subsequently changes.”
Again citing State v. Murdock.
Mr. Appleby argues that Apprendi controls when the
defendant’s sentence is unconstitutional; however, the case
of Kirtdoll v. State, 306 Kan. 335, that argument was
rejected by the Kansas Supreme Court finding Alleyne
cannot be applied retroactively to cases that were final
when Alleyne was decided. The defendant argues that the
Apprendi decision should be retroactively applied to his
sentence. The matter has been determined and decided.
The provisions of K.S.A. 21-4635 were constitutional
at the time the sentence was handed [16]down against Mr.
Appleby. His 6th and 14th Amendment rights were not
violated. Apprendi was the applicable law at the time of
Mr. Appleby’s sentencing. As Mr. Appleby argues in his
motion, Apprendi states “Other than the fact of a prior

32a
Appendix B
conviction, any fact that increases the penalty for a crime
beyond the statutory maximum must be submitted to a
jury and proved beyond a reasonable doubt.” The Harris
case was later decided that clears those doubts that
Apprendi did not apply to statutory minimums but only
to statutory maximums. Mr. Appleby’s Hard 50 sentence
did not increase the statutory maximum, it increased the
statutory minimum. The Alleyne decision later changed
the Kansas Hard 50 sentencing scheme, but it was not
until after Mr. Appleby’s case was final.
Mr. Appleby now seeks to have the Court resentence
him arguing that under Apprendi, the Hard 50 sentence
was illegal at that time, in fact, would lead to his sentencing
and a resentencing on the grid, so to speak, is the
terminology used, on the grid without the enhancement
beyond the sentencing guidelines for a capital murder
conviction which he stands and is serving for at this time.
[17]The trial court in 2006 sentenced Mr. Appleby
legally and constitutionally and was affirmed both by the
Kansas Court of Appeals and the Kansas Supreme Court.
The defendant’s argument that his sentence would have to
be in violation of Apprendi at the time he was sentenced
is not with basis as I see this argument here, the law and
-- the various case law as argued by counsel; therefore,
the defendant’s motion to correct an illegal sentence is
considered and denied.
Mr. Gontesky, anything that you want to state for the
record in this matter?

33a
Appendix B
MR. GONTESKY: There’s nothing else the State
needs at this time, Judge.
THE COURT: Ms. Miller, is there anything that you
wish to state for the record?
MS. MILLER: None by the defense, Your Honor.
THE COURT: Okay. There being nothing else before
the Court, the defendant will be ordered transported back
to the custody of the Department of Corrections. I will
advise counsel on the record that if you wish to appeal the
ruling of the Court, you must file a notice of appeal within
14 days from today.
[18]Thank you all for your presentations earlier and
the matter will be in adjournment.
(The hearing concluded at 4:49p.m.)

34a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE TENTH
CIRCUIT, FILED SEPTEMBER 28, 2017
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 17-3002
BENJAMIN APPLEBY,
Petitioner-Appellant,
v.
SAM CLINE, WARDEN; ATTORNEY GENERAL
OF KANSAS,
Respondents-Appellees.
September 28, 2017, Filed
Before LUCERO, HOLMES, and BACHARACH, Circuit
Judges.
ORDER DENYING CERTIFICATE
OF APPEALABILITY*
After examining the brief and appellate record, this panel has
determined unanimously that oral argument would not materially
assist in the determination of this appeal. See Fed. R. App. P. 34(a)(2);
10th Cir. R. 34.1(G). The case is therefore ordered submitted without
oral argument. This order is not binding precedent, except under the
doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed.
R. App. P. 32.1 and 10th Cir. R. 32.1.
*

35a
Appendix C
Jerome A. Holmes, Circuit Judge.
Benjamin Appleby, a Kansas prisoner, seeks a
certificate of appealability (COA) to challenge the district
court’s denial of his habeas petition filed under 28 U.S.C.
§ 2254. See 28 U.S.C. § 2253(c)(1)(A) (providing that no
appeal may be taken from a final order denying a § 2254
petition unless the petitioner obtains a COA). We deny a
COA and dismiss the appeal.
I
A Kansas jury convicted Mr. Appleby for the 2002
capital murder and attempted rape of a 19-year-old college
student. After the murder, Mr. Appleby fled Kansas and
eventually was apprehended in Connecticut in 2004. He
was arrested by Connecticut police on an outstanding
warrant from 1998 on unrelated charges—risk of injury
to a minor, disorderly conduct, and public indecency. See
State v. Appleby, 289 Kan. 1017, 221 P.3d 525, 532, 538-39
(Kan. 2009). Kansas detectives were present for the arrest
and questioned Mr. Appleby, who confessed to committing
both the murder and the attempted rape. The state
trial court sentenced him to a life sentence without the
possibility of parole for 50 years (“hard 50”) on the capital
murder conviction and a consecutive 19-year term on the
attempted rape conviction. On direct appeal, the Kansas
Supreme Court vacated as multiplicitous the attempted
rape conviction and sentence but otherwise affirmed. Mr.
Appleby unsuccessfully sought post-conviction relief in
the state courts and then filed a federal habeas petition
under 28 U.S.C. § 2254.

36a
Appendix C
Relevant here, Mr. Appleby claimed that (1) submitting
his confession to the jury violated his Fifth and Fourteenth
Amendment rights against compelled self-incrimination;
(2) Kansas’s hard 50 sentencing scheme violates Apprendi
v. New Jersey, 530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed.
2d 435 (2000), and Alleyne v. United States, 570 U.S.
99, 133 S. Ct. 2151, 186 L. Ed. 2d 314 (2013), because it
permits sentencing courts to find aggravating factors by
a preponderance of the evidence; (3) trial and appellate
counsel were ineffective in failing to raise suppression
issues based on arguments that (a) the Connecticut
warrant was stale and (b) the Kansas detectives acted
outside of their geographic jurisdiction; and (4) trial and
appellate counsel were ineffective in failing to present
evidence from a mental health expert and raising the issue
on appeal. The district court determined these claims, all
of which the state courts rejected on the merits, did not
warrant relief. Mr. Appleby now seeks a COA from this
court.
II
A COA is a jurisdictional prerequisite to our review.
See 28 U.S.C. § 2253(c)(1)(A); Miller-El v. Cockrell, 537
U.S. 322, 335-36, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003).
To obtain a COA, a petitioner must make “a substantial
showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). This requires a petitioner to demonstrate
“that reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved
in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.”

37a
Appendix C
Miller-El, 537 U.S. at 336 (internal quotation marks
omitted).
Because the state courts denied Mr. Appleby’s
claims on the merits, the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA) “requires federal
courts to give significant deference to [the] state court
decisions.” Lockett v. Trammel, 711 F.3d 1218, 1230 (10th
Cir. 2013). Under AEDPA, a petitioner is not entitled to
federal habeas relief unless the state-court decisions were
“contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the
Supreme Court of the United States” or were “based on
an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d)(1)-(2). “A state-court decision is contrary
to clearly established federal law under 28 U.S.C. § 2254(d)(1)
if it applies a rule that contradicts the governing law set
forth in Supreme Court cases or confronts a set of facts
that are materially indistinguishable from a decision of
the Supreme Court and nevertheless arrives at a result
different from that precedent.” Smith v. Duckworth,
824 F.3d 1233, 1241 (10th Cir. 2016) (internal quotation
marks omitted), cert. denied, 137 S. Ct. 1333, 197 L. Ed.
2d 526 (2017). “A state-court decision is an unreasonable
application of Supreme Court precedent if the decision
correctly identifies the governing legal rule but applies
it unreasonably to the facts of a particular prisoner’s
case.” Id. (internal quotation marks omitted). A state
court’s factual determinations are presumed correct and
are rebuttable only by clear and convincing evidence. 28
U.S.C. § 2254(e)(1). We consider only “the record that was

38a
Appendix C
before the state court that adjudicated the claim on the
merits.” Cullen v. Pinholster, 563 U.S. 170, 181, 131 S. Ct.
1388, 179 L. Ed. 2d 557 (2011).
A. Confession
Mr. Appleby first claims that submitting his confession
to the jury violated his Fifth and Fourteenth Amendment
rights against compelled self-incrimination because he
confessed after repeatedly asking about an attorney.
During the book-in process on the Connecticut charges,
and before ever speaking with the Kansas detectives or
even knowing they were present, Mr. Appleby asked a
Connecticut detective if he could speak to an attorney
about refusing to submit to a DNA swab; three other times
during the book-in process on the Connecticut charges,
he asked more generally if he would have an opportunity
to speak with an attorney. But once he was transferred to
the Kansas detectives, Mr. Appleby agreed to answer their
questions about the murder, waived his Miranda rights,
see Miranda v. Arizona, 384 U.S. 436, 86 S. Ct. 1602, 16
L. Ed. 2d 694 (1966), and gave the Kansas detectives a
two-and-a-half hour interview without requesting to speak
with or have the assistance of an attorney.
The Kansas Supreme Court rejected this claim
on direct appeal, and the federal district court denied
habeas relief, concluding that the Kansas Supreme
Court applied legal standards consistent with federal
law in a reasonable manner.1 Under the controlling COA
1. Mr. Appleby asserts the Kansas Supreme Court’s decision
was contrary to, or involved an unreasonable application of, Davis v.

39a
Appendix C
standards, no reasonable jurist could debate the district
court’s resolution of the claim.
Initially, the district court noted that the Kansas
Supreme Court reasonably applied Davis v. United States,
512 U.S. 452, 114 S. Ct. 2350, 129 L. Ed. 2d 362 (1994), in
declining to broadly construe any mention of an attorney
as a request for counsel for purposes of interrogation.
In Davis, the Supreme Court held that a “suspect must
unambiguously request counsel.” Id. at 459. As the Court
explained, “if a suspect makes a reference to an attorney
that is ambiguous or equivocal in that a reasonable officer
in light of the circumstances would have understood only
that the suspect might be invoking the right to counsel, our
precedents do not require the cessation of questioning.”
Id. In light of Davis, the Kansas Supreme Court evaluated
the circumstances of Mr. Appleby’s inquiries to determine
whether he invoked his Fifth Amendment right to counsel
and, applying McNeil v. Wisconsin, 501 U.S. 171, 111 S. Ct.
2204, 115 L. Ed. 2d 158 (1991), and Montejo v. Louisiana,
556 U.S. 778, 129 S. Ct. 2079, 173 L. Ed. 2d 955 (2009),
concluded he did not.
In McNeil, the Supreme Court distinguished the Sixth
Amendment right to counsel in criminal prosecutions
from the Fifth Amendment right to counsel to assist
United States, 512 U.S. 452, 114 S. Ct. 2350, 129 L. Ed. 2d 362 (1994);
McNeil v. Wisconsin, 501 U.S. 171, 111 S. Ct. 2204, 115 L. Ed. 2d
158 (1991); Minnick v. Mississippi, 498 U.S. 146, 111 S. Ct. 486, 112
L. Ed. 2d 489 (1990); Arizona v. Roberson, 486 U.S. 675, 108 S. Ct.
2093, 100 L. Ed. 2d 704 (1988); Smith v. Illinois, 469 U.S. 91, 105 S.
Ct. 490, 83 L. Ed. 2d 488 (1984); Edwards v. Arizona, 451 U.S. 477,
101 S. Ct. 1880, 68 L. Ed. 2d 378 (1981); and Miranda.

40a
Appendix C
with custodial interrogations. “The Sixth Amendment
right,” the Court explained, is “offense specific” and
“cannot be invoked once for all future prosecutions.” 501
U.S. at 175. But the right to counsel emanating from the
Fifth Amendment’s guarantee against compelled selfincrimination is intended “to counteract the inherently
compelling pressures of custodial interrogation.” Id. at
176 (internal quotation marks omitted). Although it is not
offense specific, given its purpose, it is invoked “only when
the suspect has expressed his wish for the particular sort
of lawyerly assistance that is the subject of Miranda.” Id.
at 178 (brackets and internal quotation marks omitted).
The suspect must express “a desire for the assistance of
an attorney in dealing with custodial interrogation by
the police.” Id.
Building on McNeil, the Montejo Court dismissed
concerns that a suspect could anticipatorily invoke his
Fifth Amendment right to counsel at a preliminary
hearing, in advance of interrogation:
“We have in fact never held that a person can
invoke his Miranda rights anticipatorily, in a
context other than ‘custodial interrogation’ . . . .”
McNeil, 501 U.S. at 182 n.3. What matters for
Miranda and Edwards [v. Arizona, 451 U.S.
477, 101 S. Ct. 1880, 68 L. Ed. 2d 378 (1981),] is
what happens when the defendant is approached
for interrogation, and (if he consents) what
happens during the interrogation—not what
happened at any preliminary hearing.
556 U.S. at 797.

41a
Appendix C
Applying these authorities, the Kansas Supreme Court
analyzed the timing, content, and context of Mr. Appleby’s
inquiries and concluded that he failed to unambiguously
invoke his Fifth Amendment right to counsel for purposes
of interrogation on the Kansas charges. See Appleby,
221 P.3d at 542, 548. As the district court observed, the
Kansas Supreme Court determined that Mr. Appleby’s
request for counsel in response to the DNA swab sought
only limited assistance for purposes of refusing the DNA
swab, not to assist with his custodial interrogation. See id.
at 542. His other references to an attorney, the Kansas
Supreme Court ruled, generally inquired during the
book-in process on the Connecticut charges whether he
would have an opportunity to talk to a lawyer. See id. at
548. At that time, he did not know about the Kansas case,
nor had he been questioned on any charges from either
Connecticut or Kansas. Id. Moreover, the Connecticut
detective to whom he inquired told him that someone else
would be questioning him. Id. Under these circumstances,
the district court concluded that the Kansas Supreme
Court’s decision was consistent with, and a reasonable
application of, federal law. No reasonable jurist could
debate the district court’s conclusion. Consequently, Mr.
Appleby fails to show he is entitled to a COA on this claim. 2
2. Mr. Appleby refers in passing to what he asserts is the
Kansas Supreme Court’s unreasonable determination of the facts.
Citing testimony he gave later at his state post-conviction evidentiary
hearing, he says he asked to call his lawyer as soon as he was brought
into the interrogation room and realized he was being questioned
about the Kansas case. We decline to consider this issue because Mr.
Appleby did not raise it in the district court. See Ochoa v. Workman,
669 F.3d 1130, 1146 n.15 (10th Cir. 2012).

42a
Appendix C
B. Hard 50 Sentencing Scheme Under Apprendi
Mr. Appleby was sentenced to life in prison without
the possibility of parole for 50 years under Kansas’s
hard 50 sentencing scheme, which at the time permitted
sentencing courts to find aggravating circumstances based
on a preponderance of the evidence. On direct appeal, he
claimed the hard 50 sentence violated Apprendi, 530 U.S.
at 490, which held that other than a prior conviction, any
fact that increases the maximum sentence is an element
of the offense that must be submitted to the jury and
proven beyond a reasonable doubt. The Kansas Supreme
Court rejected Mr. Appleby’s claim in its 2009 decision,
holding that Kansas’s hard 50 sentencing scheme was
constitutional because it enhanced the minimum sentence
a defendant must serve, without exposing a defendant to a
greater maximum sentence. See Appleby, 221 P.3d at 558
(citing State v. Johnson, 284 Kan. 18, 159 P.3d 161, 166
(Kan. 2007)). Nearly four years later, the Supreme Court
extended Apprendi to require that any fact that increases
the mandatory minimum sentence is an element that must
be submitted to a jury and proven beyond a reasonable
doubt. Alleyne, 133 S. Ct. at 2155. Mr. Appleby now seeks
a COA, claiming the Kansas Supreme Court’s decision is
contrary to, or an unreasonable application of, Apprendi
and Alleyne.
We deny a COA on this claim because no reasonable
jurist could debate the district court’s conclusion that
federal courts measure the state-court decisions against
Supreme Court precedent “as of the time the state court
renders its decision.” Cullen, 563 U.S. at 182 (internal

43a
Appendix C
quotation marks omitted); see Smith, 824 F.3d at 1241 (“In
analyzing a state-court decision’s compliance with clearly
established federal law, we measure the decision against
the governing legal principle or principles set forth by
the Supreme Court at the time the state court renders its
decision.”). When the Kansas Supreme Court adjudicated
this claim in 2009, its decision complied with Apprendi;
Alleyne was not decided until nearly four years later.
C. Ineffective Assistance
We turn now to Mr. Appleby’s ineffective-assistance
claims, which were rejected by the state courts on postconviction review. Under Strickland v. Washington, 466
U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), Mr.
Appleby “must show both that his counsel’s performance
fell below an objective standard of reasonableness and
that the deficient performance prejudiced the defense.”
Hooks v. Workman, 689 F.3d 1148, 1186 (10th Cir. 2012)
(internal quotation marks omitted). “These two prongs
may be addressed in any order, and failure to satisfy either
is dispositive.” Id. “Surmounting this high bar is not an
easy task,” and “[a] state prisoner in the § 2254 context
faces an even greater challenge.” Id. at 1187 (internal
quotation marks omitted). In the § 2254 context, a federal
court must “defer to the state court’s determination that
counsel’s performance was not deficient and, further,
defer to the attorney’s decision in how to best represent
a client.” Id. (brackets and internal quotation marks
omitted). Thus, habeas review of counsel’s performance is
“doubly deferential.” Yarborough v. Gentry, 540 U.S. 1, 6,
124 S. Ct. 1, 157 L. Ed. 2d 1 (2003) (per curiam). To show

44a
Appendix C
prejudice, a prisoner “must demonstrate a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Premo v. Moore, 562 U.S. 115, 122, 131 S. Ct. 733, 178 L.
Ed. 2d 649 (2011) (internal quotation marks omitted).
1.

Suppression Arguments

Mr. Appleby contends his trial and appellate attorneys
were ineffective in failing to raise suppression arguments
based on the outstanding Connecticut warrant from
1998 and the extra-jurisdictional work of the Kansas
detectives. Reasonable jurists could not debate the district
court’s denial of relief on these claims because in each
instance, the Kansas Court of Appeals reasonably applied
Strickland in concluding that Mr. Appleby failed to show
either that counsel’s performance was deficient or that he
was prejudiced.
a.

Outstanding Warrant

The state courts rejected Mr. Appleby’s claims that his
attorneys were ineffective in failing to seek the suppression
of evidence based on the delay in executing the Connecticut
warrant from 1998. The Kansas Court of Appeals ruled
that even if his trial attorneys acted deficiently in failing
to pursue this theory, Mr. Appleby showed no prejudice
because his arrest was legal, given that he caused the
delay by eluding Connecticut authorities to prevent them
from executing the warrant. See Appleby v. State, 318
P.3d 1019, 2014 Kan. App. Unpub. LEXIS 125, *37, 2014
WL 801921, at *13-15 (Kan. Ct. App. 2014) (per curiam)

45a
Appendix C
(unpublished). The court explained that delay in executing
an arrest warrant may be reasonable under Connecticut
law if a suspect “consciously eluded the authorities[] or
for other reasons was difficult to apprehend.” 2014 Kan.
App. Unpub. LEXIS 125 at *37 (internal quotation marks
omitted). The court then detailed Mr. Appleby’s efforts
to evade the Connecticut police, which included giving
them his alias—Teddy Hoover—and fleeing the state less
than two months after he confessed to committing the
crime (risk of injury to a minor). 2014 Kan. App. Unpub.
LEXIS 125 at *36. The court also described information
indicating that Mr. Appleby had been in Connecticut,
Missouri, and Kansas, and possibly Nevada and Texas as
well, using both his real name and his alias. Id. Thus, the
court concluded that the delay in executing his warrant
was not unreasonable and his stale-warrant argument
failed. 2014 Kan. App. Unpub. LEXIS 125 at *41.
The district court, citing the Kansas Court of Appeals’
conclusion that any motion to suppress based on staleness
would have failed, determined that the Kansas Court of
Appeals reasonably applied Strickland. This conclusion is
not subject to reasonable debate because the outstandingwarrant determination, which precluded Mr. Appleby
from showing the result of the proceedings would have
been different, reasonably applied Strickland’s prejudice
prong.
Also, absent evidence that Mr. Appleby’s appellate
counsel unreasonably declined to raise this issue on
appeal or that Mr. Appleby was prejudiced by her failure
to do so, the Kansas Court of Appeals determined that

46a
Appendix C
appellate counsel was not ineffective in failing to challenge
the warrant on direct appeal. 2014 Kan. App. Unpub.
LEXIS 125 at *23. The district court concluded this was
a reasonable application of Strickland. Again, jurists of
reason could not debate the district court’s conclusion.
b.

Geog raphic Jurisdiction of K ansas
Detectives

Mr. Appleby also contends his attorneys were
ineffective in failing to pursue suppression issues based
on the Kansas detectives’ extra-jurisdictional work in
Connecticut. The Kansas Court of Appeals examined
the relevant Kansas statute, which authorized officers to
exercise their police powers anywhere their assistance is
requested or when they are in fresh pursuit. 2014 Kan.
App. Unpub. LEXIS 125 at *41. The court observed
that trial counsels’ performance was not objectively
unreasonable in failing to object on this basis because
they sought to suppress evidence from his interview on
numerous other grounds. 2014 Kan. App. Unpub. LEXIS
125 at *41. Further, the court concluded that Mr. Appleby
was not prejudiced because the statute did not prohibit the
Kansas detectives from questioning him in Connecticut,
and although the Kansas detectives collaborated with
Connecticut officers, it was Connecticut officers who
executed the warrant, which was issued by that state, in
that state, for charges filed in that state, and Mr. Appleby
agreed to talk with the Kansas detectives. 2014 Kan. App.
Unpub. LEXIS 125 at *48. Additionally, the court noted
the lack of any evidence either that appellate counsel was
deficient in failing to raise this issue on appeal or that Mr.

47a
Appendix C
Appleby was prejudiced by her failure to do so. Under
these circumstances, the district court determined that
this, too, was a reasonable application of Strickland, both
as it relates to trial counsel and appellate counsel. Again,
no reasonable jurist would debate the district court’s
resolution of these claims.
2.

Mental Health Expert

Finally, Mr. Appleby contends his trial counsel
rendered ineffective assistance by failing to proffer the
testimony of Dr. George Hough, a clinical psychologist and
mental health expert. Before trial, Dr. Hough diagnosed
Mr. Appleby with intermittent explosive disorder
and antisocial personality disorder. According to Mr.
Appleby, Dr. Hough’s testimony would have supported
his theory of defense that he lacked the requisite intent of
premeditation to commit capital murder due to a mental
disease or defect. The Kansas Court of Appeals rejected
this claim and concluded that defense counsel’s decision
not to call Dr. Hough failed to satisfy either prong of the
Strickland test. 2014 Kan. App. Unpub. LEXIS 125 at *25.
Here again, no reasonable jurist could debate the district
court’s conclusion that the Kansas Court of Appeals
reasonably applied Strickland.
In evaluating counsel’s performance, courts “apply
a strong presumption that counsel’s representation was
within a wide range of reasonable professional assistance.”
Premo, 562 U.S. at 121. Consistent with this standard, the
Kansas Court of Appeals concluded there were several
reasons why trial counsel acted reasonably in declining

48a
Appendix C
to call Dr. Hough. First, Mr. Appleby’s trial attorney
did not believe his diagnosis of antisocial personality
disorder would benefit their case, and indeed, Dr. Hough
acknowledged that his testimony would not be helpful.
See Appleby, 2014 Kan. App. Unpub. LEXIS 125, *27,
2014 WL 801921, at * 10. Second, Dr. Hough refused to
offer an opinion whether Mr. Appleby could form the
requisite criminal intent of premeditation and counsel
believed there was other evidence that Mr. Appleby did
form the requisite intent. Id. Third, co-counsel agreed that
Dr. Hough could be a detrimental witness and that the
better strategy was to attack the prosecution’s timeline of
events. Id. Last, Mr. Appleby’s trial attorneys consulted
with a nationally recognized capital defense attorney, who
concurred that Dr. Hough’s testimony would not benefit
the defense. Id. Under these circumstances, the Kansas
Court of Appeals determined that counsels’ strategy not
to call Dr. Hough was not so unreasonable as to fall outside
of prevailing professional norms. Id. Further, the court
determined there was no evidence that appellate counsel
was ineffective in failing to raise this issue on appeal. 2014
Kan. App. Unpub. LEXIS 125 at *23.
The district court concluded that the Kansas Court
of Appeals’ decision reasonably applied Strickland ‘s
deficient-performance prong as it related to trial counsel
and also reasonably applied the relevant Strickland
standards to deny the claims of ineffective assistance of
appellate counsel. Because the district court’s conclusions
are not subject to reasonable debate, Mr. Appleby is not
entitled to a COA.

49a
Appendix C
III
Accordingly, we deny a COA and dismiss this appeal.
Entered for the Court
Jerome A. Holmes
Circuit Judge

50a
Appendix D
APPENDIX D — MEMORANDUM
AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF KANSAS, FILED
DECEMBER 27, 2016
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
Case No. 15-3038-JTM
BENJAMIN APPLEBY,
Petitioner,
v.
SAM CLINE, et al.,
Respondents.
December 27, 2016, Decided
December 27, 2016, Filed
MEMORANDUM AND ORDER
DENYING HABEAS PETITION
J. Thomas Marten, Chief United States District JUDGE
This matter comes before the court on Benjamin
Appleby’s petition for writ of habeas corpus filed pursuant
to 28 U.S.C. § 2254 (Dkt. 1), Respondents’ Answer and
Return (Dkt. 16), and the relevant state court records
(Dkt. 17). Appleby, through counsel, alleges numerous
grounds for relief, including ineffective assistance of

51a
Appendix D
counsel, evidentiary errors, a jury instruction error, and
a sentencing error. For the reasons set forth below, the
court concludes that Appleby is not entitled to federal
habeas corpus relief and denies the petition.
I.

Federal Habeas Standards
A.

Generally

A federal court reviews a state prisoner’s challenge
to matters decided in state court proceedings pursuant
to the Antiterrorism and Effective Death Penalty Act
(“AEDPA”), which “requires federal courts to give
significant deference to state court decisions” on the
merits. Lockett v. Trammel, 711 F.3d 1218, 1230 (10th Cir.
2013). A federal court may not grant a state prisoner habeas
relief with respect to “any claim that was adjudicated on
the merits in State court proceedings” unless the prisoner
can show that the state court’s adjudication of the claim
“resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States.” 28 U.S.C. § 2254(d)(1). “Clearly established law”
refers to the Supreme Court’s holdings, as opposed to its
dicta. Lockett, 711 F.3d at 1231. A state court decision is
“contrary to” the Supreme Court’s clearly established
precedent “if the state court applies a rule different from
the governing law set forth in [Supreme Court] cases,
or if it decides a case differently than [the Supreme
Court has] done on a set of materially indistinguishable
facts.” Bell v. Cone, 535 U.S. 685, 694 (2002) (quotations
omitted). “Factual determinations by state courts are

52a
Appendix D
presumed correct absent clear and convincing evidence
to the contrary, § 2254(e)(1), and a decision adjudicated
on the merits in state court and based on a factual
determination will not be overturned on factual grounds
unless objectively unreasonable in light of the evidence
presented in the state-court proceeding, § 2254(d)(2).”
Miller–El v. Cockrell, 537 U.S. 322, 340 (2003).
B. Ineffective Assistance of Counsel
To prevail on a claim of ineffective assistance of counsel,
a petitioner must show both that his counsel’s performance
“fell below an objective standard of reasonableness” and
that “the deficient performance prejudiced the defense.”
Strickland v. Washington, 466 U.S. 668, 687-88 (1984).
Failure under either prong is dispositive. Id. at 697.
In reviewing counsel’s performance, courts presume
that counsel rendered adequate assistance and made
all significant decisions in the exercise of reasonable
professional judgment. Byrd v. Workman, 645 F.3d 1159,
1168 (10th Cir. 2011). “To be deficient, the performance
must be outside the wide range of professionally competent
assistance. In other words, it must have been completely
unreasonable, not merely wrong.” Id. (internal quotations
and citations omitted). Petitioner bears a heavy burden of
overcoming the presumption that counsel’s actions were
sound trial strategy. Id. This burden increases doubly at
the § 2254 proceeding level as federal courts defer not
only to the attorney’s decision in how to best represent
a client, but also to the state court’s determination that
counsel’s performance was not deficient. Id.

53a
Appendix D
II. Factual and Procedural History
The court presumes the state court’s factual
determinations are correct, unless the petitioner rebuts
the presumption with clear and convincing evidence. 28
U.S.C. § 2254(e)(1). Appleby has not proffered any evidence
in support of that burden. Thus, the court adopts the
following facts as taken from the Kansas Supreme Court’s
(“KSC”) opinion affirming his conviction.
On June 18, 2002, A.K. was murdered while
working alone as an attendant at a swimming
pool near her family’s home. Her brother, who
also worked as a pool attendant, arrived at the
pool around 5 p.m. to relieve A.K. after her shift
ended, but he could not find her. He called their
father, R.K., who came to the pool and searched
for his daughter. Around 5:30 p.m., R.K. found
A.K. in the pool’s pump room, lying face down
under a pool cover. She had been severely
beaten, her face was battered and bloody, and
her hair was matted with blood. A.K. was naked
from the waist down, her sports bra had been
pushed up under her arms, and her T-shirt was
wrapped tightly around her neck.
Soon after this tragic discovery, police arrived
and secured the pool area. In doing so, an
officer recorded the name of everyone present
at the scene, including a “Teddy Hoover” who
was later identified as Appleby. The police also
secured evidence, some of which was tested for

54a
Appendix D
DNA. This testing revealed DNA that did not
match A.K.’s. Few other leads developed from
the initial investigation.
An autopsy led to the conclusion that A.K.’s
death was caused by strangulation and multiple
blunt force injuries, although the strangulation
would have been enough to kill A.K. Dr. Michael
Handler—the forensic neuropathologist who
performed the autopsy and who is board
certified in anatomic pathology, neuropathology,
and forensic pathology—concluded there had
been both ligature and manual strangulation.
According to hi m, it would have taken
approximately 10—and perhaps as many as
16—minutes for the assailant to strangle A.K.
Because there was petechial hemorrhaging, Dr.
Handler believed there were periods when the
force of strangulation was stopped.
Dr. Handler also identified other injuries, which
made it appear A.K. had been in a horrible fight.
Both of her eyes were blackened, her lip was cut,
and her arms were bruised and scraped. A.K.’s
hands, especially the knuckles and fingers,
were cut, and the fingers on her left hand were
contorted and broken. A.K. also had bruises on
her face and both hip bones, knees, feet, and
upper thighs. There were two lacerations on
the back of A.K.’s head, which could have been
caused by a fall or by someone beating her head
against the floor.

55a
Appendix D
Several months after A.K.’s death, Sergeant
Scott Hansen of the Leawood Police Department
went to Appleby’s home in Kansas City,
Kansas. At that point in time, the police knew
Appleby by his alias of Teddy Hoover. Appleby
agreed to speak with Sergeant Hansen and
indicated that he was a self-employed pool
maintenance contractor. Hansen requested
a DNA elimination sample from Appleby,
who said he would talk to his attorney about
providing a sample. When Hansen tried to
follow up later, he discovered that Appleby had
left town.
Subsequent leads caused police to seek more
information from Appleby, who they still
knew as Teddy Hoover. In November 2004,
the investigation led Kansas detectives to
Connecticut, where Appleby was living.
Connecticut State Police discovered an
outstanding arrest warrant for Appleby from
1998 and agreed to execute the warrant when
Kansas detectives could be present. The
purpose of this arrest was to give Kansas
detectives an opportunity to question Appleby.
After Kansas detectives arrived in Connecticut,
they worked with Connecticut officers to
prepare and obtain search warrants that
authorized a search of Appleby’s house and the
swabbing of Appleby’s mouth for the purpose
of obtaining a DNA sample. Then, Connecticut

56a
Appendix D
police arrested Appleby at his home and
executed the residential search warrant.
While the search warrant was being executed,
A ppleby w a s t r a n sp or t ed t o a ne a rby
Connecticut police station by Connecticut
Detective Daniel Jewiss. On the way, Appleby
volunteered that after some “trouble” in his
past, he had taken on the name of his childhood
friend, Teddy Hoover, who had died in an
accident.
At the police station, Detective Jewiss started
processing Appleby on the Connecticut arrest
warrant. During the book-in process, another
detective from Connecticut’s major crime unit
executed the search warrant that allowed
swabbing Appleby’s inner mouth for purposes of
DNA testing. As we will discuss in more detail
as part of our analysis of the second issue, when
served with the DNA search warrant Appleby
asked if he could speak to an attorney regarding
his right to refuse the swabbing and, at three
other points during the book-in process, asked
whether he would have a chance to talk to an
attorney. Appleby was told he did not have a
right to refuse the execution of the warrant
allowing the DNA swabbing but was told he
would have the opportunity to call an attorney.
After completing most of the book-in process,
Detective Jewiss told Appleby that other

57a
Appendix D
detectives wanted to speak to him about “an
unrelated matter” and asked if Appleby was
willing to talk to them. Appleby agreed and
was taken upstairs to an interrogation room
where the Kansas detectives waited. The
detectives asked Appleby if he would answer
some questions about A.K.’s murder. Up to this
point, Appleby had not been told that Kansas
detectives were involved or that some of the
warrants were related to the A.K. murder
investigation.
Appleby told the Kansas detectives he wanted
to speak with them and straighten out some
details from the time Sergeant Hansen
interviewed him at his home in Kansas City.
After being Mirandized, Appleby told the
Kansas detectives that while he lived in Kansas
City he used the name Teddy Hoover and had
a pool company named Hoover Pools. Appleby
indicated that he moved to Texas shortly after
his interview with Sergeant Hansen and went
back to using his real name, Benjamin Appleby;
then he moved to Connecticut.
The detectives repeatedly asked Appleby if
he had been at the pool where A.K. died, but
Appleby told them he had never been there.
After approximately 1 hour, the detectives
moved him to an adjoining interview room.
The second room contained items from the
police investigation, such as a time line of the

58a
Appendix D
investigation, A.K.’s photograph and obituary,
an aerial photograph of the pool, a videotape, a
notebook labeled with the name Teddy Hoover,
and two additional notebooks labeled as crime
scene and autopsy photographs. The detectives
then confronted Appleby with the fact that an
officer at the pool on the day of the murder had
logged the presence of a man who gave the name
Teddy Hoover and a telephone number. At that
point, Appleby acknowledged he had been at
the pool that day.
About 15 or 20 minutes later, Appleby admitted
he had killed A.K. Appleby told the detectives
A.K. was in the pump room when he arrived at
the pool. Finding A.K. attractive, Appleby tried
to “hit on her,” but A.K. rejected his advances
and tried to leave the pump room. Appleby
stood in her way and tried to grab her breasts
and her waist. A.K. pushed Appleby and then
punched him. This angered Appleby, who “lost
it” and, in his own words, “just beat the shit out
of her.” Appleby described the ensuing struggle
during which the two fell and Appleby hit A.K.
twice in the back of the head, which rendered
her unconscious. Then he straddled A.K. and
removed her shorts and panties, intending to
have sex with her. Appleby next stood up and
found a first-aid kit stored in the pump room.
From the kit, the defendant said he took a tube
of ointment and used the ointment as a sexual
lubricant, but he could not obtain an erection.

59a
Appendix D
Appleby also admitted to strangling A.K.,
although he told the detectives he could not
remember what he used. At one point, Appleby
suggested he used the rope on the pool
thermometer in the pump room. At other times
he stated he did not remember strangling A.K.
In describing what happened next, Appleby
stated that as he was leaving, he thought he
heard A.K. breathing and “didn’t want to leave
her that way,” so he covered her up with the pool
cover. He then left as a young woman drove up
and honked a horn. He waved, got into his truck,
and left. Appleby returned to the pool later,
about 5:30 p.m., because he wanted to see what
had happened; as a result, he was on the scene
when the police created the crime scene log.
DNA testing performed by two crime labs
matched Appleby’s DNA to the DNA found
mixed with A.K.’s DNA on the ointment tube
and on her sports bra and T-shirt. In addition,
Appleby was linked to the crime by the young
woman who pulled up as Appleby was leaving
the pool; she identified him as the man she saw.
The State charged Appleby with capital murder
for the death of A.K. (Count I), under K.S.A.
21–3439(a)(4) (intentional premeditated killing
in the commission of or subsequent to the
offense of attempted rape), and attempted rape
(Count II), under K.S.A. 21–3301 and K.S.A.

60a
Appendix D
21–3502. The jury found Appleby guilty of
both charges. The trial court imposed a hard
50 life imprisonment sentence for the murder
conviction and a consecutive sentence of 228
months’ imprisonment for the attempted rape
conviction.
State v. Appleby, 289 Kan. 1017, 1021-25 (2009).
Appleby appealed his convictions, raising the
following issues: 1) his convictions were multiplicitous
and his punishment for both crimes violated the double
jeopardy clause; 2) the trial court erred by admitting
into evidence the incriminating statements he made to
Kansas detectives; 3) the trial court erred by admitting
into evidence a computer-generated report regarding
population statistics on DNA testing; and 4) the jury
instruction defining “premeditation” did not direct the
jury on how to apply the evidence or unduly emphasized
the State’s case. On November 20, 2009, the Kansas
Supreme Court affirmed the capital murder conviction
and Hard 50 sentence, but vacated the attempted rape
conviction and the correlating sentence as multiplicitous.
Id.
On October 4, 2010, Appleby filed a motion for postconviction relief under Kan. Stat. Ann. § 60-1507 in the
District Court of Johnson County, Kansas (“the 1507
Motion”). On August 1, 2012, that court denied that motion.
The Kansas Court of Appeals (“KCOA”) affirmed that
decision on February 28, 2014, and the KSC denied review.
Appleby v. State, No. 108,777, 2014 WL 801921 (Kan. Ct.
App. 2014), review denied (Feb. 25, 2015).

61a
Appendix D
On February 25, 2015, Appleby filed this habeas
petition, alleging seven grounds for relief. Respondents
urge denial of habeas relief because Appleby cannot
demonstrate any constitutional errors or that the state
court decisions failed to comport with clearly established
federal law.
III.

Analysis

Because both parties recite the state court decisions at
length, the court will not repeat them except as necessary
to the analysis.
A.

Ineffective Assistance of Counsel (Grounds 1-3)

Appleby alleges his trial attorneys provided ineffective
assistance three different ways. The KCOA rejected all
three claims, finding trial counsels’ performance was not
deficient. Appleby now argues that the KCOA’s decision
was based on an unreasonable determination of the facts
in light of the evidence presented and an unreasonable
application of Strickland.
1.

Failing to Call Expert to Raise Mental
Defect Defense at Trial

Appleby maintains his attorneys were ineffective for
failing to call Dr. George Hough to present a defense of
mental disease or defect at trial. Appleby argues that Dr.
Hough’s testimony would have provided evidence that
he suffered from intermittent explosive disorder, which
would have negated the State’s theory of premeditation.

62a
Appendix D
The KCOA concluded that counsels’ decision not to call
Dr. Hough constituted permissible trial strategy. Appleby
v. State, 318 P.3d 1019, *10 (Feb. 28, 2014). Appleby
contends the state district court’s conclusion overlooked
Dr. Hough’s testimony at sentencing that his diagnosis
of Appleby included intermittent explosive disorder, that
Appleby’s behavior was “driven by uncontrolled emotion,
mainly rage” and was “manifested by such correlates
as hyperarousal, a collapse of thinking or cognitive
mediation,” and that “as best as [he] can tell[, A.K’s
murder] was not planned or organized or rehearsed.”
Dkt. 2 at 22.
The court finds Appleby’s arguments unavailing. First,
the KCOA did not overlook that testimony. The KCOA
actually recited that testimony in its opinion but concluded
“a reasonable juror could have interpreted Dr. Hough’s
statement to mean that while Appleby did not initially
think of killing A.K. when he first arrived at the pool or
first became enraged, he thought about killing A.K. after
the attack began but before the actually killing occurred.”
Appleby, 318 P.3d at *11. The court agrees with that
assessment. Second, Appleby fails to recognize that Dr.
Hough’s testimony was a double-edged sword. Dr. Hough
testifying at trial included the following potential dangers:
1) he also diagnosed Appleby with antisocial personality
disorder, which could have outweighed the intermittent
explosive disorder diagnosis; and 2) he would have refused
to give a professional opinion that Appleby could not
form the requisite criminal intent of premeditation. Dr.
Hough even agreed with defense counsels’ conclusion that
his testimony would not have been helpful since he was

63a
Appendix D
unwilling to give that professional opinion. As the KCOA
noted, “a less than favorable expert witness called by the
defense can do more harm than several good witnesses
can repair.” Id. at 10. Moreover, because other evidence
showed that Appleby could have formed the requisite
intent, the decision to attack the State’s timeline rather
than present a potentially damaging witness was an
objectively reasonable one. The court finds the record
supports the KCOA’s determination that defense counsels’
decision to not call Dr. Hough at trial was reasonable.
2.

Failing to Call Ex per t to Dispute
Strangulation Time

Appleby next arg ues that his attorneys were
ineffective for failing to call Dr. Edward Friedlander to
present expert testimony disputing the length of time
A.K. was strangled. Dkt. 2 at 26-27. Appleby claims
that Dr. Friedlander would have testified that: 1) he did
not see evidence of petechial hemorrhaging, thus the
strangulation time was uncertain; and 2) it would have
taken three to five minutes of strangulation to cause the
artifacts seen on A.K.’s body (rather than 10 to 16 minutes
as the State’s expert testified). The KCOA found that
counsels’ decision not to call Dr. Friedlander constituted
permissible trial strategy. 318 P.3d at *12. The record
supports this conclusion. Defense counsel Keck testified
that she spent hours with Dr. Friedlander preparing
for trial, he told her not to call him as a witness, he
changed his opinion from two minutes to three to five
minutes, and she did not believe he would hold up under
cross-examination. Moreover, even if the jury accepted

64a
Appendix D
Dr. Friedlander’s opinion that the strangulation time
was three to five minutes, that remained ample time to
form premeditation. Appleby’s arguments focus on his
disappointment in not having his own expert contradict the
state’s expert. But Appleby’s expectations are irrelevant
to whether the decision not to call Dr. Friedlander as a
witness was objectively reasonable.
3.

Failing to Raise Suppression Issues

Appleby maintains that his attorneys were ineffective
for failing to file a motion to suppress the statements he
made to Kansas detectives while in custody in Connecticut
on the grounds that: 1) the Connecticut arrest warrant
was stale, and 2) the Kansas detectives acted outside
of their territorial jurisdiction. The trial court and the
KCOA concluded that the delay in executing the warrant
would have been found reasonable under Connecticut law
because Appleby provided Connecticut law enforcement
with a false name and then fled the state for several years.
As a result, the arrest warrant remained valid at the time
of Appleby’s arrest and any motion to suppress based
on staleness would have failed. Appleby argues that this
conclusion overlooks the fact that he provided Connecticut
officers with the name “Hoover,” his address, and a
confession. He also provided Kansas law enforcement
with his “Hoover” name and his address near the crime
scene. He argues that going by another name does not
support any affirmative attempt to conceal his identity.
He also argues that moving at some point is not evidence
of fleeing to avoid apprehension. The court finds these
arguments unpersuasive. These facts support an inference

65a
Appendix D
that Appleby was attempting to conceal his identity and
to evade capture.
The state courts also rejected Appleby’s extraterritorial argument, finding nothing unlawful in the
Kansas detectives’ actions. Appleby, 2014 WL 801921 at
*16-18. The court agrees with the state courts’ analysis
of Kan. Stat. Ann. § 22-2401a. It does not prohibit Kansas
officers from going out of state to interview a witness
nor does it prohibit them from assisting officers in other
jurisdictions in submitting affidavits for search warrants.
Appleby suggests that the Kansas officers directed the
timing of events, thus they controlled the Connecticut
arrest and search. The court disagrees. The Kansas
detectives collaborated with the Connecticut officers, but
did not control the Connecticut investigation. Appleby was
arrested under a Connecticut arrest warrant executed
by Connecticut officers, who ultimately decided when to
act. Although the Kansas detectives may have assisted
Connecticut officers in applying for the search warrants
and may have been present during the search, they did
not lead the search. A Connecticut judge signed the search
warrant and the State of Connecticut issued the warrant.
The Kansas detectives did not question Appleby until
after he agreed to speak with them about “an unrelated
matter.” The court finds the record supports the KCOA’s
conclusion that counsels’ performance was not deficient
for failing to raise these issues in a motion to suppress.

66a
Appendix D
4.

Failing to object to testimony regarding
Appleby’s credibility

Appleby maintains that his attorneys should have
objected to portions of the detectives’ trial testimony that
commented on his credibility; specifically, their comments
that Appleby’s explanation for returning to the crime
scene was “pretty hard to believe” and “did not make
sense.” The KCOA concluded that trial counsels’ failure
to object to this testimony did not deprive Appleby of
his right to a fair trial because there was no reasonable
probability that objecting would have produced a different
result since there was sufficient evidence that Appleby
killed A.K.
A successful ineffective assistance of counsel claim
requires satisfaction of two prongs: 1) performance
below an objective standard of reasonableness, and 2) the
deficient performance prejudiced the defense. Strickland,
466 U.S. at 687-88. Appleby offers nothing more than a
conclusory argument that these comments prejudiced
his right to a fair trial. The record supports the KCOA’s
conclusion that the outcome would not have been different
given the following evidence: 1) Appleby was present at
the scene shortly after the killing; 2) Appleby’s DNA
was on several items found in the pump room, including
A.K.’s bra, t-shirt, and the ointment tube; 3) Appleby knew
details about the crime that no one else could have known;
and 4) an eyewitness saw Appleby at the crime scene.
Thus, the KCOA applied Strickland’s second prong in an
objectively reasonable manner. This claim therefore does
not provide a basis for federal habeas relief.

67a
Appendix D
5.

Appellate Counsel’s Failure to Raise the
Above Issues

Having rejected all of Appleby’s claims that his trial
attorneys were ineffective, it necessarily follows that
appellate counsel was not ineffective for failing to raise
those issues on direct appeal. The court finds the KCOA
applied Strickland in an objectively reasonable manner
with respect to Appleby’s appellate counsel.
For these reasons, petitioner’s ineffective assistance
of counsel claims provide no basis for habeas relief.
B. Kansas Hard 50 Sentence (Ground 4)
O n d i r e c t app e a l , A ppleby c h a l len g e d t he
constitutionality of the Kansas Hard 50 statute because
it permits the sentencing court to find the aggravating
circumstances for a Hard 50 sentence, utilizing a
preponderance of the evidence standard, in violation of
Apprendi v. New Jersey, 530 U.S. 466 (2000). The KSC
rejected this challenge, stating:
This court has repeatedly rejected similar
arguments challenging the constitutionality
of the hard 40/hard 50 sentencing scheme and
held our hard 50 scheme is constitutional. State
v. Johnson, 284 Kan. 18, 22-23, 159 P.3d 161
(2007), cert. denied, 552 U.S. 1104, 128 S.Ct.
874, 169 L.Ed.2d 737 (2008); see also State v.
Warledo, 286 Kan. 927, 954, 190 P.3d 937 (2008)
(reaffirming State v. Conley, 270 Kan. 18, 11

68a
Appendix D
P.3d 1147 [2000], citing Johnson with approval,
and noting that the United States Supreme
Court has not “altered decisions in which it
recognized that the [Apprendi] prohibition
does not apply when considering the minimum
sentence to be imposed”); State v. Albright,
283 Kan. 418, 424 153 P.3d 497 (2007). Appleby
presents no persuasive reason to abandon this
long line of precedent.
Appleby did not raise this challenge in the 1507 Motion
and appeal.
Appleby now argues that he is entitled to federal
habeas relief because his Hard 50 sentence violates
Alleyne v. United States, 133 S.Ct. 2151 (June 17, 2013)
and State v. Soto, 299 Kan. 102 (2014) and its progeny—
all of which were decided after the KSC affirmed his
convictions. He says these cases constitute an intervening
change in law, which excuses any failure to raise this issue
in the 1507 proceedings. Dkt. 2 at 101. He also argues that
Alleyne is a new rule of criminal procedure that should
be applied retroactively in his case because he raised the
constitutionality of the Hard 50 statute under Apprendi
on direct appeal. Id. at 99-101. The court finds Appleby’s
arguments unpersuasive.
First, the court finds Appleby’s reliance upon Soto
misplaced. Soto is factually distinguishable because
Alleyne was decided during Soto’s direct appeal. Soto, 299
Kan. at 344 (after the parties filed their initial briefs, the
United States Supreme Court issued the Alleyne decision).

69a
Appendix D
More importantly, a prisoner seeking federal habeas
relief may rely on new constitutional rules of criminal
procedure announced before the prisoner’s conviction
became final. Teague v. Lane, 489 U.S. 288, 310 (1989).
Finality occurs when direct state appeals have been
exhausted and a petition for writ of certiorari from the
United States Supreme Court has become time barred or
has been disposed of. Griffith v. Kentucky, 479 U.S. 314,
321, n.6 (1987). The KSC affirmed Appleby’s convictions on
November 20, 2009. Appleby did not file a petition for writ
of certiorari to the United States Supreme Court, thus
his convictions and sentence became final on February
18, 2010, ninety days after the KSC decision. See Locke
v. Saffle, 237 F.3d 1269, 1273 (10th Cir. 2001) (a conviction
becomes final for habeas purposes when the ninety-day
period for filing a petition for a writ of certiorari to the
United States Supreme Court has expired). Because
Alleyne was decided after his conviction became final,
Appleby may not rely upon Alleyne. The fact that Alleyne
is an extension of Apprendi does not change when the
Alleyne rule was announced.
Appleby’s argument for retroactive application of
Alleyne lacks legal support. The Supreme Court has not
made Alleyne’s new rule of constitutional law retroactive
to cases on collateral review, and the Tenth Circuit has
determined that Alleyne does not apply retroactively
to cases on collateral review. See In re Payne, 733 F.3d
1027, 1029 (10th Cir. 2013). The Supreme Court has held
that rules based on Apprendi do not apply retroactively
on collateral review, see Schriro v. Summerlin, 542 U.S.
348 (2004), thus it is unlikely that the Supreme Court will
declare Alleyne retroactive in the future.

70a
Appendix D
Section 2254(d)(1) requires federal courts to measure
state-court decisions against the United States Supreme
Court’s precedents as of “the time the state court renders
its decision.” Cullen v. Pinholster, 563 U.S. 170, 182 (2011)
(internal quotations and citation omitted). The court finds
the KSC’s decision a reasonable determination of the law
at the time Appleby’s conviction and sentence became final.
Accordingly, Ground 4 provides no basis for habeas relief.
C.

Confession (Ground 5)

Appleby maintains the admission of his confession
violated his right against self-incrimination under the
Fifth and Fourteenth Amendment because his confession
was obtained after he had unambiguously requested
counsel. He argues the state court’s conclusion that at the
time he requested counsel, interrogation was clearly not
imminent or impending, was an unreasonable application
of the facts because he was interrogated minutes later by
Kansas detectives. He also argues that the state court’s
reliance on his actions after his requests for counsel
(i.e., agreeing to speak to Leawood detectives, waiving
Miranda, and talking to them for two hours without
requesting counsel) to conclude that his request for
counsel was ambiguous was contrary to Smith v. Illinois,
469 U.S. 91 (1984). Dkt. 2 at 126-27. In sum, he contends
the state courts’ adjudication of this claim was contrary
to federal law, namely Miranda, Edwards, Davis, McNeil,
Roberson, Minnick, and Smith.11 The court disagrees.
1. Miranda v. Arizona, 384 U.S. 436, 479 (1966); Edwards
v. Arizona, 451 U.S. 477, (1981); Davis v. United States, 512 U.S.
452 (1994); McNeil v. Wisconsin, 501 U.S. 171 (1991); Arizona v.

71a
Appendix D
The KSC’s analysis was comprehensive and consistent
with federal law. The KSC followed Davis v. United States,
512 U.S. 452 (1994), when it rejected Appleby’s invitation
to give broad effect to any mention of counsel by a suspect.
Appleby, 289 Kan. at 1039-41. Davis requires suspects
to unambiguously request counsel for the purpose of
assisting with custodial interrogation. Thus, as the KSC
concluded, the trial court was correct in examining the
circumstances surrounding the request to determine
whether Appleby’s questions were unambiguous requests
for the assistance of counsel with custodial interrogation.
The KSC then examined and followed the tenets
set out in McNeil v. Wisconsin, 501 U.S. 171 (1991) and
Montejo v. Louisiana, 556 U.S. 778 (2009). In McNeil, the
Supreme Court distinguished the Sixth Amendment right
to counsel from the Fifth Amendment right recognized in
Miranda v. Arizona, 384 U.S. 436 (1966). The Supreme
Court held that an accused’s invocation of his Sixth
Amendment right to counsel during a judicial proceeding
does not constitute an invocation of the Fifth Amendment
right to counsel. McNeil, 501 U.S. at 171. The Supreme
Court explained that “[t]o invoke the Sixth Amendment
interest is, as a matter of fact, not to invoke the MirandaEdwards interest.” Id. at 178 (italics in original). The
Supreme Court further explained that an invocation of
the Fifth Amendment right “requires, at a minimum,
some statement that can be reasonably construed to be
an expression of a desire for the assistance of an attorney
in dealing with custodial interrogation by the police.” Id.
Roberson, 486 U.S. 675 (1988); Minnick v. Mississippi, 498 U.S.
146 (1990); and Smith v. Illinois, 469 U.S. 91 (1984).

72a
Appendix D
In Montejo, the Supreme Court summarized Fifth
Amendment jurisprudence: 1) any suspect subject to
custodial interrogation has the right to have a lawyer
present if he so requests, and to be advised of that right;
2) once such a defendant “has invoked his right to have
counsel present,” interrogation must stop; and 3) no
subsequent interrogation may take place until counsel is
present, “whether or not the accused has consulted with
his attorney.” Montejo, 556 U.S. at 794 (citing Miranda,
384 U.S. at 474;Edwards, 451 U.S. at 484; Minnick, 498
U.S. at 153). The Supreme Court stressed that “[w]hat
matters for Miranda and Edwards is what happens when
the defendant is approached for interrogation, and (if he
consents) what happens during the interrogation.” Id. at
797. The Supreme Court also noted that it “had never held
that a person can invoke his Miranda rights anticipatorily,
in a context other than custodial investigation.” Id., citing
McNeil, 501 U.S. at 182, n.3.
Applying these tenets, the KSC concluded that
“Appleby’s references to an attorney during the book-in
process on the Connecticut charges did not constitute a
clear and unambiguous assertion of his Fifth Amendment
right as protected by Miranda.” 289 Kan. at 1052. The
record supports the trial court’s conclusion that Appleby
clearly requested an attorney, but he did not make it clear
he wanted the attorney to assist with questioning rather
than assistance with his case. Appleby made four requests
for counsel. The request made in response to the DNA
swabs was clearly not related to custodial interrogation.
The other three requests were more general. He made
them before or during the book-in process. At that time,

73a
Appendix D
Appleby only knew of the Connecticut case. No one had
told Appleby that his arrest was connected to the murder
of A.K. Detective Jewiss told Appleby that he would not be
questioning him. These facts support the KSC’s conclusion
that when Appleby made his requests, interrogation was
not imminent or impending. Appleby, 289 Kan. at 1052.
The fact that a custodial interrogation took place minutes
later does not make this conclusion unreasonable.
Finally, the trial court did not rely solely on Appleby’s
post-request responses to reach the conclusion that his
requests for counsel were ambiguous. Events preceding
the requests, the timing as well as the content and context
of his reference to counsel supported the court’s conclusion
as to ambiguity. Appleby’s post-request responses
provided further support.
The court finds the KSC applied a legal standard
consistent with federal law and applied it in an objectively
reasonable manner. Thus, Ground 5 fails as a basis for
habeas relief.
D.

DNA Population Study (Ground 6)

Appleby maintains the admission into evidence of
a computer-generated report containing statements
regarding population statistics on DNA testing violated
his right to confrontation under the Sixth Amendment and
was contrary to or an unreasonable application of Crawford
v. Washington, 541 U.S. 36 (2004). The KSC rejected this
argument after determining that the population frequency
data, the statistical programs used to make that data

74a
Appendix D
meaningful, and the DNA itself are nontestimonial. The
experts developed their personal opinions from these
data and were available for cross-examination, thus
Appleby was able to confront the witnesses. The court
finds the KSC’s analysis comports with federal law. The
Confrontation Clause bars the introduction of testimonial
hearsay against a criminal defendant, unless the declarant
is unavailable and the accused has had a prior opportunity
to cross-examine the declarant. Id. at 53-54. Because the
nature of the challenged information is nontestimonial,
the KSC’s determination on this issue was not legally
unreasonable. Thus, Ground 6 fails as a basis for habeas
relief.
E. Jury Instruction on Premeditation (Ground 7)
Appleby a rg ues that the jur y instr uction on
premeditation (Instruction No. 16) violated his Fourteenth
Amendment right to a fair trial because it unfairly
emphasized the State’s theory of premeditation. Appleby
challenges the italicized language that was added to the
pattern jury instruction:
Premeditation means to have thought the
matter over beforehand. In other words, to
have formed the design or intent to kill before
the killing. Stated another way, premeditation
is the process of thinking about a proposed
killing before engaging in the act that kills
another person, but premeditation doesn’t
have to be present before a fight, quarrel, or
struggle begins. There is no specific time period

75a
Appendix D
required for premeditation, but it does require
more than the instantaneous, intentional act
of taking another person’s life. Premeditation
can occur at any time during a violent episode
that ultimately causes the victim’s death.
(Emphasis added.)
Appleby, however, concedes the italicized statements are
correct statements of Kansas law. Dkt. 2 at 176.
A federal habeas court can set aside a state conviction
based on an erroneous instruction only when the “ailing
instruction by itself so infected the entire trial that the
resulting conviction violates due process.” Estelle v.
McGuire, 502 U.S. 62, 72 (1991). Petitioner bears the
burden of proving that an erroneous instruction was
so prejudicial and so infected the entire trial that the
resulting conviction violates due process. Henderson v.
Kibbe, 431 U.S. 145, 155 (1977); Donnelly v. DeChristoforo,
416 U.S. 637, 643 (1974) (to overturn state conviction
petitioner must establish not merely that instruction is
undesirable, erroneous or even “universally condemned,”
but that it violated constitutional right). In reviewing the
instruction, the court considers the instruction in the
context of the trial record and the instructions as a whole.
Cupp v. Naughten, 414 U.S. 141, 147 (1973).
The court finds Petitioner’s arguments conclusory
and insufficient to establish a constitutional violation.
The challenged instruction correctly stated Kansas law
and did not tell the jury how to apply the evidence. The
Kansas Supreme Court reasonably found that viewed in

76a
Appendix D
the light most favorable to the prosecution, the evidence
supported a conviction for premeditated murder. Appleby,
289 Kan. at 1064. On this record, the allegedly erroneous
instruction did not so infect the entire trial as to deprive
defendant of his constitutional rights. Estelle, 502 U.S. at
72. Accordingly, Appleby is not entitled to habeas relief
on this ground.
IV. Evidentiary Hearing
The court finds no need for an evidentiary hearing.
Anderson v. Attorney Gen. of Kansas, 425 F.3d 853, 859
(10th Cir. 2005) (“[A]n evidentiary hearing is unnecessary
if the claim can be resolved on the record.”); Schriro v.
Landrigan, 550 U.S. 465, 474 (2007) (“[I]f the record
refutes the applicant’s factual allegations or otherwise
precludes habeas relief, a district court is not required
to hold an evidentiary hearing.”).
V. Certificate of Appealability
Under Rule 11(a) of the Rules Governing Section 2254
Cases, “[t]he district court must issue or deny a certificate
of appealability when it enters a final order adverse to
the applicant.” “A certificate of appealability may issue
... only if the applicant has made a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
To satisfy this standard, the movant must demonstrate
that “ ‘reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong.’ ” Saiz v. Ortiz, 392 F.3d 1166, 1171 n. 3 (10th
Cir. 2004) (quoting Tennard v. Dretke, 542 U.S. 274, 282

77a
Appendix D
(2004)). While a movant is not required to demonstrate that
his appeal will succeed to be entitled to a COA, he must
“prove something more than the absence of frivolity or the
existence of mere good faith.” Miller–El v. Cockrell, 537
U.S. 322, 338 (2003) (quotation omitted). “This threshold
inquiry does not require full consideration of the factual
or legal bases adduced in support of the claims. In fact,
the statute forbids it.” Id. at 336. The rulings made above
are not the type that reasonable jurists could debate or
would conclude were wrong. Therefore, the court declines
to issue a certificate of appealabilty for this Order.
IT IS THEREFORE ORDERED this 27th day of
December, 2016, that Appleby’s petition for habeas corpus
relief (Dkt. 1) is DENIED.

78a
Appendix OF
E THE SUPREME
APPENDIX E — OPINION
COURT OF KANSAS, DATED NOVEMBER 20, 2009
SUPREME COURT OF KANSAS
No. 98,017
STATE OF KANSAS,
Appellee,
v.
BENJAMIN A. APPLEBY,
Appellant.
November 20, 2009
OPINION
J.:

The opinion of the court was delivered by LUCKERT,

Benjamin A. Appleby was convicted of the attempted
rape and capital murder of A.K., a 19–year–old college
student, in Johnson County, Kansas.
The following issues are raised on appeal: (1) Are
Appleby’s convictions of capital murder and attempted rape
multiplicitous, meaning his sentences for both convictions
result in a double jeopardy violation? (2) Did the trial
court violate Appleby’s right against self-incrimination by
admitting into evidence custodial statements made after

79a
Appendix E
Appleby had asked, while being booked on a different
case, whether he would be able to talk to an attorney? (3)
Did the trial court violate Appleby’s right to confrontation
by admitting into evidence a computer-generated report
regarding population statistics related to DNA testing?
(4) Did the trial court err by giving a jury instruction
containing an expanded definition of “premeditation”?
(5) Did the trial court abuse its discretion in weighing
aggravating and mitigating circumstances in determining
whether to impose the hard 50 sentence? and (6) Is the
hard 50 –sentencing scheme unconstitutional under
Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348,
147 L.Ed.2d 435 (2000)?
On review, we agree with Appleby’s arguments
regarding issue one, hold that his attempted rape
conviction is multiplicitous with his capital murder
conviction, and vacate the sentence imposed for the
attempted rape conviction. However, we affirm Appleby’s
conviction and sentence for capital murder, finding that
Appleby failed to establish error resulting from any of the
complaints raised in issues two through six.
FACTUAL AND PROCEDURAL BACKGROUND
On June 18, 2002, A.K. was murdered while working
alone as an attendant at a swimming pool near her family’s
home. Her brother, who also worked as a pool attendant,
arrived at the pool around 5 p.m. to relieve A.K. after
her shift ended, but he could not find her. He called their
father, R.K., who came to the pool and searched for his
daughter. Around 5:30 p.m., R.K. found A.K. in the pool’s

80a
Appendix E
pump room, lying face down under a pool cover. She had
been severely beaten, her face was battered and bloody,
and her hair was matted with blood. A.K. was naked from
the waist down, her sports bra had been pushed up under
her arms, and her T-shirt was wrapped tightly around
her neck.
Soon after this tragic discovery, police arrived and
secured the pool area. In doing so, an officer recorded the
name of everyone present at the scene, including a “Teddy
Hoover” who was later identified as Appleby. The police
also secured evidence, some of which was tested for DNA.
This testing revealed DNA that did not match A.K.’s. Few
other leads developed from the initial investigation.
An autopsy led to the conclusion that A.K.’s death was
caused by strangulation and multiple blunt force injuries,
although the strangulation would have been enough to kill
A.K. Dr. Michael Handler—the forensic neuropathologist
who performed the autopsy and who is board certified
in anatomic pathology, neuropathology, and forensic
pathology—concluded there had been both ligature and
manual strangulation. According to him, it would have
taken approximately 10—and perhaps as many as 16—
minutes for the assailant to strangle A.K. Because there
was petechial hemorrhaging, Dr. Handler believed there
were periods when the force of strangulation was stopped.
Dr. Handler also identified other injuries, which made
it appear A.K. had been in a horrible fight. Both of her
eyes were blackened, her lip was cut, and her arms were
bruised and scraped. A.K.’s hands, especially the knuckles

81a
Appendix E
and fingers, were cut, and the fingers on her left hand were
contorted and broken. A.K. also had bruises on her face
and both hip bones, knees, feet, and upper thighs. There
were two lacerations on the back of A.K.’s head, which
could have been caused by a fall or by someone beating
her head against the floor.
Several months after A.K.’s death, Sergeant Scott
Hansen of the Leawood Police Department went to
Appleby’s home in Kansas City, Kansas. At that point in
time, the police knew Appleby by his alias of Teddy Hoover.
Appleby agreed to speak with Sergeant Hansen and
indicated that he was a self-employed pool maintenance
contractor. Hansen requested a DNA elimination sample
from Appleby, who said he would talk to his attorney about
providing a sample. When Hansen tried to follow up later,
he discovered that Appleby had left town.
Subsequent leads caused police to seek more
information from Appleby, who they still knew as Teddy
Hoover. In November 2004, the investigation led Kansas
detectives to Connecticut, where Appleby was living.
Connecticut State Police discovered an outstanding arrest
warrant for Appleby from 1998 and agreed to execute the
warrant when Kansas detectives could be present. The
purpose of this arrest was to give Kansas detectives an
opportunity to question Appleby.
After Kansas detectives arrived in Connecticut, they
worked with Connecticut officers to prepare and obtain
search warrants that authorized a search of Appleby’s
house and the swabbing of Appleby’s mouth for the
purpose of obtaining a DNA sample. Then, Connecticut

82a
Appendix E
police arrested Appleby at his home and executed the
residential search warrant.
While the search warrant was being executed,
Appleby was transported to a nearby Connecticut police
station by Connecticut Detective Daniel Jewiss. On the
way, Appleby volunteered that after some “trouble” in his
past, he had taken on the name of his childhood friend,
Teddy Hoover, who had died in an accident.
At the police station, Detective Jewiss started
processing Appleby on the Connecticut arrest warrant.
During the book-in process, another detective from
Connecticut’s major crime unit executed the search
warrant that allowed swabbing Appleby’s inner mouth
for purposes of DNA testing. As we will discuss in more
detail as part of our analysis of the second issue, when
served with the DNA search warrant Appleby asked if he
could speak to an attorney regarding his right to refuse
the swabbing and, at three other points during the bookin process, asked whether he would have a chance to talk
to an attorney. Appleby was told he did not have a right
to refuse the execution of the warrant allowing the DNA
swabbing but was told he would have the opportunity to
call an attorney.
A fter completing most of the book-in process,
Detective Jewiss told Appleby that other detectives
wanted to speak to him about “an unrelated matter” and
asked if Appleby was willing to talk to them. Appleby
agreed and was taken upstairs to an interrogation room
where the Kansas detectives waited. The detectives asked

83a
Appendix E
Appleby if he would answer some questions about A.K.’s
murder. Up to this point, Appleby had not been told that
Kansas detectives were involved or that some of the
warrants were related to the A.K. murder investigation.
Appleby told the Kansas detectives he wanted to
speak with them and straighten out some details from
the time Sergeant Hansen interviewed him at his home
in Kansas City. After being Mirandized, Appleby told
the Kansas detectives that while he lived in Kansas City
he used the name Teddy Hoover and had a pool company
named Hoover Pools. Appleby indicated that he moved to
Texas shortly after his interview with Sergeant Hansen
and went back to using his real name, Benjamin Appleby;
then he moved to Connecticut.
The detectives repeatedly asked Appleby if he had
been at the pool where A.K. died, but Appleby told them
he had never been there. After approximately 1 hour, the
detectives moved him to an adjoining interview room. The
second room contained items from the police investigation,
such as a time line of the investigation, A.K.’s photograph
and obituary, an aerial photograph of the pool, a videotape,
a notebook labeled with the name Teddy Hoover, and two
additional notebooks labeled as crime scene and autopsy
photographs. The detectives then confronted Appleby
with the fact that an officer at the pool on the day of the
murder had logged the presence of a man who gave the
name Teddy Hoover and a telephone number. At that point,
Appleby acknowledged he had been at the pool that day.
About 15 or 20 minutes later, Appleby admitted he
had killed A.K. Appleby told the detectives A.K. was in

84a
Appendix E
the pump room when he arrived at the pool. Finding A.K.
attractive, Appleby tried to “hit on her,” but A.K. rejected
his advances and tried to leave the pump room. Appleby
stood in her way and tried to grab her breasts and her
waist. A.K. pushed Appleby and then punched him. This
angered Appleby, who “lost it” and, in his own words, “just
beat the shit out of her.”
Appleby described the ensuing struggle during which
the two fell and Appleby hit A.K. twice in the back of the
head, which rendered her unconscious. Then he straddled
A.K. and removed her shorts and panties, intending to
have sex with her. Appleby next stood up and found a
first-aid kit stored in the pump room. From the kit, the
defendant said he took a tube of ointment and used the
ointment as a sexual lubricant, but he could not obtain an
erection.
Appleby also admitted to strangling A.K., although he
told the detectives he could not remember what he used.
At one point, Appleby suggested he used the rope on the
pool thermometer in the pump room. At other times he
stated he did not remember strangling A.K.
In describing what happened next, Appleby stated
that as he was leaving, he thought he heard A.K. breathing
and “didn’t want to leave her that way,” so he covered her
up with the pool cover. He then left as a young woman
drove up and honked a horn. He waved, got into his truck,
and left. Appleby returned to the pool later, about 5:30
p.m., because he wanted to see what had happened; as a
result, he was on the scene when the police created the
crime scene log.

85a
Appendix E
DNA testing performed by two crime labs matched
Appleby’s DNA to the DNA found mixed with A.K.’s DNA
on the ointment tube and on her sports bra and T-shirt.
In addition, Appleby was linked to the crime by the young
woman who pulled up as Appleby was leaving the pool;
she identified him as the man she saw.
The State charged Appleby with capital murder for
the death of A.K. (Count I), under K.S.A. 21–3439(a)
(4) (intentional premeditated killing in the commission
of or subsequent to the offense of attempted rape),
and attempted rape (Count II), under K.S.A. 21–3301
and K.S.A. 21–3502. The jury found Appleby guilty of
both charges. The trial court imposed a hard 50 life
imprisonment sentence for the murder conviction and a
consecutive sentence of 228 months’ imprisonment for the
attempted rape conviction. Appleby now appeals.
After oral arguments before this court, an order was
entered staying a decision pending the United States
Supreme Court’s decisions in two cases. The first, Montejo
v. Louisiana, 556 U.S. 778, 129 S.Ct. 2079, 173 L.Ed.2d 955
(2009), which relates to Appleby’s second issue regarding
the admission of his confession, was filed on May 26, 2009.
The second, Melendez–Diaz v. Massachusetts, 557 U.S.
––––, 129 S.Ct. 2527, 174 L.Ed.2d 314 (2009), which relates
to Appleby’s third issue regarding the admission of the
DNA testing, was filed on June 25, 2009. Following each
decision, Appleby filed letters of supplemental authority
pursuant to Supreme Court Rule 6.09(b) (2008 Kan. Ct.
R. Annot. 47), and this matter is now ready for decision
pursuant to this court’s jurisdiction under K.S.A. 22–

86a
Appendix E
3601(b)(1) (off-grid crime).
ISSUE 1. MULTIPLICITY OF CAPITAL
MURDER AND ATTEMPTED RAPE
Appleby’s first issue on appeal is a multiplicity and
double jeopardy objection that he first asserted in a
pretrial motion to dismiss the attempted rape charge. In
the motion, he argued the Double Jeopardy Clause of the
Fifth Amendment to the United States Constitution, §
10 of the Kansas Constitution Bill of Rights, and K.S.A.
21–3107 prohibit convictions on both counts alleged
against him—i.e., capital murder and attempted rape.
The trial court set the motion to dismiss for hearing along
with several other pretrial motions. Although a ruling
on this motion is not contained in the record on appeal,
presumably the motion was denied because the case
proceeded on both counts. Because the issue is purely one
of law, we are not hindered in our review by the absence
of the ruling from the record on appeal.
A. Standard of Review
When an appellate court reviews a ruling on a double
jeopardy or multiplicity issue, an unlimited scope of
appellate review applies. State v. Thompson, 287 Kan.
238, 243, 200 P.3d 22 (2009); State v. Harris, 284 Kan.
560, Syl. ¶ 3, 162 P.3d 28 (2007).

87a
Appendix E
B. Strict–Elements Test
In raising this issue before pretrial, Appleby argued
the charges of attempted rape and capital murder
based on the aggravating crime of attempted rape were
multiplicitous.
“ ‘ “Multiplicity is the charging of a single
offense in several counts of a complaint or
information. The reason multiplicity must be
considered is that it creates the potential for
multiple punishments for a single offense in
violation of the Double Jeopardy Clause of
the Fifth Amendment of the United States
Constitution and section 10 of the Kansas
Constitution Bill of Rights.” ’ [Citations
omitted.]” State v. Schoonover, 281 Kan. 453,
475, 133 P.3d 48 (2006).
The procedural objection of multiplicity preserves a
claim of double jeopardy, which arises when a defendant is
actually sentenced twice for one offense. See Schoonover,
281 Kan. at 475, 133 P.3d 48. When analyzing a claim of
double jeopardy,
“the overarching inquiry is whether the
convictions are for the same offense. There
are two components to this inquiry, both of
which must be met for there to be a double
jeopardy violation: (1) Do the convictions arise
from the same conduct? and (2) By statutory
definition are there two offenses or only one?”
Schoonover, 281 Kan. at 496, 133 P.3d 48.

88a
Appendix E
The State does not argue that the offenses were two
acts of discrete conduct. Consequently, we accept that the
convictions arose from unitary conduct and focus on the
second inquiry of whether the conduct constituted one or
two offenses by statutory definition.
When analyzing whether sentences relating to two
convictions that arise from unitary conduct result in a
double jeopardy violation, the test to be applied depends
on whether the convictions arose from one or two statutes.
If the double jeopardy issue arises from convictions
for multiple violations of a single statute, the unit of
prosecution test is applied. If the double jeopardy issue
arises from multiple convictions of different statutes, in
other words if it is a multiple-description issue, the strictelements test is applied. Schoonover, 281 Kan. at 497, 133
P.3d 48.
Because Appleby raises a double jeopardy argument
arising from his convictions under two different statutes,
the strict-elements test applies to this analysis. The strictelements test “serves as a rule of statutory construction to
discern whether [a legislature] intended multiple offenses
and multiple punishments” when a court is analyzing the
claim under the Double Jeopardy Clause of the Fifth
Amendment. Schoonover, 281 Kan. at 498, 133 P.3d
48. Similarly, when analyzing a claim under § 10 of the
Kansas Constitution Bill of Rights, “the same-elements
test is applied to implement the legislative declaration in
[K.S.A. 21–3107] that a defendant may be convicted of
two crimes arising from the same conduct unless one is
a lesser included offense of the other.” Schoonover, 281
Kan. at 498, 133 P.3d 48. Finally, K.S.A. 21–3107 provides

89a
Appendix E
a statutory defense when charges arise from the “same
conduct.”
K.S.A. 21–3107 provides:
“(1) When the same conduct of a defendant may
establish the commission of more than one crime
under the laws of this state, the defendant may
be prosecuted for each of such crimes. Each of
such crimes may be alleged as a separate count
in a single complaint, information or indictment.
“(2) Upon prosecution for a crime, the defendant
may be convicted of either the crime charged or
a lesser included crime, but not both. A lesser
included crime is:
(a) A lesser degree of the same crime;
(b) a crime where all elements of the
lesser crime are identical to some of
the elements of the crime charged;
(c) an attempt to commit the crime
charged; or
(d) an attempt to commit a crime
defined under subsection (2)(a) or (2)
(b).” (Emphasis added.)

90a
Appendix E
C. Application of Strict–Elements Test
Recently, in Trotter v. State, 288 Kan. 112, Syl. ¶ 1, 200
P.3d 1236 (2009), we applied these principles and K.S.A.
21–3107 to a defendant’s argument that his premeditated
first-degree murder conviction under K.S.A. 21–3401 and
his capital murder conviction under K.S.A. 21–3439(a)
(6) were improperly multiplicitous and his punishment
for both crimes violated the Double Jeopardy Clause.
Because Trotter was convicted of crimes defined by two
separate statutes, he argued the strict-elements test
applied and noted that all of the elements of premeditated
first-degree murder had to be proven as some of the
elements of capital murder under K.S.A. 21–3439(a)(6),
which defines capital murder as the “intentional and
premeditated killing of more than one person as a part
of the same act or transaction or in two or more acts or
transactions connected together or constituting parts of
a common scheme or course of conduct.” We agreed with
the defendant’s argument and concluded the premeditated
first-degree murder conviction was a lesser included
offense of the capital murder count and must be reversed
under K.S.A. 21–3107(2). Trotter, 288 Kan. at 120–24,
200 P.3d 1236.
In reaching this holding in Trotter, we relied on earlier
decisions in which we had held that K.S.A. 21–3439(a)
(6) created a unit of prosecution that is comprised of the
premeditated first-degree murder of one victim and the
commission of an additional, aggravating premeditated
first-degree murder as part of the same transaction or
common scheme. The combination of the two murders

91a
Appendix E
elevated the crime to a capital offense, and the two
first-degree murders were recognized as lesser included
offenses of the capital murder. See State v. Scott, 286 Kan.
54, 65–66, 183 P.3d 801 (2008); State v. Martis, 277 Kan.
267, Syl. ¶ 1, 83 P.3d 1216 (2004).
Further, the Trotter court noted that the key inquiry
in a double jeopardy analysis is to determine what measure
of punishment the legislature intended. Consequently, the
Trotter court considered whether there was a legislative
intent to allow the multiple punishment and concluded
the plain language of K.S.A. 21–3439 did not express a
legislative intent to override K.S.A. 21–3107(2), which
clearly states that a defendant cannot be convicted of both
a primary and lesser included offense. See Trotter, 288
Kan. at 122–23, 200 P.3d 1236 (citing Scott, 286 Kan. at
65–66, 68, 183 P.3d 801).
The Trotter analysis guides our consideration of
Appleby’s claim of statutory multiplicity. Although
Trotter’s capital murder conviction was based on K.S.A.
21–3439(a)(6) and Appleby’s conviction is based on
K.S.A. 21–3439(a)(4), we find no basis to reach a different
conclusion simply because the aggravating felony is
attempted rape rather than a premeditated first-degree
murder. In the same manner that the State must prove
the elements of the lesser offense of premeditated firstdegree murder when the charge arises under K.S.A.
21–3439(a)(6), the State must prove the lesser offense
of a sex crime—in this case, attempted rape—when the
capital murder charge is brought under K.S.A. 21–3439(a)
(4). To prove the elements of capital murder, the State

92a
Appendix E
had to prove beyond a reasonable doubt that Appleby
intentionally, and with premeditation, killed A.K. in the
commission of, or subsequent to, the crime of attempted
rape. Hence, all of the elements of attempted rape were
identical to some of the elements of the capital murder,
meaning the attempted rape was a lesser included offense.
Under K.S.A. 21–3107(2), Appleby could not be convicted
of both, and imposing sentences for both convictions
violated Appleby’s rights to be free from double jeopardy
as guaranteed by the Fifth Amendment to the United
States Constitution and § 10 of the Kansas Constitution
Bill of Rights.
Recognizing this potential extension of our holding
in Trotter, the State urges our reconsideration of that
decision, arguing the decision is contrary to the holding in
Harris, 284 Kan. 560, 162 P.3d 28, and the felony-murder
rule, as applied through the inherently dangerous felony
statute. We reject both arguments.
Regarding the first argument, the holding in Harris
does not apply to the issue in this case. The specific issue
raised in Harris was whether there was a double jeopardy
violation because two of the defendant’s three convictions
of capital murder were based on the same group of related
murders. The issue arose from Harris’ multiple convictions
under a single statute—K.S.A. 21–3439(a)(6), the multiplemurder subparagraph of the capital murder statute. This
contrasts with Trotter’s convictions which arose under
two statutes—K.S.A. 21–3439(a)(6), the multiple murder
subparagraph of the capital murder statute, and K.S.A.
21–3401, the first-degree murder statute.

93a
Appendix E
Because Harris’ convictions arose from a single
statute, the “unit of prosecution” test was applied to
determine if there had been a double jeopardy violation.
Under that test, the question is: What did the legislature
intend as the unit of prosecution in a capital murder
case? See Schoonover, 281 Kan. at 497–98, 133 P.3d 48.
In Harris, we answered this question by determining
that the legislature has proscribed the unit of prosecution
as the murder of more than one person in one act or
transaction or in related acts or transactions joined by
a common scheme. Harris, 284 Kan. 560, Syl. ¶ 6, 162
P.3d 28. This meant that two of Harris’ capital murder
convictions had to be reversed because the State charged
the murders as part of one scheme. Harris, 284 Kan. at
577–78, 162 P.3d 28.
In reaching that holding, we recognized that “under
other circumstances, a defendant may be convicted and
punished appropriately and constitutionally on multiple
counts of capital murder, as that offense is defined in
K.S.A. 21–3439(a)(1) through (7).” Harris, 284 Kan. at
578, 162 P.3d 28. In this case, the State suggests that this
statement in Harris supports cumulative punishment
under the facts in Trotter and, by extension, in this case.
The State’s argument fails, however, because it does not
recognize that the comment in Harris was intended to
recognize the possibility of charges being brought under
different subparagraphs of the capital murder statute—
i.e., two different theories—resulting in multiple counts.
Further, the State confuses the unit of prosecution test
applied in Harris with the multiple-description, i.e., the
strict elements, test applied in Trotter.

94a
Appendix E
The distinction is clarified when the sentence from
Harris is read in context; doing so explains the court was
referring to a potential issue not reached in Harris and not
at issue in this case. Specifically, after the sentence relied
on by the State, the court cited Brooks v. State, 973 So.2d
380 (Ala.Crim.App.2007), in which the defendant had been
convicted of four counts of capital murder in connection
with the murder of a 12–year–old boy. The offense
satisfied four definitions of capital murder contained in
Ala.Code § 13A–5–40(a) (2006). That potential situation
and the situation actually at issue in Harris raised unit
of prosecution questions, not strict-elements issues. Our
holding in Trotter is consistent with the unit of prosecution
analysis in Harris because, in both cases, we considered
multiple murders to be one unit of prosecution.
Nevertheless, such a conclusion did not resolve
the issue in Trotter because Trotter was not convicted
of multiple counts arising from the same statute and,
therefore, the unit of prosecution test was not the
controlling test. Rather, Trotter’s convictions arose from
multiple statutes; specifically, the issue presented in
Trotter was whether the defendant could be convicted of
one count under K.S.A. 21–3439(a)(6)—capital murder—
and of another count under K.S.A. 21–3401—premeditated
first-degree murder. Under those circumstances—i.e.,
when punishment is imposed for violations of two different
statutes—the multiple-description, otherwise known as
the strict-elements, test under K.S.A. 21–3107 applies.
See Schoonover, 281 Kan. at 497–98, 133 P.3d 48.

95a
Appendix E
This case, like Trotter, presents a multiple-description
issue: Can Appleby be convicted of both capital murder
under K.S.A. 21–3439(a)(4) and attempted rape under
K.S.A. 21–3301 (attempt) and K.S.A. 21–3502 (rape)? The
multiple-description, strict-elements test applies to the
determination of this issue and Harris’ unit of prosecution
analysis has no application.
The second argument raised by the State is that the
felony-murder rule, as applied through the inherently
dangerous felony statute, specifically allows multiple
convictions for both the homicide and an underlying felony.
The State cites to State v. Holt, 260 Kan. 33, 917 P.2d
1332 (1996), for its holding that convictions for a felony
murder and the underlying felony did not violate double
jeopardy. The State relies on the Holt court’s statements
that there is a “ ‘distinction between the “lesser included
offense” doctrine and the “felony murder” doctrine. Each
is a separate theory of law. Each exists in a distinct legal
pigeonhole.’ ” Holt, 260 Kan. at 45, 917 P.2d 1332; see also
Schoonover, 281 Kan. at 489–92, 133 P.3d 48 (discussing
felony-murder doctrine and double jeopardy).
The most obvious problem with the State’s argument
is that the inherently dangerous felony statute, K.S.A.
21–3436, does not apply to the capital murder statute.
Rather, the inherently dangerous felony statute defines
the homicides to which it applies by stating:
“(a) Any of the following felonies shall be deemed
an inherently dangerous felony whether or not
such felony is so distinct from the homicide

96a
Appendix E
alleged to be a violation of subsection (b) of
K.S.A. 21–3401, and amendments thereto, as
not to be an ingredient of the homicide alleged
to be a violation of subsection (b) of K.S.A.
21–3401, and amendments thereto.” K.S.A.
21–3436.
The referenced homicide statute—the only referenced
homicide statute—is K.S.A. 21–3401(b), the felony-murder
statute, which applies “to the killing of a human being ...
in the commission of, attempt to commit, or flight from an
inherently dangerous felony as defined in K.S.A. 21–3436.”
K.S.A. 21–3439—the capital murder statute—is neither
referenced nor incorporated into the inherently dangerous
felony statute—K.S.A. 21–3436.
In addition, as we noted in Trotter, the capital murder
statute does not contain language similar to that found in
the inherently dangerous felony statute, which provides
that the homicide and the inherently dangerous felony are
distinct and do not merge. Trotter, 288 Kan. at 122–23,
200 P.3d 1236 (citing Scott, 286 Kan. at 68, 183 P.3d 801);
compare K.S.A. 21–3107 with K.S.A. 21–3439. As we have
frequently recognized, this language in the inherently
dangerous felony statute reflects that the legislature
understands the need to express an intent to allow
convictions under two statutes for the same conduct and
knows how to do so. See Schoonover, 281 Kan. at 490–91,
133 P.3d 48; see also State v. Farmer, 285 Kan. 541, Syl.
¶ 4, 175 P.3d 221 (2008); State v. Conway, 284 Kan. 37, 57,
159 P.3d 917 (2007); State v. Walker, 283 Kan. 587, 611,
153 P.3d 1257 (2007).

97a
Appendix E
Because the legislature did not include similar
language in the capital murder statute, our analysis is
governed by the expression of legislative intent stated
in K.S.A. 21–3107(2)(b). Applying the same-elements
test under that provision, Appleby’s two convictions—
one for capital murder based upon the intentional and
premeditated killing of A.K. in the commission of, or
subsequent to, the attempted rape of A.K. under K.S.A.
21–3439(a)(4) and the other for the attempted rape of
A.K. under K.S.A. 21–3301 and K.S.A. 21–3502—are
improperly multiplicitous and violate Appleby’s right to
be free from double jeopardy. Appleby’s sentence for the
attempted rape conviction must be vacated.
ISSUE 2. SUPPRESSION OF CONFESSION
Next, Appleby contends the trial court erred by
admitting into evidence the incriminating statements
he made to Kansas detectives. Appleby argues the
statements must be suppressed because he asked about
an attorney while he was being booked on the Connecticut
arrest warrant.
A. Attorney Requests
This argument differs from the typical issue arising
from the application of Miranda v. Arizona, 384 U.S. 436,
86 S.Ct. 1602, 16 L.Ed.2d 694, reh. denied 385 U.S. 890,
87 S.Ct. 11, 17 L.Ed.2d 121 (1966), in that Appleby was
arrested in another state on unrelated charges, and the
arresting officer, Detective Jewiss, had no intention of
interrogating Appleby; typically a Miranda issue arises

98a
Appendix E
when there is custodial interrogation related to the crime
on which the arrest was based. Under the circumstances
of this case, the State argues Appleby’s questions about
whether he would be allowed to talk to an attorney were,
at most, an invocation of Sixth Amendment rights related
to the Connecticut charges. Appleby argues that he was
asserting his Fifth Amendment rights and the assertion
applied to both cases. To understand these arguments, a
more detailed discussion of the interaction is necessary.
When Appleby was arrested in Connecticut, he was
arrested on the Connecticut charges only, even though the
arrest was timed to occur when Kansas detectives were in
Connecticut and the arrest may not have occurred if Kansas
law enforcement had not contacted the Connecticut State
Police Department to request assistance in investigating
Appleby. But this involvement was behind the scene;
the Kansas detectives did not directly participate when
Detective Jewiss took Appleby into custody at his home,
and Appleby was not aware of their presence until after
he had asked the Connecticut detectives the four questions
about whether he could talk to an attorney. Appleby did
ask Detective Jewiss why there were so many officers at
his house, and the detective explained a search warrant
was being executed and the officers were going to search
the home. Appleby questioned what the search was about,
and Jewiss replied that he “wasn’t going to talk to him
any further about the case; that somebody else would
talk to him.”
During the approximately 3–mile drive to the station,
Detective Jewiss did not ask Appleby any questions, but

99a
Appendix E
Appleby volunteered information about his use of the alias
of Teddy Hoover.
When Detective Jewiss and Appleby arrived at the
station, Detective Jewiss began the routine book-in
process on the Connecticut arrest warrant. At this point,
before Appleby had been Mirandized, Appleby asked
“if he was going to have the opportunity to talk to an
attorney.” Detective Jewiss replied “absolutely.” Detective
Jewiss testified he understood this to be a question
regarding procedure, not an invocation of the right. While
testifying at the suppression hearing, Detective Jewiss
was asked if he was questioning Appleby at this point in
time. He answered: “Not at all. I even informed him that
I wouldn’t be questioning him, and that I wouldn’t talk to
him about either of these cases.”
After Appleby asked about an attorney, he was read
a notice of rights form that listed the three Connecticut
charges—risk of injury to a minor, disorderly conduct, and
public indecency. The form also advised of Miranda rights
and stated in part: “You may consult with an attorney
before being questioned; you may have an attorney present
during questioning, and you cannot be questioned without
your consent.” Appleby signed the notice of rights form,
which was an acknowledgment, not a waiver of rights.
Soon after that exchange, another Connecticut
detective advised Appleby of the search warrant that
authorized the officer to swab the inside of Appleby’s
mouth in order to obtain a DNA sample. Detective Jewiss
testified that Appleby asked if he had the right to say “no”

100a
Appendix E
and then asked if he could speak to an attorney about his
right to refuse the testing. According to Detective Jewiss,
the detectives advised Appleby he could not talk to an
attorney at that point regarding a search that had been
authorized by a judge.
Following the DNA swabbing, Detective Jewiss
continued with the book-in process on the Connecticut
charges. Appleby was fingerprinted and photographed,
the property on his person was inventoried, and a personal
information data sheet was completed. During that
process, Appleby asked two more times whether he would
have an opportunity to talk to an attorney.
At the suppression hearing, Detective Jew iss
repeatedly testified that he understood Appleby to be
“asking about our procedure as in ... will he have the
opportunity to talk to an attorney.” According to Detective
Jewiss, the question was never in the context of, “I don’t
want to talk to you” or “I don’t want to talk to anybody
without an attorney here.”
Detective Jewiss testified that during the book-in
process he asked Appleby his name, date and place of
birth, residence, and similar book-in questions. The only
other question he asked came about 30 minutes after they
arrived at the police station when Detective Jewiss asked
Appleby if he wanted to talk to some people about an
unrelated matter. Appleby said he would. Detective Jewiss
was asked if Appleby brought up the word “attorney” at
that time, and he replied, “No, he didn’t.”

101a
Appendix E
Detective Jewiss was also asked why he did not give
Appleby the opportunity to speak to an attorney before
sending him upstairs to be interrogated by the Kansas
detectives. Detective Jewiss, who had repeatedly stated
that he had understood Appleby to be asking about
procedure and had explained that a defendant would
typically be allowed to contact an attorney only after the
book-in process was complete, testified that “[t]here was
still some processing that I had to continue with.”
When Detective Jewiss transferred Appleby to the
Kansas detectives, he reported that Appleby had not
invoked his right to counsel, “but he has asked something
about an attorney when the [DNA] search warrant was
being conducted.” Detective Jewiss did not tell the Kansas
detectives about the other instances when Appleby asked
whether he would be able to talk to an attorney.
After Detective Jewiss left, the two Kansas detectives
asked Appleby if he wanted to answer some questions
about the murder of A.K. He said he wanted to talk to
them, and the detectives then told him he would be read
his Miranda rights again since he was being interviewed
“on a different charge from what he was arrested.”
After being read his rights, Appleby said he understood
them and was willing to answer some questions. He was
questioned for approximately 2 and 1/2 hours, the final 20
minutes on videotape. At no point during the questioning
by the Kansas detectives did Appleby indicate he wished
to speak to or have the assistance of an attorney.

102a
Appendix E
B. Trial Court’s Findings
Appleby filed three pretrial motions to suppress
the statements he made to the Kansas detectives. After
hearing the testimony we have described above, the
trial court denied Appleby’s motions in a memorandum
decision. The trial court explained that although Appleby’s
initial motion to suppress cited to the Fifth, Sixth, and
Fourteenth Amendments to the United States Constitution
and to three provisions of the Kansas Constitution Bill of
Rights, he later limited his claim to “the admissibility
[of the statements] under the Fifth and Fourteenth
Amendments.” Therefore, the trial court limited its scope
of analysis.
The trial court recognized there are two questions to
ask in the determination of whether a suspect has invoked
his or her Fifth Amendment right to counsel: (1) whether
the suspect articulated a desire to have an attorney
present sufficiently clearly that a reasonable officer in
the circumstances would understand the statement to be
a request for an attorney and (2) whether an attorney is
being requested for purposes of interrogation rather than
in regard to later hearings or proceedings. See State v.
Walker, 276 Kan. 939, 945, 80 P.3d 1132 (2003). The trial
court concluded Appleby clearly requested an attorney,
but he did not make it clear he wanted the attorney to
assist with questioning rather than to have assistance
with his case.
Regarding the clear indication that Appleby wanted
the assistance of counsel, the trial court noted Appleby

103a
Appendix E
had asked four times about contacting an attorney in a
period of approximately 30 minutes. The trial court found
that, although Appleby’s requests were never phrased as
a demand, “they clearly communicated a desire to call his
attorney without substantial further delay.”
Yet, in concluding the purpose of Appleby’s request
was not clear, the trial court stated:
“There are many purposes Appleby could have
sought to accomplish by contacting his lawyer.
At the time he made those requests, no one had
indicated to him that his arrest was connected
in any way to the [A.K.] murder investigation.
He may have wanted his attorney to try to
determine whether that was the real reason
multiple officers had shown up to search his
residence. Or Appleby may simply have wanted
to learn the procedural steps that might take
place following his arrest. Or he may have
wanted his attorney to take steps to secure
his release on bond. Other purposes could
have been present as well, including the desire
to obtain the assistance of counsel in dealing
with any questioning that might ensue after
‘processing’ was completed.”
In addition, the trial court found:
“Appleby’s lack of intent to obtain a lawyer to
assist with any pending custodial interrogation
is an inference supported by his later (a) saying

104a
Appendix E
affirmatively that he wanted to speak to the
[Kansas] detectives, (b) making an explicit
Miranda waiver for them, (c) speaking with
them for two and a half hours, and (d) never
mentioning a lawyer during that interview.”
Consequently, the trial court denied Appleby’s motion
to suppress, finding that based upon Appleby’s statements
and the context in which they were made, “he did not
ask for counsel for the purpose of assisting him with an
imminent custodial interrogation.”
C. Standard of Review
In reviewing the trial court’s decision regarding
suppression, this court reviews the factual underpinnings
of the decision by a substantial competent evidence
standard and the ultimate legal conclusion by a de novo
standard. We do not reweigh evidence or assess the
credibility of witnesses but will give deference to the trial
court’s findings of fact. State v. Warledo, 286 Kan. 927,
934–35, 190 P.3d 937 (2008); State v. Ackward, 281 Kan.
2, 8, 128 P.3d 382 (2006).
D. Defendant’s Arguments
Appleby argues his requests for an attorney were clear
and sufficient to require the Kansas detectives to refrain
from questioning him until his requests were honored or
until he had initiated contact with them. Appleby contends
that his statements to the Kansas detectives, therefore,
should have been suppressed. To support his argument,

105a
Appendix E
he (1) cites a Montana case holding that law enforcement
officers and, in turn, courts must broadly interpret
any reference to an attorney by a suspect; (2) cites an
Oregon decision to suppress a suspect’s statements under
circumstances Appleby argues are factually similar to this
case; and (3) argues the trial court’s reasoning imposes
too exacting a standard, essentially requiring the suspect
to use the specific words of “I want an attorney to assist
me with your purposed custodial interrogation,” and that
his statements to Detective Jewiss were sufficiently clear
to invoke his Fifth Amendment right to counsel.
In making these arguments, Appleby groups together
all of the instances where he referred to an attorney
during the book-in process. Nevertheless, as we analyze
his arguments, we recognize that one of the instances was
of a different character than the others; that was the one
made in response to the execution of the search warrant
for purposes of obtaining DNA swabs. In that instance,
Appleby clearly asked if he could talk to his attorney about
whether he could refuse to allow the swabbing. In the
three other instances, his questions were more general,
as he asked whether he would have the opportunity to talk
to an attorney. The differing nature of these questions is
important as we consider the cases cited by Appleby.
1.

Broad Interpretation

In arguing that any mention of an attorney must be
broadly interpreted, Appleby cites State v. Buck, 331
Mont. 517, 134 P.3d 53 (2006), in which the request made
for an attorney was similar to Appleby’s question about

106a
Appendix E
whether he could talk to an attorney about the DNA search
warrant. However, Buck is not cited by Appleby because of
its factual similarity but because of the court’s recognition
that law enforcement officers and courts should give broad
effect to any mention of an attorney by a suspect.
In Buck, when served with a search warrant allowing
officers to obtain fingernail scrapings, the suspect said,
“ ‘I’ll just wait and talk to a lawyer.’ ” Buck, 331 Mont. at
521, 134 P.3d 53. Yet, when given the opportunity to call
a lawyer, the suspect refused to do so. Several days later,
the suspect—who had remained in custody—was again
taken to the police station, Mirandized, and asked if he
would answer questions. He agreed and confessed. The
suspect later sought suppression of his confession, arguing
his statement that he wanted to talk to an attorney before
submitting to the fingernail scraping was an unambiguous
invocation of his Miranda rights.
In considering this argument, the Montana court
noted that in Connecticut v. Barrett, 479 U.S. 523, 529–30,
107 S.Ct. 828, 93 L.Ed.2d 920 (1987), the United States
Supreme Court observed its past decisions had “given
broad effect to requests for counsel” and that Montana had
a long-standing rule of liberally construing any mention
of an attorney by a suspect. Buck, 331 Mont. at 536–37,
134 P.3d 53. The Montana court stated:
“[N]o suspect has an affirmative obligation to
explain precisely why he or she wants legal
assistance.... [I]f there is any reasonable doubt
as to whether a suspect’s request for counsel

107a
Appendix E
is limited to only certain aspects of his or her
interaction with investigating officers, the
request must be construed as an invocation of
the right to counsel in custodial interrogation.”
Buck, 331 Mont. at 537, 134 P.3d 53.
Appleby urges our adoption of the same viewpoint.
We reject that invitation for several reasons. First, the
Montana court’s statement cannot be isolated from the
holding in the case, which followed Barrett. In Barrett, the
United States Supreme Court refused to suppress a verbal
statement made after a suspect told law enforcement
officers he would talk to them, but he would not give a
written statement before talking to his attorney. Barrett,
479 U.S. at 529–30, 107 S.Ct. 828. Considering Barrett and
factually similar cases from other states, the Montana
court concluded that Buck had not invoked his right to
the assistance of counsel for the purpose of assisting with
interrogation when he refused to submit to fingernail
scraping until he had talked to an attorney. The Montana
court stated:
“[A] suspect may seek legal assistance for only
limited purposes in his or her dealings with law
enforcement. Based upon this recognition, and
pursuant to Barrett, we hold that a suspect’s
request for counsel which is unambiguously
limited to a police procedure that does not
involve verbal inquiry, does not constitute an
invocation of the right to counsel in custodial
interrogation. Rather, a clearly limited request
is properly construed according to its plain

108a
Appendix E
meaning, assuming that the suspect fully
understands his or her right to counsel.” Buck,
331 Mont. at 536–37, 134 P.3d 53.
The same conclusion applies in this case to the one
comment made by Appleby in the context of the DNA
search warrant. Detective Jewiss testified that after
being presented with the warrant, “Mr. Appleby then
asks if he has the right to say no. He also asks if—at that
point if he can talk to his attorney about his right to say
no for that.” This statement was unambiguous and was
a request for limited assistance. Clearly, it was not a
request for the assistance of an attorney for the purpose
of assisting with the custodial interrogation. Undoubtedly,
it is because of the precedent of Barrett that Appleby does
not isolate the DNA search-warrant comment as a clear
invocation of his Fifth Amendment right to counsel and
relies on Buck only for its dicta about broadly construing
a suspect’s comments.
As to this latter point, we reject the Montana court’s
analysis because of decisions of the United States Supreme
Court decided after Barrett that are not discussed in
Buck. Significant to Appleby’s argument is Davis v.
United States, 512 U.S. 452, 114 S.Ct. 2350, 129 L.Ed.2d
362 (1994). The Davis Court noted that Barrett, 479 U.S. at
529–30, 107 S.Ct. 828, and Smith v. Illinois, 469 U.S. 91, 96
& n. 3, 105 S.Ct. 490, 83 L.Ed.2d 488 (1984), mentioned the
issue of ambiguous and equivocal requests for counsel but
had “not addressed the issue on the merits. We granted
certiorari, [citation omitted], to do so.” Davis, 512 U.S. at
456, 114 S.Ct. 2350.

109a
Appendix E
Faced squarely with the issue, the Court held that “the
suspect must unambiguously request counsel.” Davis, 512
U.S. at 459, 114 S.Ct. 2350. Stating the holding in another
way, the Court said: “We decline petitioner’s invitation
to extend Edwards and require law enforcement officers
to cease questioning immediately upon the making of an
ambiguous or equivocal reference to an attorney. [Citation
omitted.]” Davis, 512 U.S. at 459, 114 S.Ct. 2350. Further,
the Court declined to adopt a rule requiring officers to
ask clarifying questions. Davis, 512 U.S. at 461, 114 S.Ct.
2350. The Court reasoned:
“We recognize that requiring a clear assertion
of the right to counsel might disadvantage some
suspects who—because of fear, intimidation,
lack of linguistic skills, or a variety of other
reasons—will not clearly articulate their
right to counsel although they actually want
to have a lawyer present. But the primary
protection afforded suspects subject to custodial
inter rogation is the Miranda warnings
themselves. ‘[F]ull comprehension of the rights
to remain silent and request an attorney [is]
sufficient to dispel whatever coercion is inherent
in the interrogation process.’ [Citation omitted.]
A suspect who knowingly and voluntarily waives
his right to counsel after having that right
explained to him has indicated his willingness
to deal with the police unassisted.” Davis, 512
U.S. at 460–61, 114 S.Ct. 2350.

110a
Appendix E
Applying this authority, we reject Appleby’s argument
that any mention of counsel must be construed broadly.
Rather, the trial court was correct in examining whether
Appleby’s questions were unambiguous requests for the
assistance of counsel for the purpose of the interrogation.
2.

Oregon Case Law

Alternatively, Appleby argues his assertion of Fifth
Amendment rights was not ambiguous or equivocal. To
support this argument, he cites State v. Dahlen, 209
Or.App. 110, 146 P.3d 359, modified 210 Or.App. 362, 149
P.3d 1234 (2006) (remanded for further proceedings, not
new trial).
In Dahlen, the defendant was placed in a holding
cell after his arrest. Approximately 8 hours later, the
suspect knocked on his cell door to get the attention of
jailers and asked, “ ‘When can I call my attorney?’ ” 209
Or.App. at 115, 146 P.3d 359. Less than an hour later, the
suspect asked the same question. Then, 11 hours after
his arrest, officers Mirandized the suspect, the suspect
waived his rights, the officers asked questions, and the
suspect confessed.
The Oregon Court of Appeals suppressed the
confession after concluding the suspect’s question of when
he could call his attorney was unequivocal and objectively
would be understood to mean that the suspect wanted to
call his attorney as soon as possible. Dahlen, 209 Or.App.
at 117–19, 146 P.3d 359. In reaching this conclusion, the
court distinguished a decision of the Oregon Supreme

111a
Appendix E
Court, State v. Charboneau, 323 Or. 38, 54, 913 P.2d
308 (1996). In Charboneau, the suspect asked, “ ‘Will I
have an opportunity to call an attorney tonight?’ ”; the
Oregon Supreme Court held this request was equivocal
and ambiguous and did not require the suppression of the
suspect’s confession. Charboneau, 323 Or. at 52, 55–56,
913 P.2d 308.
As we compare the questions asked by the suspects
in Dahlen and Charboneau with Appleby’s repeated
questions of whether he would be able to talk to an
attorney, the Charboneau question—“Will I have an
opportunity to call an attorney tonight?”—is more similar.
The discussion in Dahlen cites dictionary definitions
and other sources to substantiate the view that asking
“when” is a more definite statement than asking “will.”
Dahlen, 209 Or.App. at 118, 146 P.3d 359. As we apply
that discussion to this case, we note that asking “will” is
essentially the same as asking “whether.” Hence, we find
the Oregon Supreme Court’s analysis of the defendant’s
question in Charboneau to be more applicable and the
analysis of the question in Dahlen to be inapposite.
Interestingly, the contrast between the two statements
and the discussion in Dahlen actually raises questions
about the trial court’s conclusion that Appleby asserted a
right to counsel even for Sixth Amendment purposes. We
need not parse that question any further, however, because
we agree with the trial court’s conclusion that Appleby’s
statements were ambiguous and not a clear invocation
of Fifth Amendment rights. As noted earlier, because of
the interplay of two investigations the potential for this

112a
Appendix E
type of ambiguity is greater in this case than the typical
scenario and, on this basis, Dahlen is distinguishable. The
potential for this ambiguity did not arise under the facts of
Dahlen and, consequently, did not need to be addressed.
Consequently, Appleby’s reliance on Dahlen is
misplaced.
3.

Fifth and Sixth Amendment Rights

Finally, disagreeing with the trial court’s conclusion
that the circumstances created ambiguity, Appleby asserts
that the potential interplay between Fifth and Sixth
Amendment rights did not need to be considered in this
case. He argues that the trial court improperly created
two tests that place too exacting a standard on a suspect’s
attempts to request the assistance of counsel. Further, he
argues a reasonable law enforcement officer would have
understood he was asserting his Fifth Amendment rights.
In response, the State contends that Appleby’s
requests for an attorney are more akin to a Sixth
Amendment invocation of the right to counsel than a Fifth
Amendment invocation of the right to counsel. It argues
Appleby’s requests could not reasonably be construed to
be requests for assistance with custodial interrogation
because he was not being interrogated at the time he
made those requests. In addition, the State asserts that
the Miranda right to counsel may not be anticipatorily
invoked.

113a
Appendix E
T he St at e’s a rg u ment s br i ng i nt o issue the
interrelationship of Fifth and Sixth Amendment rights,
which was discussed by the United States Supreme Court
in McNeil v. Wisconsin, 501 U.S. 171, 111 S.Ct. 2204, 115
L.Ed.2d 158 (1991), under circumstances similar to those
in this case—i.e., where an arrest is made in one case
and an interrogation relates to another. In McNeil, the
defendant was arrested in Omaha, Nebraska, pursuant
to a Wisconsin warrant based on charges of an armed
robbery outside Milwaukee. Milwaukee detectives went
to Omaha to retrieve McNeil. The detectives advised
McNeil of his Miranda rights and began to ask questions.
McNeil refused to answer any questions, the interview
ended, and he was taken to Wisconsin where an attorney
was appointed to represent him.
Later that day, McNeil was visited by officers from a
different Wisconsin county. The county detectives advised
McNeil of his Miranda rights, and McNeil signed a form
waiving those rights. The county detectives then asked
McNeil about charges of murder, attempted murder, and
armed robbery. McNeil denied any involvement in the
crimes. Two days later the county detectives returned
and again advised McNeil of his Miranda rights. McNeil
again waived his rights and this time confessed.
McNeil sought suppression of his statement to the
county detectives asserting a Sixth Amendment right to
counsel, but the Supreme Court determined his confession
was admissible. McNeil, 501 U.S. at 175–76, 181–82,
111 S.Ct. 2204. The ruling was based on the distinction
between McNeil’s Fifth and Sixth Amendment rights. The

114a
Appendix E
Supreme Court explained that the Sixth Amendment right
to counsel had attached in the Milwaukee case. McNeil,
501 U.S. at 175, 111 S.Ct. 2204; see Brewer v. Williams, 430
U.S. 387, 398, 97 S.Ct. 1232, 51 L.Ed.2d 424, reh. denied
431 U.S. 925, 97 S.Ct. 2200, 53 L.Ed.2d 240 (1977) (Sixth
Amendment right to counsel attaches on filing of formal
charges, indictment, or information; on arraignment; or
on arrest on warrant and arraignment thereon). But that
right, the Court explained, is offense specific and cannot
be invoked once for all future prosecutions. McNeil, 501
U.S. at 175, 111 S.Ct. 2204. As a result, “ ‘[i]ncriminating
statements pertaining to other crimes, as to which the
Sixth Amendment right has not yet attached, are, of
course, admissible at the trial of those offenses.’ [Citation
omitted.]” McNeil, 501 U.S. at 176, 111 S.Ct. 2204.
A similar dividing line is not drawn, however, when
the Fifth Amendment right to counsel—which is protected
by Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16
L.Ed.2d 694, reh. denied 385 U.S. 890, 87 S.Ct. 11, 17
L.Ed.2d 121 (1966)—is invoked (which McNeil did not do
in arguing his appeal). In other words, Fifth Amendment
rights are not offense specific. See Arizona v. Roberson,
486 U.S. 675, 108 S.Ct. 2093, 100 L.Ed.2d 704 (1988). Thus,
the McNeil Court noted that “[o]nce a suspect invokes
the Miranda right to counsel for interrogation regarding
one offense, he may not be reapproached regarding any
offense unless counsel is present. [Citation omitted.]”
(Emphasis added.) McNeil, 501 U.S. at 177, 111 S.Ct. 2204.
Further, Edwards v. Arizona, 451 U.S. 477, 484–85, 101
S.Ct. 1880, 68 L.Ed.2d 378, reh. denied 452 U.S. 973, 101
S.Ct. 3128, 69 L.Ed.2d 984 (1981),

115a
Appendix E
“established a second layer of prophylaxis
for the Miranda right to counsel: Once a
suspect asserts the right, not only must the
current interrogation cease, but he may not
be approached for further interrogation ‘until
counsel has been made available to him,’
[Edwards ], 451 U.S. at 484–485[, 101 S.Ct.
1880],—which means, we have most recently
held, that counsel must be present, Minnick
v. Mississippi, 498 U.S. 146[, 112 L.Ed.2d
489, 111 S.Ct. 486] (1990). If the police do
subsequently initiate an encounter in the
absence of counsel (assuming there has been
no break in custody), the suspect’s statements
are presumed involuntary and therefore
inadmissible as substantive evidence at trial,
even where the suspect executes a waiver and
his statements would be considered voluntary
under traditional standards. This is ‘designed
to prevent police from badgering a defendant
into waiving his previously asserted Miranda
rights,’ Michigan v. Harvey, 494 U.S. 344,
350[, 108 L.Ed.2d 293, 110 S.Ct. 1176] (1990).”
McNeil, 501 U.S. at 176–77, 111 S.Ct. 2204.
See also State v. Morris, 255 Kan. 964, 976–79, 880
P.2d 1244 (1994) (discussing McNeil).
Recently, in Montejo v. Louisiana, 556 U.S. 778,
129 S.Ct. 2079, 173 L.Ed.2d 955 (2009), the Supreme
Court reaffirmed this Fifth Amendment jurisprudence,
concluding the three layers of protection—Miranda,
Edwards, and Minnick—are sufficient. Montejo, 556

116a
Appendix E
U.S. at ––––, 129 S.Ct. at 2089, 173 L.Ed.2d at 968.
However, the Montejo Court modified some aspects
of its Sixth Amendment jurisprudence. Specifically, it
overruled Michigan v. Jackson, 475 U.S. 625, 106 S.Ct.
1404, 89 L.Ed.2d 631 (1986), because of that decision’s
“ ‘wholesale importation of the Edwards rule into the Sixth
Amendment.’ ” Montejo, 556 U.S. at ––––, 129 S.Ct. at
2085, 173 L.Ed.2d at 964; 556 U.S. at ––––, 129 S.Ct. at
2091, 173 L.Ed.2d at 970 (overruling Jackson ).
However, except to separate the exclusionary rule
that would apply under the Sixth Amendment from that
which applies when Fifth Amendment rights are violated,
the Montejo Court did not modify McNeil’s dividing lines
between Fifth and Sixth Amendment analysis, even
though much of that analysis was based on Jackson, which
the Montejo Court overruled. In particular, the Montejo
Court did not alter the McNeil requirement that, even if
Sixth Amendment rights have been invoked, a defendant
must affirmatively assert Fifth Amendment rights if
subjected to a custodial interrogation in another case.
See Montejo, 556 U.S. at ––––, 129 S.Ct. at 2089–92, 173
L.Ed.2d at 968–70 As a result, if Appleby asserted Sixth
Amendment rights, as the State suggests, the assertion
was effective only in the Connecticut case.
Moreover, a Sixth Amendment assertion is not an
assertion of the right to counsel during an interrogation—
the right protected by the Fifth Amendment. The McNeil
Court explained: “To invoke the Sixth Amendment
interest is, as a matter of fact, not to invoke the Miranda–
Edwards interest. One might be quite willing to speak
to the police without counsel present concerning many

117a
Appendix E
matters, but not the matter under prosecution.” McNeil,
501 U.S. at 178, 111 S.Ct. 2204; see Rhode Island v. Innis,
446 U.S. 291, 300, 100 S.Ct. 1682, 64 L.Ed.2d 297 (1980)
(Miranda’s safeguards and procedural protection of Fifth
Amendment rights “are required not where a suspect is
simply taken into custody, but rather where a suspect in
custody is subjected to interrogation.”).
Because the accused’s purpose in requesting an
attorney must be determined in order to sort the interplay
of these rights, the McNeil Court concluded that an
effective invocation of the Fifth Amendment right to
counsel
“applies only when the suspect ‘ha[s] expressed’
his wish for the particular sort of lawyerly
assistance that is the subject of Miranda.
[Citation omitted.] It requires, at a minimum,
some statement that can reasonably be
construed to be an expression of a desire for
the assistance of an attorney in dealing with
custodial interrogation by the police.” McNeil,
501 U.S. at 178, 111 S.Ct. 2204.
See State v. Walker, 276 Kan. 939, 945, 80 P.3d 1132
(2003) (recognizing two aspects to assertion of Fifth
Amendment rights: [1] a reasonable police officer in the
circumstances would understand request was made for
an attorney and [2] the request was for assistance with
a custodial interrogation, not for subsequent hearings or
proceedings).

118a
Appendix E
The Montejo Court reiterated this analysis and
provided some guidance in making the determination of
whether a request is for an attorney’s assistance with a
custodial interrogation. It stated:
“ ‘We have in fact never held that a person can
invoke his Miranda rights anticipatorily, in a
context other than “custodial interrogation”....’
McNeil, supra [501 U.S.] at 182, n. 3, 111
S.Ct. 2204, 115 L.Ed.2d 158. What matters
for Miranda and Edwards is what happens
wh en th e d efen d ant is ap p roa ch ed fo r
interrogation,and (if he consents) what happens
during the interrogation....” (Emphasis added.)
Montejo, 556 U.S. at ––––, 129 S.Ct. at 2080,
173 L.Ed.2d at 970.
Even before the Montejo decision, the State in its brief
in this case focused on McNeil’s statement and argued
that Appleby could not anticipatorily assert his Fifth
Amendment right. This view is supported by a majority of
federal and state courts that have relied on the language
in McNeil to hold that one cannot anticipatorily invoke the
right to counsel prior to any custodial interrogation. See,
e.g., United States v. Grimes, 142 F.3d 1342, 1347–48 (11th
Cir.1998), cert. denied 525 U.S. 1088, 119 S.Ct. 840, 142
L.Ed.2d 695 (1999); United States v. LaGrone, 43 F.3d
332, 337–38 (7th Cir.1994); United States v. Thompson,
35 F.3d 100, 103–04 (2d Cir.1994); Alston v. Redman, 34
F.3d 1237, 1246 (3d Cir.1994), cert. denied 513 U.S. 1160,
115 S.Ct. 1122, 130 L.Ed.2d 1085 (1995); United States v.
Wright, 962 F.2d 953, 955 (9th Cir.1992); United States

119a
Appendix E
v. Kelsey, 951 F.2d 1196, 1198–99 (10th Cir.1991); People
v. Nguyen, 132 Cal.App.4th 350, 357, 33 Cal.Rptr.3d 390
(2005); Pardon v. State, 930 So.2d 700, 703–04 (Fla.App.
4 Dist.), rev. denied 944 So.2d 346 (Fla.2006); People v.
Villalobos, 193 Ill.2d 229, 240–42, 250 Ill.Dec. 17, 737
N.E.2d 639 (2000); Sauerheber v. State, 698 N.E.2d 796,
802 (Ind.1998); Costley v. State, 175 Md.App. 90, 110–12,
926 A.2d 769 (2007); State v. Aubuchont, 147 N.H. 142,
149–50, 784 A.2d 1170 (2001); State v. Warness, 77 Wash.
App. 636, 640–41, 893 P.2d 665 (1995).
Some courts have been liberal in determining the
temporal range in which interrogation could be considered
“imminent.” E.g., Kelsey, 951 F.2d at 1198–99 (defendant,
who asked three or four times to see his lawyer while in
custody during search of home, had reasonable belief that
interrogation was imminent or impending, making request
for counsel effective invocation of Fifth Amendment
Miranda right to counsel).
Other courts have been very restrictive in defining
“imminent,” allowing no intervening activity between
the invocation of the right and the planned initiation of
questioning. E.g., Nguyen, 132 Cal.App.4th at 357, 33 Cal.
Rptr.3d 390 (suspect did not invoke Miranda’s protections
by attempting to call attorney during arrest); Pardon,
930 So.2d at 703–04 (interrogation of suspect was not
imminent; he was merely being booked into detention,
albeit on same charge on which he was later questioned);
Sauerheber, 698 N.E.2d at 802 (McNeil “strongly suggests
that the rights under Miranda and Edwards do not extend
to permit anticipatory requests for counsel to preclude

120a
Appendix E
waiver at the time interrogation begins”; assertion of
right when not being questioned ineffective even if in
custody); Costley, 175 Md.App. at 111, 926 A.2d 769
(McNeil “ suggests that custody, absent interrogation, is
insufficient.”).
Similarly, in a case cited by the trial court—
Aubuchont, 147 N.H. 142, 784 A.2d 1170—the court
refused to suppress a statement simply because a suspect,
while being arrested, yelled at his wife to call an attorney.
The New Hampshire Supreme Court noted: “[T]he timing
of the defendant’s request controls whether he invoked his
Miranda rights. The purpose of the defendant’s request
was ambiguous, because he made his request before
he was subject to interrogation or under the threat of
imminent interrogation.” Aubuchont, 147 N.H. at 149, 784
A.2d 1170. As a result, the court concluded: “[I]t is unclear
whether the defendant simply wished to seek advice from
his attorney or whether he wished to obtain assistance of
counsel for some future interrogation.” Aubuchont, 147
N.H. at 149–50, 784 A.2d 1170.
This restrictive view is supported by the statements
in Montejo that the Court had “ ‘in fact never held that a
person can invoke his Miranda rights anticipatorily, in
a context other than “custodial interrogation ” ’ ” and
“[w]hat matters for Miranda and Edwards is what happens
when the defendant is approached for interrogation.”
(Emphasis added.) Montejo, 556U.S. at ––––, 129 S.Ct.
at 2091, 173 L.Ed.2d at 970.

121a
Appendix E
Yet the Court did not clearly explain what was meant
by the context of a custodial interrogation or a context
other than a custodial interrogation, and the facts of
Montejo are very different from those in this case and
therefore do not help to explain the meaning as it would be
applied in this case. As in McNeil, the focus in Montejo was
whether there had been an assertion of Sixth Amendment
rights that prevented further interrogation. In fact, upon
his arrest, Montejo waived his Miranda rights and gave
police various versions of events related to the crime. A few
days later at a preliminary hearing, known in Louisiana
as a “72–hour hearing,” counsel was appointed for Montejo
even though he had not requested the appointment and had
stood mute when asked if he wanted the assistance of an
attorney. Later that same day, police approached Montejo,
Mirandized him again, and asked him to accompany them
to locate the murder weapon. During the drive, Montejo
wrote an inculpatory letter of apology to the victim’s
widow. After the drive, Montejo met his attorney for the
first time. At trial, he objected to the admission of the
letter, basing his objection on Jackson, 475 U.S. 625, 106
S.Ct. 1404, 89 L.Ed.2d 631. The Supreme Court held that
the letter need not be suppressed based on an objection
under Jackson, which it overruled. The Court concluded
Montejo had not asserted his Sixth Amendment right
to counsel. Yet, the Court concluded the case should be
remanded to allow Montejo to assert an objection under
Edwards, 451 U.S. 477, 101 S.Ct. 1880, 68 L.Ed.2d 378, in
other words, a Fifth Amendment objection. In discussing
the Fifth Amendment right, the Court stressed that the
Edwards rule was meant to prevent police from badgering
defendants into changing their minds about the right to

122a
Appendix E
counsel once they had invoked it. Montejo, 556 U.S. at
– – – –, 129 S.Ct. at 2080, 173 L.Ed.2d at 959. The
Court made no attempt to suggest how these various
Fifth Amendment principles would apply to Montejo’s
circumstances.
Here, Appleby does not assert that a Sixth Amendment
right to counsel requires the suppression of his confession.
Nor did the trial court suppress on that basis. The
trial court merely pointed to the possibility of a Sixth
Amendment assertion in another case—or perhaps
even the Kansas case—as a circumstance that caused
Appleby’s assertion to be ambiguous. He relies on a Fifth
Amendment right to counsel and suggests his questions
during the book-in process asserted that right. This
argument brings us to the State’s position that the right
was not effectively asserted because Appleby was not in
the interrogation room.
Recently, in a pre-Montejo case, the Wisconsin
Supreme Court examined what the Supreme Court
might have meant by its statement in McNeil that Fifth
Amendment rights could not be asserted in a “context
other than ‘custodial interrogation’....” McNeil, 501 U.S.
at 182 n. 3, 111 S.Ct. 2204 (language quoted in Montejo,
556 U.S. at ––––, 129 S.Ct. at 2091, 173 L.Ed.2d at 970).
In State v. Hambly, 307 Wis.2d 98, 745 N.W.2d 48 (2008),
the Wisconsin court noted a tension between statements
in various decisions of the United States Supreme Court.
Specifically, the Hambly court attempted to reconcile the
above-stated McNeil language with the Miranda Court’s
statement that “a pre-interrogation request for a lawyer

123a
Appendix E
... affirmatively secures [the] right to have one.” Miranda,
384 U.S. at 470, 86 S.Ct. 1602. In doing so, the Wisconsin
court noted the Miranda Court did not specifically
address what is meant by a “pre-interrogation request” for
counsel during custody and did not address at what point
prior to custodial interrogation a suspect may effectively
invoke the Fifth Amendment Miranda right to counsel.
Likewise, the McNeil Court did not address the question
of whether the “ ‘context’ ” of a custodial interrogation
could cover circumstances before an actual interrogation
begins. Hambly, 307 Wis.2d at 111, 745 N.W.2d 48.
In light of that tension, the Hambly court felt it
important to also consider the McNeil Court’s recognition
that, under Edwards, an effective invocation of the Fifth
Amendment Miranda right to counsel “ ‘requires, at
a minimum, some statement that can reasonably be
construed to be an expression of a desire for the assistance
of an attorney in dealing with custodial interrogation by
the police.’ ” Hambly, 307 Wis.2d at 112, 745 N.W.2d 48
(quoting McNeil, 501 U.S. at 178, 111 S.Ct. 2204). With
this in mind, the Hambly court concluded the timing of
the request for counsel may help determine whether the
request is for the assistance of an attorney in dealing with a
custodial interrogation by the police. Hambly, 307 Wis.2d
at 112, 745 N.W.2d 48. While the Hambly court rejected
the notion that a request for counsel can never be effective
if made prior to interrogation, it concluded that the United
States Supreme Court’s case law recognizes that a suspect
in custody may request counsel and effectively invoke the
“Miranda right to counsel when faced with ‘impending
interrogation’ or when interrogation is ‘imminent’ and the

124a
Appendix E
request for counsel is for the assistance of counsel during
interrogation.” Hambly, 307 Wis.2d at 114–15, 745 N.W.2d
48; see also 2 LaFave, Israel, King & Kerr, Criminal
Procedure § 6.9(g), p. 869 n. 200 (3d ed.2007) (citing
cases for proposition that Miranda right to counsel may
be validly asserted only when authorities are conducting
custodial interrogation or such interrogation is imminent
and request for counsel is for assistance of counsel during
interrogation).
E. Imminent Questioning/Equivocal Assertion
This approach is similar to that followed by the trial
court in this case and in past decisions of this court where
the context of a statement regarding an attorney has been
analyzed to view whether an objective law enforcement
officer would understand there had been an invocation
of Fifth Amendment rights. For example, in State v.
Gant, 288 Kan. 76, 201 P.3d 673 (2009), when considering
facts very similar to those in Aubuchont, 147 N.H. 142,
784 A.2d 1170—the case cited by the trial court—this
court recently held a defendant did not assert his Fifth
Amendment rights when he yelled to his companions while
being arrested that they should call a lawyer. Although
we did not consider the question of whether interrogation
must be imminent, we did conclude the factual context
revealed the defendant was directing his comments
toward his companions, not police, and was not clearly
and unambiguously asserting his right to counsel. Gant,
288 Kan. at 81, 201 P.3d 673; see Walker, 276 Kan. at 945,
80 P.3d 1132; Morris, 255 Kan. at 976–81, 880 P.2d 1244.

125a
Appendix E
Now, we explicitly recognize what was implicit in many
of our prior decisions: The timing as well as the content
and context of a reference to counsel may help determine
whether there has been an unambiguous assertion of the
right to have the assistance of an attorney in dealing with
a custodial interrogation by law enforcement officers.
This is the approach adopted by the trial court. In
reaching the conclusion that the context in this case created
ambiguity, the trial court made several findings that are
supported by substantial competent evidence. Specifically,
the trial court found that Appleby was aware he was
being arrested by Connecticut authorities and was being
charged for crimes committed in Connecticut. Further,
Appleby had not been subjected to interrogation at that
point in time about anything, in either the Connecticut or
the Kansas case, and no one had indicated to him that his
arrest was in any way connected the murder of A.K. See
Pennsylvania v. Muniz, 496 U.S. 582, 601, 110 S.Ct. 2638,
110 L.Ed.2d 528 (1990) (recognizing “ ‘routine booking
question’ exception which exempts from Miranda’s
coverage questions to secure the ‘ “biographical data
necessary to complete booking or pretrial services.” ’ ”
Moreover, Detective Jewiss had informed Appleby that he
would not be questioning him and that someone else would
be talking to him about “the case.” At that point in time,
Appleby only knew of the Connecticut case. Hence, when
Appleby asked whether he would have a chance to talk to
an attorney, he knew he was not going to be questioned
by Detective Jewiss. At that point in time, interrogation
was clearly not imminent or impending.

126a
Appendix E
It was not until minutes before the custodial
interrogation with the Kansas detectives that Appleby was
asked by Detective Jewiss if he would talk to some people
about an unrelated matter. The trial court concluded that
at that time: “Appleby undoubtedly believed that matter
to be the [A.K.] murder investigation.” Yet Appleby
agreed without hesitation to speak to the detectives.
Then Appleby was given his Miranda rights, which he
clearly waived. He never asked about an attorney again.
Thus, when questioning was imminent—when Appleby
was approached for interrogation—he clearly waived his
right to counsel.
We agree with the conclusion reached by the trial
court that Appleby’s references to an attorney during
the book-in process on the Connecticut charges did not
constitute a clear and unambiguous assertion of his Fifth
Amendment right as protected by Miranda. The trial
court did not err in denying Appleby’s motion to suppress
his custodial statements made to the Kansas detectives.
ISSUE 3. POPULATION STATISTICS
RELATED TO DNA TESTING
Next, Appleby contends the trial court erred by
admitting into evidence a computer-generated report
regarding population statistics as they relate to DNA
testing. Specifically, he argues his confrontation rights
under the Sixth Amendment to the United States
Constitution were violated as those rights were defined in
Crawford v. Washington, 541 U.S. 36, 68, 124 S.Ct. 1354,
158 L.Ed.2d 177 (2004).

127a
Appendix E
The trial court admitted the testimony of Dana
Soderholm, formerly a forensic scientist for the Johnson
County Crime Laboratory —now with the Kansas Bureau
of Investigation (KBI) Kansas City Regional Laboratory—
who used the Polymerase Chain Reaction–Short Tandem
Repeat (PCR–STR) DNA analysis to test various items
containing mixtures of blood, and Lisa Dowler, a Kansas
City Crime Laboratory forensic chemist, who ran DNA
tests on A.K.’s sports bra. These experts were permitted
to testify regarding the DNA statistical population data
that was generated when they compared, via a computer
software program, their tested DNA profiles with
databases of DNA profiles. Dowler and the Kansas City
laboratory where she is employed use a regional database.
Soderholm and the Johnson County laboratory where she
was employed use the Federal Bureau of Investigation’s
(FBI) national DNA database known as the Combined
DNA Indexing System (CODIS); the Johnson County
laboratory is certified by the FBI to use the database. As
Soderholm explained, when a DNA profile from a crime
matches the DNA profile from a suspect, a statistical
analysis is performed to determine how rare or common
that particular DNA profile is in the general population.
Soderholm testified:
“There is a software called Pop–Stats that is
given to the labs by the CODIS group, and that
is the information that we use. It is software
that is already built in, and you do not get into
the frequencies. You don’t change any of that.
You type in your alleles and the information is
then calculated within the computer, and then
you print it out.

128a
Appendix E
....
“... The normal procedure is if you have an
inclusion, that you use Pop–Stats to generate
your statistics.”
For example, with regard to the blood on the ointment
tube, Soderholm testified that it was consistent with
Appleby’s and the “probability of selecting an unrelated
individual at random from the population whose DNA
would match that DNA profile from the tube was 1 in
14.44 billion.” And with regard to one of the blood stains
from the sports bra, Dowler’s testimony indicated that
the chances of randomly selecting someone else in the
population other than Appleby whose DNA would match
the male DNA profile from the bra was “1 in 2 quadrillion.”
Appleby filed a motion to exclude the State’s DNA
evidence, arguing,inter alia , that evidence of the
application and use of population frequency databases by
any witness who is not an expert in that field would violate
his right of confrontation. After conducting a hearing, the
trial court found that the use of DNA population databases
did not present a Crawford issue because those databases
are not, in and of themselves, testimonial in nature.
The trial court relied on State v. Lackey, 280 Kan.
190, Syl. ¶ 5, 120 P.3d 332 (2005), cert. denied 547 U.S.
1056, 126 S.Ct. 1653, 164 L.Ed.2d 399 (2006), overruled
on other grounds State v. Davis, 283 Kan. 569, 158 P.3d
317 (2006), where this court concluded that “[f]actual,
routine, descriptive, and nonanalytical findings made in
an autopsy report are nontestimonial” and, therefore,

129a
Appendix E
“may be admitted without the testimony of the medical
examiner” who performed the autopsy. The trial court
found:
“The CODIS database simply represents a
compilation of DNA information obtained
over an extended time period from a large
population sample, along with the ability to
easily compare any sample with those already
compiled. The CODIS database provides
routine, descriptive information that, under
Crawford, is nontestimonial, at least when
presented through the testimony of a qualified
DNA expert.”
Disputing this conclusion, Appleby takes issue
with the fact that Soderholm admitted during recrossexamination that she did not know who provided the
samples for the frequencies or how the databases were
made. And although Soderholm had undergone some
training regarding CODIS and population genetics, she
was admittedly not a statistician.
Appleby, therefore, contends that he had the right to
confront a statistician to explain the statistical principles
used in the calculations. And he argues that he was denied
any opportunity to cross-examine the FBI’s random match
probability estimates because the witnesses presented at
trial did not prepare the database and had no personal
knowledge of the methods and procedures the FBI used
to compute the statistical estimates or the set of data upon
which the calculations were based.

130a
Appendix E
A. Standard of Review
Appleby’s argument is subject to a de novo standard
of review because he challenges the legal basis of the
trial court’s admission of evidence, specifically that the
evidence was admitted in violation of the Confrontation
Clause of the Sixth Amendment to the United States
Constitution. State v. Reid, 286 Kan. 494, 503, 186 P.3d 713
(2008) (de novo standard applies to review of legal basis of
admission of evidence); State v. Henderson, 284 Kan. 267,
Syl. ¶ 2, 160 P.3d 776 (2007) (de novo standard applies to
determination of whether the right to confrontation has
been violated).
B. Testimonial
The starting point for Appleby’s Sixth Amendment
Confrontation Clause objection is the United States
Supreme Court’s holding in Crawford that the “testimonial
statements” of witnesses absent from trial are admissible
over a Confrontation Clause objection only when the
declarant is unavailable and the defendant has had a prior
opportunity to cross-examine the declarant. Crawford,
541 U.S. at 68, 124 S.Ct. 1354. This analysis altered
the prior rule of Ohio v. Roberts, 448 U.S. 56, 100 S.Ct.
2531, 65 L.Ed.2d 597 (1980), abrogated in Crawford, 541
U.S. 36, 124 S.Ct. 1354, 158 L.Ed.2d 177, under which
a hearsay statement made by an unavailable witness
could be admitted without violating the Confrontation
Clause if the statement contained adequate guarantees
of trustworthiness or indicia of reliability. Roberts, 448
U.S. at 66, 100 S.Ct. 2531. Post-Crawford, the threshold
question in any Confrontation Clause analysis is whether

131a
Appendix E
the hearsay statement at issue is testimonial in nature.
State v. Brown, 285 Kan. 261, 285, 173 P.3d 612 (2007).
The Supreme Court did not explicitly define the term
“testimonial” in Crawford. The Court did state, however,
that “[w]hatever else the term covers, it applies at a
minimum to prior testimony at a preliminary hearing,
before a grand jury, or at a former trial; and to police
interrogations.” Crawford, 541 U.S. at 68, 124 S.Ct. 1354;
see also Davis v. Washington, 547 U.S. 813, 822, 126
S.Ct. 2266, 165 L.Ed.2d 224 (2006) (in context of police
interrogations, statements are nontestimonial when
made under circumstances objectively indicating that the
primary purpose of the interrogation is to enable police
assistance to meet an ongoing emergency).
Recently, in Melendez–Diaz v. Massachusetts, 557
U.S. ––––, 129 S.Ct. 2527, 174 L.Ed.2d 314, 321–22,
332–33 (2009), the second of the cases that led us to
stay this opinion pending a United States Supreme
Court decision, the Supreme Court held that forensic
laboratory certificates of analysis were testimonial and
the admission of the certificates without the testimony
of the analysts violated a criminal defendant’s rights
under the Confrontation Clause of the Sixth Amendment.
In reaching the conclusion that the certificates were
testimonial, the Supreme Court focused on two factors,
stating: (1) “The ‘certificates’ are functionally identical to
live, in-court testimony, doing ‘precisely what a witness
does on direct examination.’ [Citation omitted]”; and (2)
“the affidavits [were] ‘ “made under circumstances which
would lead an objective witness reasonably to believe

132a
Appendix E
that the statement would be available for use at a later
trial.”’ [Citation omitted.]” Melendez–Diaz, ––– U.S. at
––––, 129 S.Ct. at 2531, 174 L.Ed.2d at 321; cf. Brown, 285
Kan. at 291, 173 P.3d 612 (listing these and other factors
to consider in determining if an eyewitness’ statement is
testimonial).
After finding the laboratory analysts’ certificates met
these tests to define testimonial hearsay, the Melendez–
Diaz Court rejected the argument that a different result
was justified by the objectivity of the scientific testing and
reliability of the test results. The Melendez–Diaz majority,
discussing this topic in the context of responding to points
made by the four dissenting justices, observed:
“This argument is little more than an invitation
to return to our overruled decision in Roberts,
448 U.S. 56, 100 S.Ct. 2531, 65 L.Ed.2d 597,
which held that evidence with ‘particularized
guarantees of trustworthiness’ was admissible
notwithstanding the Confrontation Clause.
[Roberts, 448 U.S.] at 66[, 100 S.Ct. 2531][ ].
What we said in Crawford in response to that
argument remains true:
“‘To be sure, the Clause’s ultimate goal
is to ensure reliability of evidence, but it
is a procedural rather than a substantive
guarantee. It commands, not that evidence be
reliable, but that reliability be assessed in a
particular manner: by testing in the crucible
of cross-examination.... Dispensing w ith

133a
Appendix E
confrontation because testimony is obviously
reliable is akin to dispensing with jury trial
because a defendant is obviously guilty. This
is not what the Sixth Amendment prescribes.’
[Crawford,] 541 U.S. at 61–62 [, 124 S.Ct. 1354]
[ ].” Melendez–Diaz, [––– U.S. at ––––, 129
S.Ct. at 2535–37,] 174 L.Ed.2d at 325–26.
This discussion is particularly relevant in this case
because the State argues the scientific, objective nature
of the DNA testing and the statistical probability program
means the evidence at issue in this case is nontestimonial.
The trial court accepted this argument and partially
based its decision on such a rationale, as evidenced by the
trial court’s reliance on and citation to Lackey, 280 Kan.
190, Syl. ¶ 5, 120 P.3d 332, which in turn was partially
based on the rationale that an autopsy report recorded
objective, scientific evidence. Melendez–Diaz undercuts
this rationale.
Nevertheless, Melendez–Diaz does not answer the
question of whether there was a Confrontation Clause
violation in this case. Here, unlike in Melendez–Diaz, the
laboratory analysts who performed the DNA testing were
in court and subject to cross-examination. The hearsay
at issue is the data that was relied on by laboratory
analyst Soderholm in reaching her opinion regarding
population frequency of specific DNA profiles. The
closest the Melendez–Diaz Court came to answering this
question was to rebut the dissenting justices’ argument
that the holding would require several individuals from
a laboratory to testify. The Court stated:

134a
Appendix E
“[W]e do not hold, and it is not the case, that
anyone whose testimony may be relevant in
establishing the chain of custody, authenticity
of the sample, or accuracy of the testing
device, must appear in person as part of the
prosecution’s case.... [D]ocuments prepared in
the regular course of equipment maintenance
may well qualify as nontestimonial records.”
Melendez–Diaz, –––U.S. at ––––, 129 S.Ct. at
2532 n. 1, 174 L.Ed.2d at 322 n. 1.
While this statement suggests that not all aspects of
the testing process are testimonial and therefore subject
to a defendant’s rights under the Confrontation Clause, the
examples differ from the question of whether the data that
underlies an expert’s opinion is testimonial. Therefore, the
decision does not directly answer our question.
Nevertheless, applying the tests utilized in Melendez–
Diaz, we conclude the population frequency data and the
statistical programs used to make that data meaningful
are nontestimonial. We first note that DNA itself is physical
evidence and is nontestimonial. Wilson v. Collins, 517 F.3d
421, 431 (6th Cir.2008); United States v. Zimmerman,
514 F.3d 851, 855 (9th Cir.2007); see also Schmerber v.
California, 384 U.S. 757, 765, 86 S.Ct. 1826, 16 L.Ed.2d
908 (1966) (holding that “blood test evidence, although
an incriminating product of compulsion, [is] neither ...
testimony nor evidence relating to some communicative
act or writing” and is therefore not protected by the Fifth
Amendment).

135a
Appendix E
Placing this physical evidence in a database with other
physical evidence—i.e., other DNA profiles—does not
convert the nature of the evidence, even if the purpose of
pooling the profiles is to allow comparisons that identify
criminals. See 42 U.S.C. §§ 14132(b)(3), 14135e (2006)
(stating purposes of CODIS and clearly recognizing use
during trial when rules of evidence allow). The database
is comprised of physical, nontestimonial evidence.
Further, the acts of writing computer programs that
allow a comparison of samples of physical evidence or that
calculate probabilities of a particular sample occurring in
a defined population are nontestimonial actions. In other
words, neither the database nor the statistical program
are functionally identical to live, in-court testimony, doing
what a witness does on direct examination. Rather, it is the
expert’s opinion, which is subjected to cross-examination,
that is testimonial.
At least one other court has reached the same
conclusion that the statistical data obtained from CODIS
is nontestimonial. See State v. Bruce, 2008 WL 4801648
(Ohio App.2008) (unpublished opinion). More generally,
several courts have reasoned that the Confrontation
Clause is not violated if materials that form the basis
of an expert’s opinion are not submitted for the truth of
their contents but are examined to assess the weight of
the expert’s opinion. E.g., United States v. Lombardozzi,
491 F.3d 61, 73 (2d Cir.2007); United States v. Henry, 472
F.3d 910, 914 (D.C.Cir.2007); United States v. Adams,
189 Fed.Appx. 120, 124, 2006 WL 1888737 (3d Cir.2006)
(unpublished opinion); United States v. Stone, 222 F.R.D.
334, 339 (E.D.Tenn.2004); People v. Sisneros, 174 Cal.

136a
Appendix E
App.4th 142, 153–54, 94 Cal.Rptr.3d 98 (2009); State
v. Lewis, 235 S.W.3d 136, 151 (Tenn.2007); see Note,
Testimonial Hearsay as the Basis for Expert Opinion:
The Intersection of the Confrontation Clause and Federal
Rule of Evidence 703 after Crawford v. Washington, 55
Hastings L.J. 1539, 1540 (2004).
Here, as explained in the testimony in this case, the
database and the statistical program are accepted sources
of information generally relied on by DNA experts. Based
on this scientific data—which by itself is nontestimonial—
the experts in this case developed their personal opinions.
See State v. Dykes, 252 Kan. 556, 562, 847 P.2d 1214
(1993). These experts were available for cross-examination
and their opinions could be tested by inquiry into their
knowledge or lack of knowledge regarding the data that
formed the basis for their opinion. Consequently, the right
to confront the witnesses was made available to Appleby.
The trial court did not err in admitting the opinions
of the DNA experts.
ISSUE 4. JURY INSTRUCTION ON
PREMEDITATION
Appleby next contends that the trial court’s instruction
defining “premeditation,” to which Appleby objected at
trial, unfairly emphasized the State’s theory and violated
his right to a fair trial.

137a
Appendix E
A. Standard of Review
When a party has objected to an instruction at trial,
the instruction will be examined on appeal to determine
if it properly and fairly states the law as applied to the
facts of the case and could not have reasonably misled the
jury. In making this determination an appellate court is
required to consider the instructions as a whole and not
isolate any one instruction. State v. Scott, 286 Kan. 54, 75,
183 P.3d 801 (2008); State v. Edgar, 281 Kan. 47, 54, 127
P.3d 1016 (2006).
B. Instruction and Arguments
The premeditation instruction given in this case
tracks substantially with the pattern instruction defining
premeditation, PIK Crim.3d 56.04(b). However, it contains
some additional language, and it is this additional
language to which Appleby objects. The instruction,
with the language added to the PIK instruction in italics,
stated:
“Premeditation means to have thought the
matter over beforehand. In other words, to
have formed the design or intent to kill before
the killing. Stated another way, premeditation
is the process of thinking about a proposed
killing before engaging in the act that kills
another person, but premeditation doesn’t
have to be present before a fight, quarrel, or
struggle begins. There is no specific time period
required for premeditation, but it does require

138a
Appendix E
more that the instantaneous, intentional act of
taking another person’s life. Premeditation
can occur at any time during a violent episode
that ultimately causes the victim’s death.”
(Emphasis added.)
Appleby concedes in his appellate brief that the
additional statements in the trial court’s definition of
premeditation are correct statements of law. See State
v. Gunby, 282 Kan. 39, Syl. ¶ 9, 144 P.3d 647 (2006) (
“Premeditation is the process of thinking about a proposed
killing before engaging in the homicidal conduct, but it
does not have to be present before a fight, quarrel, or
struggle begins. Death by manual strangulation can be
strong evidence of premeditation.”); State v. Scott, 271
Kan. 103, 108, 21 P.3d 516, cert. denied 534 U.S. 1047, 122
S.Ct. 630, 151 L.Ed.2d 550 (2001) (“Premeditation does
not have to be present before a fight, quarrel, or struggle
begins.”); see also State v. Jones, 279 Kan. 395, 404, 109
P.3d 1158 (2005) (citing Scott, 271 Kan. at 111, 21 P.3d
516, for the rationale that the jury could find defendant’s
“state of mind” changed from acting with intent to acting
with premeditation “at any time during the violent episode
before he caused the victim’s death, including at any time
during the strangulation.”).
In fact, the record reflects that the trial court relied
on Gunby, 282 Kan. 39, 144 P.3d 647, which was also
a strangulation case, in drafting the instruction. The
State suggests the trial judge in this case “believed his
instruction was helpful to the jury to give them additional
general rules that were not arguing one side or another
of the case.”

139a
Appendix E
As Appleby notes, however, in Gunby the additional
language was used in answering a question from the
jury, not as part of the initial instruction to the jury.
Appleby argues that including the language in the initial
instruction unduly favored the State’s theory of the case.
More fundamentally, he argues it was per se error to
deviate from the pattern instruction.
C. Deviation from Pattern Instruction
First, we address Appleby’s general argument that it
was inappropriate to deviate from a pattern instruction.
Contrary to the implication of this argument, it is not
mandatory for Kansas courts to use PIK instructions,
although it is strongly advised. State v. Mitchell, 269 Kan.
349, 355–56, 7 P.3d 1135 (2000). As this court has stated:
“The pattern jury instructions for Kansas
(PIK) have been developed by a knowledgeable
committee to bring accuracy, clarity, and
uniformity to jury instructions. They should be
the starting point in the preparation of any set
of jury instructions. If the particular facts in a
given case require modification of the applicable
pattern instruction or the addition of some
instruction not included in PIK, the trial court
should not hesitate to make such modification
or addition. However, absent such need, PIK
instructions and recommendations should be
followed.” State v. Johnson, 255 Kan. 252, Syl.
¶ 3, 874 P.2d 623 (1994).

140a
Appendix E
Hence, we find no merit to Appleby’s argument that
error occurred simply because the trial court deviated
from the pattern instruction.
D. Undue Emphasis
Second, we address Appleby’s contention that the
alteration to a PIK instruction may not single out and
give undue emphasis to particular evidence, even if it
correctly states the law. To support his argument, Appleby
advances State v. Cathey, 241 Kan. 715, 741 P.2d 738
(1987), disapproved on other grounds State v. Schoonover,
281 Kan. 453, 133 P.3d 48 (2006).
In Cathey, the jury was instructed that evidence
that a defendant had fled soon after the commission of
the alleged offense could be considered as evidence of
guilt if the jury found the defendant fled to avoid arrest
and trial. The Cathey court observed that the instruction
was a correct statement of the law; evidence to establish
the defendant’s consciousness of guilt such as flight,
concealment, fabrication of evidence, or the giving of false
information is admissible as evidence in a criminal case.
Cathey, 241 Kan. at 730, 741 P.2d 738. But the Cathey
court held it was clearly erroneous for the trial court to
instruct the jury on the defendant’s consciousness of guilt
by flight because in State v. McCorgary, 218 Kan. 358,
365, 543 P.2d 952 (1975), cert. denied 429 U.S. 867, 97
S.Ct. 177, 50 L.Ed.2d 147 (1976), the court directed that in
subsequent trials the entire instruction on consciousness
of guilt should be omitted from the instructions to the jury;
the Cathey court noted that the reason the instruction
had been disapproved is that it emphasized and singled

141a
Appendix E
out certain evidence admitted at a criminal trial. Cathey,
241 Kan. at 730–31, 741 P.2d 738.
In responding to Appleby’s reliance on Cathey, the
State makes two arguments. First, the State points out
that Cathey was distinguished in State v. Williams, 277
Kan. 338, 85 P.3d 697 (2004). Second, the State argues
Cathey can also be distinguished because the instruction
in this case merely provides a correct legal definition of
the term “premeditation” rather than instructs the jury
how to apply the evidence as did the Cathey instruction.
Regarding the first point, the State is correct—
Williams does distinguish Cathey. See Williams, 277
Kan. at 352–53, 85 P.3d 697. However, the distinction
made in Williams bolsters Appleby’s argument that
there is a difference between emphasizing a theory when
answering a question from a jury and when giving the
initial instructions.
In Williams, as in Gunby, the defendant argued
that the trial court erred in responding to the jury’s
question about premeditation. During its deliberations,
the Williams jury asked: “How long beforehand does the
thought have to occur to make it premeditation?”; the word
“beforehand” was circled. Williams, 277 Kan. at 351, 85
P.3d 697. While the court responded that no particular
amount of time was required, the jury later sought a more
detailed definition of premeditation. It asked whether
premeditation included a preconceived plan and asked
for an explanation of the relationship between intent and
premeditation. The trial court responded with a correct

142a
Appendix E
statement of law, which was taken from State v. Jamison,
269 Kan. 564, 571–72, 7 P.3d 1204 (2000).
Williams, citing Cathey, 241 Kan. at 730–31, 741
P.2d 738, argued that the trial court’s second response,
without mention of his mental defect, emphasized the
weight of the State’s evidence of premeditation and, by
the same token, deemphasized the weight of his evidence
of mental defect. The Williams court found this reliance
on Cathey to be faulty in that a response to an inquiry,
unlike an instruction, is formulated in response to the
particular question asked by the jury. A trial court’s task
in responding to an inquiry is to provide guidance with
regard to the subject of the inquiry. “If the subject of the
inquiry involves primarily the evidence of one party,”
said the Williams court, “the trial court may be hard
pressed, in drafting a helpful response, to avoid singling
out and emphasizing the weight of any party’s evidence.”
Williams, 277 Kan. at 353, 85 P.3d 697. The Williams
court concluded that the trial court appropriately gave a
response that was formulated to help the jury understand
premeditation, which had been the specific question asked
by the jury. Furthermore, the Williams court stated that
if the defendant had wanted the trial court to remind the
jury of the mental defect or disease defense, he could have
made a request to include the mental defect instruction
among those the trial court asked the jury to reread. The
Williams court held that there was no abuse of discretion.
Williams, 277 Kan. at 353, 85 P.3d 697. As Appleby notes,
however, the issue arises in this case because of the trial
court’s initial instructions, not because of an answer to a
jury question.

143a
Appendix E
The State recognizes this difference but argues the
trial court was stating the law without emphasizing one
side of the case or the other. To support this suggestion,
the State cites State v. Green, 245 Kan. 398, 781 P.2d 678
(1989), which in turn is based on State v. Beebe, 244 Kan.
48, 766 P.2d 158 (1988). The State argues these cases
suggest that the rationale of Cathey does not apply in this
case because in Cathey, the instruction told the jury how
to apply certain evidence in assessing the defendant’s guilt
or innocence and in this case—as in Green and Beebe—
the instruction merely provided the legal definition of an
element of the crime or factors to be considered. We agree
this is a valid distinction and, in this regard, find Beebe
to be the most analogous and helpful case for purposes
of our analysis.
In Beebe, the defendant, who was appealing his jury
trial convictions of first-degree murder and aggravated
kidnapping, argued the trial court erred in instructing the
jury it could infer malice, premeditation, and deliberation
from the use of a deadly weapon in the killing. The Beebe
court concluded it was error to instruct that premeditation
and deliberation could be inferred from the use of a deadly
weapon because that fact, standing alone, does not support
such an inference. Rather, a gun could be used to kill in
first-degree murder, second-degree murder, voluntary
manslaughter, or involuntary manslaughter. Beebe, 244
Kan. at 58, 766 P.2d 158.
On the other hand, the portion of the instruction
relative to the inference of malice was upheld. Unlike the
premeditation portion, the malice portion was an accurate

144a
Appendix E
statement of the law, and the Beebe court pointed out that
the instruction did not require or direct that malice be
found from the use of a deadly weapon. The court stated:
“The use of a deadly weapon is one of the evidentiary facts
from which the jury could infer malice, but we conclude
it is the better practice not to give a separate instruction
thereon.” Beebe, 244 Kan. at 60, 766 P.2d 158.
As in Beebe, the jury instruction defining premeditation
in this case contained valid statements of Kansas law.
While those statements of the law were added because of
the facts of the case, they did not direct the jury to a result.
In other words, in contrast to the instruction at issue in
Cathey—where the instruction stated that evidence of
flight could be considered as evidence of guilt—there
was no statement in the instruction at issue in this case
that evidence of a prolonged struggle or of strangulation
could be considered as evidence of premeditation. Rather,
the added language explained the law recognizing that
premeditation must be present before the homicidal
conduct but does not have to be present before a struggle
begins.
Further, Appleby fails to show that the jur y
instruction in this case misled the jury or prejudiced
him. Certainly, the instruction included an explanation
of premeditation that Appleby would like to ignore; he
would have liked the jury to have believed he had to have
premeditated the murder before he entered the pool pump
room because there was no evidence to support such a
finding, while there was direct and overwhelming evidence
of premeditation formed before A.K.’s death. A.K. suffered

145a
Appendix E
a severe beating in which she sustained numerous cuts,
bruises, and lacerations. And the back of A.K.’s head
was bashed open in two places. Blood from A.K. and
Appleby was found mixed together. There was evidence
of both manual strangulation and ligature strangulation.
According to expert testimony, it would have taken
approximately 10 minutes—and perhaps as many as 16
minutes—for Appleby to strangle A.K. There were some
periods when the force of strangulation was stopped,
causing petechial hemorrhaging. The law supports a
conclusion that under those facts there could have been
premeditation, and the instruction merely informed the
jury of that law. It did not direct them how to apply the
evidence or unduly emphasize the State’s case.
While we again emphasize that trial courts should
follow the pattern instructions whenever possible, we find
no error in the premeditation instruction given in this case.
ISSUE 5. HARD 50 SENTENCE: WEIGHING
AGGRAVATING AND MITIGATING FACTORS
Next, Appleby argues the trial court abused its
discretion in weighing the aggravating and mitigating
circumstances in determining whether to impose the hard
50 sentence. Specifically, he contends that in weighing the
circumstances, the court improperly viewed some of the
mitigating evidence as being a negative or aggravating
factor.
When reviewing the imposition of a sentence of life
imprisonment without the possibility of parole for 50

146a
Appendix E
years, an appellate court reviews the sentencing court’s
weighing of aggravating and mitigating circumstances
under an abuse of discretion standard. State v. Jones, 283
Kan. 186, 215, 151 P.3d 22 (2007); State v. Engelhardt, 280
Kan. 113, 144, 119 P.3d 1148 (2005).
Because the crime in this case occurred in June 2002,
the applicable sentencing statute is K.S.A.2001 Supp.
21–4635(a), which provided in part:
“[I]f a defendant is convicted of the crime of
capital murder and a sentence of death is not
imposed, ... the court shall determine whether
the defendant shall be required to serve ... for
crimes committed on and after July 1, 1999, a
mandatory term of imprisonment of 50 years
or sentenced as otherwise provided by law.”
K.S.A.2001 Supp. 21–4635(b) directs the sentencing
court to consider evidence of aggravating and mitigating
circumstances in determining whether to impose a hard
50 sentence. If the court finds that one or more of the
aggravating circumstances enumerated in K.S.A.2001
Supp. 21– 4636 exist and that the existence of such
aggravating circumstances is not outweighed by any
mitigating circumstances, the defendant “shall” receive
the hard 50 sentence. K.S.A.2001 Supp. 21–4635(c).
Here, the sentencing court found that one aggravating
circumstance existed—the defendant committed the
crime in an especially heinous, atrocious, or cruel
manner. K.S.A.2001 Supp. 21–4636(f). As a basis for

147a
Appendix E
the aggravating circumstance, the court found (1) there
was infliction of mental anguish or physical abuse before
the victim’s death and (2) there were continuous acts of
violence before and continuing after the killing. K.S.A.
2001 Supp. 21–4636(f)(3), (5). Appleby does not raise any
arguments disputing these findings.
At sentencing, Appleby asserted two statutory
mitigating circumstances. See K.S.A. 21–4637 (“Mitigating
circumstances shall include, but are not limited to” the
listed factors.). First, he argued he was under the influence
of extreme mental and emotional disturbances at the
time of the incident. K.S.A. 21–4637(b). Second, Appleby
contended his capacity to appreciate the criminality of his
conduct and conform his conduct to the requirements of
the law was substantially impaired because of his mental
condition at the time of the incident. K.S.A. 21–4637(f).
He also presented nonstatutory mitigating evidence that
he was exposed to violence, substance abuse, lawless
behavior, and abandonment during his youth.
At the sentencing hearing, Appleby presented the
testimony of two experts, Dr. David George Hough, a
clinical psychologist, and Dr. Edward Robert Friedlander,
a board-certified anatomical and clinical pathologist.
Dr. Hough, who conducted psychological testing
on Appleby, diagnosed him with intermittent explosive
disorder, which Dr. Hough explained, is recognized as a
mental disease or defect. According to Dr. Hough, such
behavior is “driven by uncontrolled emotion, mainly rage,”
and it is “manifested by such correlates as hyperarousal,

148a
Appendix E
a collapse of thinking or cognitive mediation.” Focusing on
the crime in this case, Dr. Hough opined that “something
got kindled inside [Appleby], and what got kindled was this
enormous rage that was way out of proportion to anything
[A.K.] could have said or done.... The best I can tell is
that this was not planned or organized or premeditated
or rehearsed.” Dr. Hough concluded that Appleby did not
have complete control of himself during the event.
Dr. Friedlander gave expert opinion testimony
regarding the events in the pool pump room. He did not
view the crime scene or the autopsy, but he reviewed the
report of Dr. Handler, who performed the autopsy in this
case, spoke with Dr. Handler, and reviewed some of Dr.
Handler’s microscopic slides. Dr. Friedlander testified
that in his opinion, A.K. was knocked out when she fell
to the ground after being struck only one or two times in
the mouth. Dr. Friedlander further opined that Appleby
punched both of A.K.’s eyes while she was on the ground,
unconscious. And he testified that he did not see evidence
of petechial hemorrhaging; thus, one could not say with
certainty how long A.K. had been strangled.
Appleby contends that the sentencing court did not
give proper weight to his mitigating circumstances and
went so far as to use the mental disorder as an aggravating
circumstance against him in the balancing equation.
He is specifically bothered by the court’s asking at the
sentencing hearing why the mental disorder was not an
aggravating circumstance: “If [Appleby] has intermittent
explosive disorder and is prone to strong outpourings of
rage and behavior far out of proportion to anything that

149a
Appendix E
occurs to him, why is that a reason for a lesser sentence
instead of a greater sentence?” Defense counsel explained
immediately, however, that it would show “he was not
necessarily in control of his actions like the rest of us
would be.” The court then pointed to the jury’s finding
that the crime was premeditated. The court was clearly
trying to understand how the two concepts could coexist.
Appleby also points to this statement in the court’s
sentencing memorandum: “To the extent that the defendant
has ‘intermittent explosive disorder,’ as testified to by Dr.
George Hough, that does not suggest a need to lock the
defendant up for a shorter, rather than a longer, period.”
But Appleby fails to look at the surrounding context. In
the preceding sentences, the court states that it gave “due
consideration” to the mitigating circumstances presented
by the defense, including the evidence, affidavits, and
letters submitted by the defense. Then, in the sentence on
which Appleby focuses, the court’s statements regarding
Dr. Hough’s testimony suggest that the court was looking
at the evidence as presented—mitigating circumstances.
In the next sentence, the court indicates that Dr. Hough’s
testimony failed to explain the defendant’s premeditated
conduct, despite ample evidence to support the jury’s
verdict. Nowhere did the court say or even imply that
Appleby was going to receive a longer sentence due to his
alleged mental defect.
Appleby contends that the present case is similar to
Miller v. State, 373 So.2d 882, 885 (Fla.1979), in which
the Florida Supreme Court vacated the trial court’s
sentence of death because the trial court “considered as
an aggravating factor the defendant’s allegedly incurable

150a
Appendix E
and dangerous mental illness.” In addition, Appleby cites
Zant v. Stephens, 462 U.S. 862, 103 S.Ct. 2733, 77 L.Ed.2d
235 (1983), which expressly left open the possibility that in
a “weighing” state, infection of the process with an invalid
aggravating factor might require invalidation of a death
sentence. Both of these cases are inapplicable; in this case,
the trial court considered the factor as a mitigator and
did not improperly consider the factor as an aggravating
circumstance.
The final authority advanced by Appleby is State
v. Legendre, 522 So.2d 1249 (La.App.1988), where the
defendant was convicted of second-degree battery and
received 5 years of hard labor, the maximum sentence. The
evidence supported the conclusion that the defendant had
the necessary specific intent to inflict serious bodily injury
on the victim. According to Louisiana law, maximum
sentences could “be justified only in cases classified as
‘extreme’ by the factual circumstances of the offense and
the apparent [dangerousness] of the defendant.” Legendre,
522 So.2d at 1252.
The sentencing court had evidence that the defendant
was a chronic paranoid schizophrenic, and Louisiana
case law indicated that mental illness should be used
as a mitigating circumstance. See Legendre, 522 So.2d
at 1252. The Louisiana appellate court found that the
trial court did not consider the defendant’s mental
condition a mitigating circumstance in imposing the
sentence. Instead, the trial court seemed to consider it an
aggravating circumstance by stating that the defendant’s
main problem was “ ‘his lack of insight to his illness and
his refusal to take prescribed medication away from the

151a
Appendix E
hospital.’ ” Legendre, 522 So.2d at 1253. The case was
remanded for resentencing, the appellate court holding
that when a person with a recognized, diagnosed mental
illness is convicted of crimes, that condition should be
considered to mitigate the type and length of sentence
imposed on the offender, “even if he has been ruled legally
sane.” Legendre, 522 So.2d at 1253.
The laws in Legendre are inapplicable to the present
case. Appleby essentially argues that the court failed to
properly and carefully consider the mitigating evidence
and, instead, focused only on evidence supporting the
aggravating circumstance. But the sentencing court’s
comments clearly show that the court did properly
consider and weigh the defendant’s mitigators.
In this case, the trial court simply found that the State’s
aggravating circumstance outweighed the defendant’s
mitigating circumstances. It is well established that
“‘[w]eighing aggravating and mitigating circumstances
is not a numbers game. “One aggravating circumstance
can be so compelling as to outweigh several mitigating
circumstances”’ and vice versa. [Citations omitted.]”
Engelhardt, 280 Kan. at 144, 119 P.3d 1148.
Appleby has failed to establish an abuse of discretion.
ISSUE 6. HARD 50 SENTENCE:
CONSTITUTIONALITY
Appleby contends that the hard 50 sentencing scheme
is unconstitutional because it permits the sentencing court

152a
Appendix E
to find facts that enhance the available sentencing range,
utilizing a preponderance of the evidence standard, in
violation of Apprendi v. New Jersey, 530 U.S. 466, 120
S.Ct. 2348, 147 L.Ed.2d 435 (2000).
This court has repeatedly rejected similar arguments
challenging the constitutionality of the hard 40/hard
50 sentencing scheme and held our hard 50 scheme is
constitutional. State v. Johnson, 284 Kan. 18, 22–23, 159
P.3d 161 (2007), cert. denied, 552 U.S. 1104, 128 S.Ct. 874,
169 L.Ed.2d 737 (2008); see also State v. Warledo, 286
Kan. 927, 954, 190 P.3d 937 (2008) (reaffirming State v.
Conley, 270 Kan. 18, 11 P.3d 1147 [2000], citing Johnson
with approval, and noting that the United States Supreme
Court has not “altered decisions in which it recognized
that the [Apprendi ] prohibition does not apply when
considering the minimum sentence to be imposed”);
State v. Albright, 283 Kan. 418, 424, 153 P.3d 497 (2007).
Appleby presents no persuasive reason to abandon this
long line of precedent.
Affirmed in part, reversed in part, and sentence
vacated in part.
McFARLAND, C.J., not participating.
DANIEL L. LOVE, District Judge, assigned.

153a
Appendix E
JOHNSON, J., concurring in part and dissenting in
part:
Beg inning w ith the suppression issue, I first
acknowledge the majority’s thorough and thoughtful
analysis of the more recent post-Miranda decisions.
In my view, such a detailed synthesization of the cases
is testament to the manner in which appellate courts
have worked diligently and creatively to unnecessarily
complicate, and thus emasculate, the straight-forward
directive, pronounced in Miranda some 43 years ago
and quoted by the majority, that “a pre-interrogation
request for a lawyer ... affirmatively secures [the] right
to have one.” Miranda v. Arizona, 384 U.S. 436, 470, 86
S.Ct. 1602, 16 L.Ed.2d 694, reh. denied 385 U.S. 890, 87
S.Ct. 11, 17 L.Ed.2d 121 (1966). Nevertheless, even in the
current environment, I would find that Appleby effectively
invoked his Fifth Amendment right to counsel.
First, I would not require a detainee to possess
the knowledge of a constitutional scholar well-versed
in Fifth and Sixth Amendment jurisprudence. Rather,
I would view the circumstances from the perspective
of an objectively reasonable layperson interacting with
an objectively reasonable law enforcement officer. In
that context, even though only the officer knew that the
arrest was pretextual, both could not have questioned
that Appleby was actually in custody on the 6–year–old
Connecticut charges, so as to trigger the protections
applicable to custodial interrogations.

154a
Appendix E
In that setting, Appleby asked Detective Jewiss about
consulting with an attorney not once, but four times. The
trial court found that Appleby had asserted his right to
an attorney, albeit perhaps only for Sixth Amendment
purposes. The majority questions, but does not decide,
whether the wording of Appleby’s requests was sufficient
to support the trial court’s finding. Without belaboring
the point, I would simply submit that one might expect
a detainee, who has been confronted in his home by a
multitude of armed officers, arrested, and taken to jail,
to propound a request for an attorney in a most polite
and nonconfrontational manner. Moreover, Appleby’s
persistence in making a number of requests in a short
period of time belies any equivocation as to his desire
to have an attorney present or as to Detective Jewiss’
understanding of that desire.
Granted, the majority discards two of Appleby’s
requests; one because it was made prior to his receiving
the Miranda warnings and one because it was tied to the
execution of the DNA search warrant. Even without those
requests, however, Appleby still asked about consulting
with an attorney twice after receiving the following Notice
of Rights:
“1. You are not obligated to say anything, in regard
to this offense you are charged with but may
remain silent.
“2. Anything you may say or any statements you
make may be used against you.

155a
Appendix E
“3. You are entitled to the services of an attorney.
“4. If you are unable to pay for the services of an
attorney you will be referred to a Public Defender
Office where you may request the appointment of
an attorney to represent you.
“5. You may consult with an attorney before being
questioned, you may have an attorney present
during questioning and you can not be questioned
without your consent. X [Initialed:] BA
“6. (Not applicable if you were arrested on a
Superior Court Warrant which specified that
bail should be denied or which ordered that you
be brought before a clerk or assistant clerk of the
Superior Court.)
You have a right to be promptly interviewed concerning
the terms and conditions of your release pending further
proceedings, and upon request, counsel may be present
during this interview.”
A reasonably intelligent person could not read the
plain language of paragraph 3 of that form and know, or
even guess, that the “services of an attorney” to which he
or she is facially unequivocally entitled are, as a matter
of law, divided into two categories, i.e., Fifth Amendment
services and Sixth Amendment services. Accordingly, a
detainee would need to possess excellent clairvoyance—or
astute constitutional acumen—to ascertain that, if there
is any way in which the detainee’s request for an attorney

156a
Appendix E
might be construed as being for Sixth Amendment
purposes, then the right would not actually accrue or the
request become effective until some undisclosed later
time, after the detainee has been subjected to a custodial
interrogation.
Likewise, the language of paragraph 5 would not,
on its face, be confusing to a layperson. The detainee
may consult with an attorney “before being questioned ”;
then the detainee may have an attorney present “during
questioning ”; but ultimately, the detainee may withhold
consent to be questioned at all. However, from a temporal
standpoint, a detainee dare not take his or her stated
rights literally at the risk of being legally sandbagged.
Under the authority cited by the majority, the right to
consult with an attorney may be validly asserted only
when authorities are conducting a custodial interrogation
or when such interrogation is imminent. See 2 LaFave,
Israel, King & Kerr, Criminal Procedure § 6.9(g), p. 869
n. 200 (3d ed.2007). In other words, contrary to the plain
language in the Notice of Rights, an attempt to exercise
of the right to “consult with an attorney before being
questioned” will be deemed invalid as anticipatory, unless
it is asserted during questioning.
Appleby faced one more explosive in the minefield
that lay between the receipt of the Notice of Rights and
the exercise of those rights. The form told Appleby that
he could have an attorney present during questioning.
Detective Jewiss propounded questions to Appleby
during the book-in process, and Appleby twice asked
about consulting an attorney while answering those
questions. The majority flicks away that circumstance as

157a
Appendix E
not being an “interrogation,” noting parenthetically that
the courts have recognized a “‘routine booking question’”
exception to Miranda for questions designed to obtain
the “‘“biographical data necessary to complete booking
or pretrial services.”’” Pennsylvania v. Muniz, 496 U.S.
582, 601, 110 S.Ct. 2638, 110 L.Ed.2d 528 (1990).
How was Appleby to know of this court-made
exception? The Notice of Rights form did not suggest
any exceptions. Detective Jewiss’ self-serving testimony
that he advised Appleby that someone else would be
talking to him about the case does not change the fact
that Detective Jewiss was “questioning” Appleby, even
if it was not a legal interrogation for Miranda purposes.
Moreover, the distinction between booking questions and
case interrogation is less defined in this case, given that
part of the biographical data, specifically Appleby’s use
of an alias, was to be an integral part of the prosecution.
Nevertheless, I reject the notion that Appleby’s invocation
of his right to an attorney, made while he was in custody
and being questioned by a law enforcement officer, was
an anticipatory request that did not manifest an intent to
have an attorney present during questioning, as he had
been advised was his right.
Under the circumstances of this case, I would find that
Appleby effectively invoked his Fifth Amendment right
to counsel with respect to the Connecticut charges and in
conformance with the Notice of Rights he had been given
in that case. As the majority notes, McNeil v. Wisconsin,
501 U.S. 171, 176–77, 111 S.Ct. 2204, 115 L.Ed.2d 158
(1991), instructs us that Appleby could not thereafter

158a
Appendix E
be approached for further interrogation by the Kansas
detectives. Accordingly, I would reverse the denial of the
suppression motion.
I concur with the majority’s result on the other issues.
However, I feel compelled to voice my concerns, or perhaps
merely display my lack of comprehension, on the stated
law applicable to the double jeopardy and premeditation
issues.
The majority notes that a constitutional claim of
double jeopardy arises when a defendant is actually
punished more than once for committing one offense. It
then turns to the State v. Schoonover, 281 Kan. 453, 133
P.3d 48 (2006), paradigm of applying the strict-elements
test to a unitary conduct, multiple-description scenario to
determine what constitutes one offense. The rationale for
that approach is to “implement the legislative declaration
in [K.S.A. 21–3107] that a defendant may be convicted
of two crimes arising from the same conduct unless one
is a lesser included offense of the other.” Schoonover,
281 Kan. at 498, 133 P.3d 48. In other words, if a person
commits a single act, rather than two acts of discrete
conduct, that person may be punished as many times as
the legislature may dictate through its definition of the
elements of various crimes.
In my view, that is tantamount to letting the tail
wag the dog in the arena of constitutional jurisprudence.
Under the separation of powers doctrine, the judiciary is
to interpret the Constitution, i.e., determine whether a
person is being unconstitutionally subjected to multiple

159a
Appendix E
punishments, rather than abdicating that responsibility
to the legislature. To the contrary, by developing a test
that implements K.S.A. 21–3107, we have permitted
the legislature to tell the judiciary that the prohibition
against multiple punishments guaranteed by the Double
Jeopardy Clauses of our state and federal Constitutions
simply does not apply in this state, unless perhaps a
lesser included offense is involved. For instance, the
legislature could effect a multiple punishment in nearly
every speeding or other traffic infraction case by creating
the crime of possessing a motor vehicle with the intent
to use it to commit a traffic offense. See State v. Cooper,
285 Kan. 964, Syl. 3, 4, 179 P.3d 439 (2008) (offense of
manufacturing methamphetamine does not have the
same elements as offense of using drug paraphernalia to
manufacture methamphetamine; multiple punishments
for the same conduct is constitutional so long as the
crimes have different elements). I simply cannot accept
that constitutional rights are to be determined by the
legislature.
Finally, tilting at one last windmill, I must express my
frustration with the complete adulteration of the rather
simple concept of premeditation. In my view, that concept
was aptly described in a portion of the definition proffered
in State v. Gunby, 282 Kan. 39, Syl. ¶ 9, 144 P.3d 647
(2006), which stated that “[p]remeditation is the process
of thinking about a proposed killing before engaging in
the homicidal conduct.” Unfortunately, that case, and
others, have gone further by opining that premeditation
does not have to be present before the commencement of
a fight, quarrel, or struggle and declaring that manual

160a
Appendix E
strangulation is strong evidence of premeditation. 282
Kan. 39, Syl. ¶ 9, 144 P.3d 647. Apparently, the suggestion
is that, even though a killer may commence the homicidal
conduct of manual strangulation without having thought
over the matter beforehand, he or she may be deemed
to have premeditated the killing if there is a possibility
that the killer ruminated upon what he or she was doing
during the murderous act, but before it actually caused
the victim’s death. To the contrary, I would find that
premeditation, as the very word contemplates, requires
that the matter be thought over before commencement
of the homicidal conduct, whether the killing method be
shooting, stabbing, strangulation, or some other means.
Nevertheless, I concur with the majority in this case
because of the evidence supporting two instances of
strangulation, which would allow for a period of time to
premeditate the killing before commencing the second,
fatal strangulation.

161a
F
APPENDIX Appendix
F — SUPPLEMENTAL
MEMORANDUM OF THE DISTRICT COURT
OF JOHNSON COUNTY, KANSAS CRIMINAL
DEPARTMENT, FILED DECEMBER 27, 2006
IN THE DISTRICT COURT OF JOHNSON COUNTY,
KANSAS
CRIMINAL DEPARTMENT
Case No. 04CR2934
Div. No. 8
STATE OF KANSAS,
Plaintiff,
vs.
BENJAMIN APPLEBY,
Defendant.
SUPPLEMENTAL MEMORANDUM EXPLAINING
PRETRIAL CONFERENCE RULINGS
At the final pretrial conference, held November 21,
2006, the Court took up several motions filed by the
defendant. The Court ruled on those motions at that time,
but indicated that it would supplement its oral ruling with
a more detailed memorandum.1
The motions addressed here raise issues relating
to statutes defining the crimes charged against the
1. Though prepared before trial, this supplemental
memorandum was inadvertently not filed at that time.

162a
Appendix F
defendant or the potential sentences he could be given.
Because the crime charged here occurred on June 18,
2002, all of the statutes have been cited and quoted as
they existed at that time.
Motion to Preclude State from Pursuing the CapitalMurder Charge
Defendant seeks to force the State to change its
charge against the defendant from capital murder to firstdegree murder. In its complaint, the State has charged
the defendant with capital murder and attempted rape.
After arraignment, however, the State did not file a notice
under K.S.A. 21-4624 that it would seek a death sentence
upon conviction. Accordingly, a death sentence may not
be sought. Defendant argues that since the death penalty
is no longer an option in the case, the State should not be
allowed to proceed on a capital-murder charge because
doing so would only serve to sensationalize the charge.
Under Kansas law, all crimes are statutory: there
are no common-law crimes. 2 Thus, in the first instance,
it is up to the Legislature to define what is a crime. The
Legislature has separately established the crimes of
capital murder3 and first-degree murder.4 The Legislature
has also recognized that a prosecutor may — or may not
2. K.S.A. 21-3102; State v. Gloyd, 148 Kan. 706, 709, 84 P.2d
966, 968 (1938).
3. K.S.A. 21-3439.
4. K.S.A. 21-3401.

163a
Appendix F
— seek the death penalty in a capital-murder case: K.S.A.
21-4624 requires notice within five days of arraignment
if the death penalty is to be sought. That statute makes
no suggestion that the failure to provide that notice
eliminates the State’s ability to proceed on a charge of
capital murder.
In response to the defendant’s motion, the State
properly notes that the prosecutor is given the responsibility
of determining what charges will be brought against a
defendant. As the Kansas Supreme Court noted in State
v. Williamson, 5 the discretion given to a prosecutor
includes the discretion “to determine who shall be
prosecuted and what crimes shall be charged.”6 The main
function provided by a trial court in checking abuse of the
discretion of the prosecutor comes at preliminary hearing,
when the court determines whether the prosecutor has
presented sufficient evidence against the defendant to
proceed with the case.7 After an extensive preliminary
hearing in this case, the Court found sufficient evidence
to bind this defendant over on both charges.
In support of his motion, defendant cites no case
remotely on point. This is because there simply is no
5. 253 Kan. 163, 165, 853 P. 2d 56, 58 (1993). Accord: State v.
Cope, 30 Kan. App. 2d 893, 893, 50 P.3d 513, 514 (2002) (Syl. ¶12).
6. 253 Kan. at 165, 853 P.2d at 58.
7. See generally Wayne R. LaFave, Jerold H. Israel &
Nancy J. King, Criminal Procedure § 14.1 (4th ed. 2004) (primary
purpose of preliminary hearing is as an independent screening
of the prosecutor’s charging decision, which provides a check on
malicious or oppressive prosecutions).

164a
Appendix F
authority for a court to tell a prosecutor that he may
not proceed against a defendant on a statutorily defined
charge when there is sufficient evidence in place to
support the charge. Those decisions are properly made
in the Executive Branch, represented by the prosecutor,
not the Judicial Branch, represented by the trial judge.
The Kansas Supreme Court made this point quite clearly
in Williamson: “Allowing judicial oversight of what is
essentially a function of the prosecutor’s office amounts to
an impermissible judicial intrusion into the prosecutor’s
function and erodes executive power.”8 Defendant’s motion
must be denied.
Motion to Declare K.S.A. 21-4635 Unconstitutional
Defendant next asks the Court to declare the
sentencing process mandated by K.S.A . 21- 4635
unconstitutional. Under that statute, if a defendant is
convicted either of capital murder or the lesser-included
offense of first-degree murder, the trial judge determines
in a separate sentencing proceeding whether a mandatory
prison term of 50 years should be imposed. Such a sentence
is generally referred to as a “hard 50” sentence, since it
must be fully served—with no credits for good behavior in
prison—before a defendant is eligible for parole. What the
judge is determining through this process actually is not
the sentence the defendant will receive—K.S.A. 21-4706(c)
provides for a sentence of life in prison on conviction either
for capital murder or first-degree murder. The judge
merely determines when the defendant will be eligible
for parole: 25 years, as provided for in most cases under
8. 253 Kan. at 163, 853 P.2d at 57 (Syl. ¶5).

165a
Appendix F
K.S.A. 22-3717(b)(l), or 50 years, as provided for in K.S.A.
21-4635 et seq. when aggravating circumstances are not
outweighed by mitigating ones.
Defendant argues that the procedure of K.S.A. 214635 is flawed because factual findings are made during
the sentencing hearing by the judge, not a jury. Defendant
concedes that his argument is contrary to the Kansas
Supreme Court’s 2000 ruling in State v. Conley,9 but
argues that this Court should grant his motion either
by finding that the Kansas Supreme Court got it wrong
in Conley or that the reasoning of Conley has, in effect,
been overruled by later United States Supreme Court
decisions. The State counters that the Kansas Supreme
Court rejected a constitutional challenge to this statute
within the past two months in State v. Reed.10
It is fundamental to the rule of law that trial courts
follow the precedents of the appellate courts. Lower courts
are “duty bound” to follow the precedents of the Kansas
Supreme Court “absent some indication that the court
is departing from its previous position.”11 The Kansas
Supreme Court has upheld the hard-50 sentencing statute
three times in the past six months—in Reed,12 State v.

9. 270 Kan. 18, 11 P.3d 1147 (2000).
10.

Kan.

, 144 P.3d 137 (2006).

11. State v. Smith, Kan. App. 2d , 142 P.3d 739, (2006)
(holding that the Kansas Court of Appeals is so limited).
12.

Kan.

, 144 P.3d 137 (2006).

166a
Appendix F
Kirtdoll,13 and State v. Lawrence.14 This Court is clearly
bound by those decisions. Defendant’s motion must be
denied.
/s/			
Steve Leben
District Judge

13. 281 Kan. 1138, 136 P.3d 417 (2006).
14. 281 Kan. 1081, 135 P.3d 1211 (2006).

167a
AppendixOF
A REHEARING OF
APPENDIX G — DENIAL
THE SUPREME COURT OF KANSAS, DATED
JUNE 8, 2021
SUPREME COURT OF KANSAS
Appellate Case No. 19-122281-S
District Court Case No. 04CR2934
STATE OF KANSAS,
Appellee,
v.
BENJAMIN A. APPLEBY,
Appellant.
THE COURT HAS TAKEN THE FOLLOWING
ACTION:
MOTION FOR REHEARING OR MODIFICATION
BY PARTY.
CONSIDERED BY THE COURT AND DENIED.
Dated: June 8, 2021
Douglas T. Shima
Clerk of the Appellate Courts

168a
Appendix
H
Appendix
H — RELEVANT
STATUTORY PROVISIONS
2006 Kansas Code - 21-4635
21-4635. Sentencing of certain persons to mandatory
term of imprisonment of 40 or 50 years or life without
the possibility of parole; determination; evidence
presented; balance of aggravating and mitigating
circumstances. (a) Except as provided in K.S.A. 214622, 21-4623 and 21-4634 and amendments thereto, if a
defendant is convicted of the crime of capital murder and a
sentence of death is not imposed pursuant to subsection (e)
of K.S.A. 21-4624, and amendments thereto, or requested
pursuant to subsection (a) or (b) of K.S.A. 21-4624, and
amendments thereto, the defendant shall be sentenced to
life without the possibility of parole.
(b) If a defendant is convicted of murder in the first
degree based upon the finding of premeditated murder,
the court shall determine whether the defendant shall
be required to serve a mandatory term of imprisonment
of 40 years or for crimes committed on and after July 1,
1999, a mandatory term of imprisonment of 50 years or
sentenced as otherwise provided by law.
(c) In order to make such determination, the court may
be presented evidence concerning any matter that the court
deems relevant to the question of sentence and shall include
matters relating to any of the aggravating circumstances
enumerated in K.S.A. 21-4636 and amendments thereto
and any mitigating circumstances. Any such evidence
which the court deems to have probative value may be

169a
Appendix H
received regardless of its admissibility under the rules
of evidence, provided that the defendant is accorded a
fair opportunity to rebut any hearsay statements. Only
such evidence of aggravating circumstances as the state
has made known to the defendant prior to the sentencing
shall be admissible and no evidence secured in violation
of the constitution of the United States or of the state of
Kansas shall be admissible. No testimony by the defendant
at the time of sentencing shall be admissible against the
defendant at any subsequent criminal proceeding. At the
conclusion of the evidentiary presentation, the court shall
allow the parties a reasonable period of time in which to
present oral argument.
(d) If the court finds that one or more of the
aggravating circumstances enumerated in K.S.A. 214636 and amendments thereto exist and, further, that
the existence of such aggravating circumstances is not
outweighed by any mitigating circumstances which are
found to exist, the defendant shall be sentenced pursuant
to K.S.A. 21-4638 and amendments thereto; otherwise, the
defendant shall be sentenced as provided by law. The court
shall designate, in writing, the statutory aggravating
circumstances which it found. The court may make the
findings required by this subsection for the purpose of
determining whether to sentence a defendant pursuant to
K.S.A. 21-4638 and amendments thereto notwithstanding
contrary findings made by the jury or court pursuant to
subsection (e) of K.S.A. 21-4624 and amendments thereto
for the purpose of determining whether to sentence such
defendant to death.

170a
Appendix H
2006 Kansas Code - 21-4636
21- 4636. Same; agg ravating circumstances.
Aggravating circumstances shall be limited to the
following:
(a) The defendant was previously convicted of a
felony in which the defendant inflicted great bodily harm,
disfigurement, dismemberment or death on another.
(b) The defendant knowingly or purposely killed or
created a great risk of death to more than one person.
(c) The defendant committed the crime for the
defendant’s self or another for the purpose of receiving
money or any other thing of monetary value.
(d) The defendant authorized or employed another
person to commit the crime.
(e) The defendant committed the crime in order to
avoid or prevent a lawful arrest or prosecution.
(f) The defendant committed the crime in an especially
heinous, atrocious or cruel manner. A finding that the
victim was aware of such victim’s fate or had conscious
pain and suffering as a result of the physical trauma that
resulted in the victim’s death is not necessary to find
that the manner in which the defendant killed the victim
was especially heinous, atrocious or cruel. In making
a determination that the crime was committed in an
especially heinous, atrocious or cruel manner, any of the

171a
Appendix H
following conduct by the defendant may be considered
sufficient:
(1) Prior stalking of or criminal threats to the victim;
(2) preparation or planning, indicating an intention
that the killing was meant to be especially heinous,
atrocious or cruel;
(3) infliction of mental anguish or physical abuse before
the victim’s death;
(4) torture of the victim;
(5) continuous acts of violence begun before or
continuing after the killing;
(6) desecration of the victim’s body in a manner
indicating a particular depravity of mind, either during
or following the killing; or
(7) any other conduct in the opinion of the court that
is especially heinous, atrocious or cruel.
(g) The defendant committed the crime while serving
a sentence of imprisonment on conviction of a felony.
(h) The victim was killed while engaging in, or because
of the victim’s performance or prospective performance of,
the victim’s duties as a witness in a criminal proceeding.

172a
Appendix H
2006 Kansas Code - 21-4637
21-4637. Same; mitigating circumstances. Mitigating
circumstances shall include, but are not limited to, the
following:
(a) The defendant has no significant history of prior
criminal activity.
(b) The crime was committed while the defendant
was under the influence of extreme mental or emotional
disturbances.
(c) The victim was a participant in or consented to the
defendant’s conduct.
(d) The defendant was an accomplice in the crime
committed by another person, and the defendant’s
participation was relatively minor.
(e) The defendant acted under extreme distress or
under the substantial domination of another person.
(f) The capacity of the defendant to appreciate the
criminality of the defendant’s conduct or to conform
the defendant’s conduct to the requirements of law was
substantially impaired.
(g) The age of the defendant at the time of the crime.
(h) At the time of the crime, the defendant was
suffering from posttraumatic stress syndrome caused by
violence or abuse by the victim.

173a
Appendix H
2006 Kansas Code - 21-4638
21-4638. Same; imposition of sentence of mandatory
imprisonment of 40 years or 50 years. When it is provided
by law that a person shall be sentenced pursuant to this
section, such person shall be sentenced to imprisonment
for life and shall not be eligible for probation or suspension,
modification or reduction of sentence. Except as otherwise
provided, in addition, a person sentenced pursuant to this
section shall not be eligible for parole prior to serving 40
years’ imprisonment, and such 40 years’ imprisonment
shall not be reduced by the application of good time
credits. For crimes committed on and after July 1, 1999,
a person sentenced pursuant to this section shall not be
eligible for parole prior to serving 50 years’ imprisonment,
and such 50 years’ imprisonment shall not be reduced by
the application of good time credits. Upon sentencing a
defendant pursuant to this section, the court shall commit
the defendant to the custody of the secretary of corrections
and the court shall state in the sentencing order of the
judgment form or journal entry, whichever is delivered
with the defendant to the correctional institution, that the
defendant has been sentenced pursuant to K.S.A. 21-4638
and amendments thereto.

174a
Appendix H
2006 Kansas Code - 21-4639
21-4639. Same; provisions of act held unconstitutional;
modification of sentence previously determined under
this act. In the event the mandatory term of imprisonment
or any provision of this act authorizing such mandatory
term is held to be unconstitutional by the supreme court
of Kansas or the United States supreme court, the court
having jurisdiction over a person previously sentenced
shall cause such person to be brought before the court
and shall modify the sentence to require no mandatory
term of imprisonment and shall sentence the defendant
as otherwise provided by law.

175a
Appendix H
2019 Kansas Code - 21-6628
21-6628. Provisions of certain sentencing rules
held unconstitutional; modification of sentence
previously determined. (a) In the event the term of
imprisonment for life without the possibility of parole or
any provision of K.S.A. 2019 Supp. 21-6626 or 21-6627,
and amendments thereto, authorizing such term is held
to be unconstitutional by the supreme court of Kansas
or the United States supreme court, the court having
jurisdiction over a person previously sentenced shall
cause such person to be brought before the court and shall
modify the sentence to require no term of imprisonment
for life without the possibility of parole and shall sentence
the defendant to the maximum term of imprisonment
otherwise provided by law.
(b) In the event a sentence of death or any provision
of chapter 252 of the 1994 Session Laws of Kansas
authorizing such sentence is held to be unconstitutional
by the supreme court of Kansas or the United States
supreme court, the court having jurisdiction over a
person previously sentenced shall cause such person to be
brought before the court and shall modify the sentence and
resentence the defendant as otherwise provided by law.
(c) In the event the mandatory term of imprisonment
or any provision of chapter 341 of the 1994 Session Laws
of Kansas authorizing such mandatory term is held to be
unconstitutional by the supreme court of Kansas or the
United States supreme court, the court having jurisdiction
over a person previously sentenced shall cause such

176a
Appendix H
person to be brought before the court and shall modify the
sentence to require no mandatory term of imprisonment
and shall sentence the defendant as otherwise provided
by law.

